<html>
<title> - GIANT SALVINIA: HOW DO WE PROTECT OUR ECOSYSTEMS?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
           GIANT SALVINIA: HOW DO WE PROTECT OUR ECOSYSTEMS? 

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

            Monday, June 27, 2011, in Shreveport, Louisiana

                               __________

                           Serial No. 112-47

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-320 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
      
























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, June 27, 2011............................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     4

Statement of Witnesses:
    Barham, Hon. Robert, Secretary, Louisiana Department of 
      Wildlife and Fisheries.....................................    16
        Prepared statement of....................................    18
    Burns, Hon. Henry L., State Representative, 9th District, 
      Louisiana House of Representatives.........................    14
        Prepared statement of....................................    16
    Grodowitz, Michael J., Ph.D., Research Entomologist, Engineer 
      Research and Development Center, U.S. Army Corps of 
      Engineers, Vicksburg, Mississippi..........................    23
        Prepared statement of....................................    25
    Lowerre, Richard, President, Caddo Lake Institute............    59
        Prepared statement of....................................    61
    Massimi, Michael, Invasive Species Coordinator, Barataria-
      Terrebonne National Estuary Program........................    52
        Prepared statement of....................................    54
    Melinchuk, Ross, Deputy Executive Director, Natural 
      Resources, Texas Parks and Wildlife Department.............    20
        Prepared statement of....................................    22
    Sanders, Dr. Dearl, Edmiston Professor and Resident 
      Coordinator, Bob R. Jones Idlewild Research Station, 
      Louisiana State University Agricultural Center.............    47
        Prepared statement of....................................    48
    Trandahl, Jeffrey, Executive Director, National Fish and 
      Wildlife Foundation........................................    64
        Prepared statement of....................................    65
    Waitt, Damon E., Ph.D., Senior Director and Botanist, Lady 
      Bird Johnson Wildflower Center, University of Texas at 
      Austin.....................................................    68
        Prepared statement of....................................    70
    Ward, Kenneth L., Project Manager, Department of Public 
      Works, Parish of Caddo, Louisiana..........................    56
        Prepared statement of....................................    58
    Westbrooks, Dr. Randy G., Invasive Species Prevention 
      Specialist, U.S. Geological Survey, U.S. Department of the 
      Interior...................................................    28
        Prepared statement of....................................    29

Additional materials supplied:
    Adley, Hon. Robert, State Senator, Senate District 36, State 
      of Louisiana, Statement submitted for the record...........    13
    Altimus, William R., Bossier Parish Police Jury District 9, 
      Statement submitted for the record.........................    82
    Cypress Valley Navigation District, Marshall, Texas, ``Giant 
      Salvinia Response Program'' dated June 1, 2011, submitted 
      for the record.............................................    83
    Hanson, Gary M., Director, Red River Watershed Management 
      Institute, Louisiana State University Shreveport...........     9
    Hughes, Hon. Bryan, State Representative, 5th District, Texas 
      House of Representatives, Letter submitted for the record..     6
    Texas A&M College of Agriculture and Life Sciences, Statement 
      submitted for the record...................................     6


     OVERSIGHT HEARING ON ``GIANT SALVINIA: HOW DO WE PROTECT OUR 
                             ECOSYSTEMS?''

                              ----------                              


                         Monday, June 27, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                         Shreveport, Louisiana

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
the University Center Theater, Campus of LSU-Shreveport, 
Shreveport, Louisiana, Hon. John Fleming [Chairman of the 
Subcommittee] Presiding.
    Present: Representatives Fleming and Gohmert.
    Dr. Fleming. OK. I want to thank everyone today for 
spending their Monday morning with us on this very important 
hearing.
    We're going to start the day as we do every day in 
Washington, and that's with a prayer, so I'd ask Pastor Chad 
Mills to come forward and lead us in prayer. He's from Oil City 
First Baptist Church.
    Rev. Mills. Would you join me as I pray?
    [Prayer.]
    Dr. Fleming. Thank you. Next we have the Boy Scouts coming 
forward to present the colors.
    Color Guard Leader. If everyone will stand.
    [Colors presented.]
    [Pledge of Allegiance.]

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. Be seated. The Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs will come to order.
    Good morning, ladies and gentlemen, and welcome to 
Louisiana State University's Shreveport campus. I am pleased to 
be hosting this congressional hearing with my good friend and 
colleague from Tyler, Texas, Congressman Louie Gohmert.
    We both want to thank LSU for allowing us to utilize this 
beautiful auditorium and for all the assistance we've received 
in making this important hearing come together.
    Now, I intend to conduct this hearing as if it were in 
Washington, DC. This is not a town hall meeting. The way we do 
hearings in Washington are through a very tightly scripted 
format, a very formal kind of format.
    And whenever we have field hearings such as this, we do it 
the same way we do it in Washington. It may be a little more 
relaxed at times, but this is not a town hall or a public 
hearing.
    Certainly there are other formats in the future that 
perhaps we can do that, but the important focus today is to 
learn from the experts on this subject to collate the data.
    So we want to make sure and stay certainly on our schedule 
and make sure that we get all the important information that we 
can possibly get.
    The purpose of today's hearing is to obtain testimony on 
efforts to control and eradicate one of the worst invasive 
weeds in the world.
    Native to Brazil, giant salvinia has been devastating to 
both Lake Caddo and Bistineau. Long before I was elected to 
Congress, I've been aware of the giant salvinia problem. My 
hometown of Minden sits along the north bank of Lake Bistineau 
and has faced the detrimental effects of giant salvinia to the 
community at large.
    Let me share with the audience some brief descriptions of 
this nasty invasive plant. The Texas Parks and Wildlife 
Department has recently issued a publication that states, put 
simply, invasives can kill a lake, and giant salvinia is the 
worst of the lot.
    Former Eagles band member and Caddo Lake Institute founder, 
Don Henley, reminds us that it's probably the most dire threat 
that the lake has ever faced.
    And Dr. Randy Westbrooks of the United States Geological 
Survey has noted that giant salvinia plants do not die quickly. 
In fact, they can live a few days or even a couple of weeks out 
of water.
    It is, therefore, not surprising that giant salvinia has 
been officially banned in the United States by its inclusion on 
the Federal Noxious Weed List and that it is a state crime to 
distribute, possess, sell or transport this ruthless aquatic 
invasive fern in both Louisiana and Texas.
    The good news is that no one has ignored this problem and 
allowed the menace to destroy Caddo Lake like Lake Bistineau 
and other freshwater bodies of water.
    Through the combined efforts of Federal, state, local, and 
non-governmental organizations like Bistineau Task Force and 
the Caddo Lake Institute, there's been a comprehensive effort 
to control and eradicate giant salvinia.
    These efforts have literally saved these lakes from 
becoming giant dead zones and thousands of our neighbors are 
able to continue enjoying boating, fishing, and recreating on 
these waters.
    The fight to eradicate giant salvinia will be a long and 
arduous battle. Once an invasive species has become 
established, it is difficult, if not impossible, to completely 
remove it. There's no silver bullet to kill giant salvinia.
    What we know, however, is that its biomass can double in 
size in a week or ten days and that its expanded mats of 
vegetation degrade fishing habitat, decrease water quality, 
create unsafe boating and fishing access and threaten property 
values.
    We will continue to contain this invasive species by 
utilizing a number of different strategies, including simple 
things like making absolutely sure that once a boat is removed 
from the lake, the boat owner does not allow giant salvinia to 
hitchhike home.
    We have asked today's witnesses to share with us their 
thoughts on where we are in the fight against giant salvinia, 
what control or eradication strategies have worked and at what 
cost, whether we can develop a more weather-resistant weevil 
and how we can finance these efforts in the future.
    I look forward to hearing from our distinguished witnesses, 
including two elected representatives from Louisiana and Texas.
    I'm now pleased to recognize Congressman Louie Gohmert for 
whatever time he would like to use.
    [The prepared statement of Chairman Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, ladies and gentlemen and welcome to Louisiana State 
University's Shreveport campus. I am pleased to be hosting this 
Congressional Hearing with my good friend and colleague from Tyler, 
Texas, Congressman Louie Gohmert. We both want to thank LSU for 
allowing us to utilize this beautiful Theater and for all of the 
assistance that we received in making this important hearing a reality.
    The purpose of today's hearing is to obtain testimony on efforts to 
control and eradicate one of the worst invasive weeds on this planet. 
While there are many wonderful people and things that have arrived from 
Brazil, Giant Salvinia is not one of them. In fact, let me share with 
the audience some briefs descriptions of this nasty invasive plant.
    The Texas Parks and Wildlife Department has recently issued a 
publication that states: ``Put simply, invasives can kill a lake, and 
Giant Salvinia is the worst of the lot.'' Former Eagles band and Caddo 
Lake Institute Founder, Don Henley, reminds us that: ``It's probably 
the most dire threat that the lake has ever faced.'' And, Dr. Randy 
Westbrooks of the United States Biological Services has noted that: 
``Giant Salvinia plants do not die quickly. In fact, they can live a 
few days or even a couple of weeks out of water.''
    It is, therefore, not surprising that Giant Salvinia has been 
``officially banned'' in the United States by its inclusion on the 
Federal Noxious Weed List and that it is a state crime to distribute, 
possess, sale or transport this root less aquatic invasive fern in both 
Louisiana and Texas.
    The good news is that no one has ignored this problem and allowed 
this menace to destroy Caddo Lake, Lake Bistineau and other freshwater 
bodies of water. Through the combined efforts of federal, state, local 
and non-governmental organizations like the Bistineau Task Force and 
the Caddo Lake Institute, there has been a comprehensive effort to 
control and eradicate Giant Salvinia. These efforts have literally save 
these lakes from becoming giant ``dead zones'' and thousands of our 
neighbors are able to continue to enjoy boating, fishing and recreating 
on these waters.
    Just like international terrorism, however, this will be a long and 
arduous battle. Once an invasive species has become established it is 
difficult, if not impossible, to completely remove it. There is no 
silver bullet to kill Giant Salvinia. What we know, however, is that 
its biomass can double in size in a week or ten days and that its 
expanded mats of vegetation degrades fishing habitat, decreases water 
quality, creates unsafe boating and fishing access and threatens 
property values. We will continue to contain this invasive species by 
utilizing a number of different strategies including simple things like 
making absolutely sure that once a boat is removed from a lake, the 
boat owner does not allow Giant salvinia to hitchhike home.
    We have asked today's witnesses to share with us their thoughts on 
where we are in the fight against Giant Salvinia, what control or 
eradication strategies have worked and at what costs, whether we can 
develop a more weather resistance weevil and how we can finance these 
efforts in the future.
    I look forward to hearing from our distinguished witnesses 
including two elected representatives from Louisiana and Texas. I am 
now pleased to recognize Congressman Louie Gohmert for whatever time he 
would like to use.
                                 ______
                                 

 STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Gohmert. Thank you, Mr. Chairman. I appreciate the 
opportunity to have this hearing. It's great to be here with 
you guys and great to have you all here with us.
    I was first notified in 2006 that there was a tiny little 
innocuous-looking plant that had been found that year on Caddo 
Lake. Jack Hanson had given me a call, and I saw Jack here 
earlier, and I know he's here somewhere.
    But, anyway, that got us involved; and in early 2007, we 
started pushing to get other assistance, and that year we also 
had a meeting over at Caddo Lake and brought together a number 
of different entities--Texas Parks and Wildlife, I believe 
Randy Westbrooks who is here today, and many others from 
different services were there. Jim McCreary had sent a staff 
member over to find out more about it.
    And over the last four years, we've continued to push 
because those of you who are here obviously are concerned about 
it, so you've known about it, but it was just hard to get 
people concerned about some little bitty--I mean, it is a cute 
little plant. It's not near the ugly dramatic killer of lakes 
that we know it to be.
    Maybe if it was a giant blob or something, they would make 
a movie about it and everybody would get scared, but anything 
that doubles in size in less than a week is something to be 
concerned about.
    So in any event, you may know that giant salvinia has been 
discovered in 90 different locations affecting 41 freshwater 
drainage basins in 12 states, that it doesn't pose the threat 
apparently in the north because of the cold winters that it 
does to freshwater bodies here in the south of our country.
    It was first discovered in Caddo Lake in May of 2006, and 
two years after that, it was discovered that this tiny, 
innocuous plant that started as basically nothing apparently 
had grown to over a thousand acres in just two years.
    A single plant has been found to cover 40 square miles in 
three months. If left untreated, giant salvinia can completely 
take over and destroy the ecological system of any freshwater 
body.
    And as folks who want to see the economy thriving know, it 
can make swimming, boating, fishing and other recreational 
activities virtually impossible.
    As most of you, I'm sure, maybe all of you, are aware, 
education is critical because one tiny little plant, as Randy 
Westbrooks and others have pointed out, it may live for weeks 
dry out of the water on a boat trailer until it's inserted.
    And once inserted back into water, if it has not totally 
died, then it goes right back to reproducing and doubling in 
less than a week.
    For those who are concerned in our country with endangered 
species, it is important to note that 42 percent of all 
endangered species in our country are mainly threatened or most 
threatened by non-native invasive species.
    Giant salvinia has different treatments.
    I know personally having watched and witnessed numerous 
activities on Caddo Lake that it can be attempted mechanically. 
Australia has tried some things there, as well as biologically, 
perhaps weevils, chemically, and also with saltwater.
    And one of the reasons I'm so grateful for the hearing 
today and having this mass amount of IQ here on this subject is 
that we really do need to come together.
    Some of us have concerns, you know, is there any chance 
that those weevils will figure out they'll bite into something 
and go, oh, this is pretty good, too, and then away they go on 
something else.
    Do we really want to develop them to be more hardy in 
winter, especially in case there were to be something they 
found out they enjoyed eating as much as giant salvinia.
    When you introduce saltwater to kill it in freshwater, what 
kind of problems are posed, effective ways to mechanically 
control and obviously that can't get it all, but it sure can 
open up some boat ramps when you need it, as we've seen at 
Caddo.
    But the key is to make sure people know this isn't just 
some little issue that some bureaucrat somewhere thought up. 
When you lower your boat trailer in a lake and it's got even 
one tiny piece of giant salvinia on it, then you may be the 
leading threat to that body of water that you enjoy using.
    So I really want to thank John Fleming.
    He has been great as Chairman of this Subcommittee and is 
very concerned about this issue. It's really been a great 
assistance, and, John, thank you for all your work in this 
area. I think we're going to get some good done. Thank you. I 
yield back.
    Dr. Fleming. Thank you. I thank the gentleman from Texas, 
and I thank you for your kind words.
    Mr. Gohmert, by the way, is an ex-judge from Texas. He was 
a judge prior to going to Congress, and I would say to call him 
colorful would be an understatement.
    He's the one that I think had the famous quote that ``how 
can you give rebates when you don't see bates,'' so we're 
always excited and enjoy the words of wisdom that Judge Louie 
provides to us. Well, thank you, Congressman, for an excellent 
opening statement.
    Like all witnesses, your written testimony will appear in 
the full hearing record, so I ask that you keep your oral 
statements to five minutes, as outlined in our invitation 
letter to you under Committee Rule 4(a).
    I also want to explain how our timing lights work. I think 
this is our only timing light. OK. Oh, I see.
    You will have five minutes to read or give your statement. 
If you don't complete your statement, you can still submit it 
in full for the record.
    After four minutes of green, you'll have a minute of 
yellow, and then it turns red. That's five minutes, and we want 
you to conclude your statement at that point, if you haven't 
already.
    Mr. Gohmert. Mr. Chairman, if I might, I'd like to ask 
unanimous consent to include a written statement from Texas 
State Representative Bryan Hughes. Bryan has been wonderful. 
He's helped with this issue from the beginning as a State Rep 
from East Texas.
    We're in session--in special session in Austin in Texas, 
and so we ask if that can be submitted by unanimous consent.
    Also from Texas A&M College of Agriculture and Life 
Sciences, we have a wonderful statement prepared for today that 
I would ask unanimous consent to have that two-page submitted 
as well.
    Dr. Fleming. Without objection, so ordered.
    [The statement of Texas State Representative Bryan Hughes 
submitted for the record follows:]

June 24, 2011

The Honorable John Fleming, MD
Chairman
Subcommittee on Fisheries, Wildlife Oceans and Insular Affairs
US House of Representatives
Washington, DC 20515

Dear Chairman Fleming:

    Thank you for the kind invitation to testify before your 
Subcommittee on June 27. I was honored to be invited, and I so 
appreciate my friend and mentor, The Honorable Louie Gohmert, for 
submitting my name to you. I have never testified before a 
Congressional Committee and consider it a real honor to represent my 
District and Caddo Lake before you.
    So I am deeply sorry to confirm that I will not be able to attend 
Monday's hearing in Shreveport. When this hearing was scheduled, we 
anticipated that the current Special Session of the Texas Legislature 
would be completed by this time. We had also hoped that if the session 
were still going, there would be no business conducted on Monday or it 
would be of such a nature that I could be absent. I have now confirmed 
that we have significant legislation on the floor Monday, and the 
Speaker has directed that every member be present.
    You will no doubt learn from the impressive witnesses before you on 
Monday that the Giant Salvinia problem at Caddo Lake has been almost 
overwhelming. The speed with which it grows is difficult to describe 
and harder to believe.
    Thankfully, through the work of dedicated volunteers, talented 
professionals, non-profits, generous donors, government at the county, 
state, and federal level, and a host of others working together, the 
situation is getting under control. So I anticipate that you will gain 
helpful information and be encouraged by all of these folks coming 
together to deal with a very difficult problem.
    I wish that I could be there. But I thank you again for the 
invitation, and I thank you and your Subcommittee for addressing this 
serious matter. If you have any questions, or if I can be of any help 
to you, please let me know.

Sincerely,

Bryan Hughes
                                 ______
                                 
    [The statement of Texas A&M College of Agriculture and Life 
Sciences submitted for the record follows:]

                COLLEGE OF AGRICULTURE AND LIFE SCIENCES

                    TEXAS WATER RESOURCES INSTITUTE

                   1500 Research Parkway, Suite A240

                               2118 TAMU

                     College Station, TX 77843-2118

                   Tel. 979.845.1851 Fax 979.845.8554

                          http://twri.tamu.edu

Center for Invasive Species Eradication
Texas Water Resources Institute    6.27.11
Caddo Lake Giant Salvinia Eradication Project
    The Caddo Lake Giant Salvinia Eradication project is the initial 
effort being undertaken through the Center for Invasive Species 
Eradication (CISE) which was established by the Texas AgriLife 
Extension Service and Texas AgriLife Research and is administered by 
the Texas Water Resources Institute (TWRI). This project is advancing 
management options for giant salvinia (Salvinia molesta) in Texas and 
other infected states. This project was made possible by Congressional 
funding obtained through the leadership of Senator Hutchison. Project 
funds are managed by the USDA Natural Resources Conservation Service.
    Giant salvinia is a free-floating aquatic fern, native to South 
America and introduced to the United States by the watergarden 
industry. Since its introduction, giant salvinia has proven to be an 
aggressive invader that can double in size in four to 10 days under 
favorable growing conditions.
    Caddo Lake was first infested with giant salvinia in 2006 and 
within two years the plant expanded its coverage on the lake from less 
than two acres to more than 1,000 acres. Efforts conducted to control 
giant salvinia thus far have yielded moderate success but have not 
completely eradicated the species from the lake.
    The project's over-arching goal is to identify the most effective 
control methods while killing giant salvinia on Caddo Lake and 
incorporate these methods into agency guides, such as the USDA Natural 
Resources Conservation Service's Field Office Technical Guide and Texas 
AgriLife Extension Service educational program materials, so that 
public and private entities have readily available, proven methods to 
fight giant salvinia.
Project Objectives
        <bullet>  Evaluate individual and combined control practices 
        (including chemical, biological, mechanical and other 
        management) to determine their effectiveness and implementation 
        costs
        <bullet>  Establish, operate and maintain a salvinia weevil 
        rearing facility near Caddo Lake to serve as a ready source of 
        weevils for release on Caddo Lake and also provide a living 
        laboratory and nursery to develop a better knowledge of 
        salvinia weevils and their behavior
        <bullet>  Develop specifications and recommendations for 
        individual and combined control methods verified through the 
        effective control of giant salvinia at Caddo Lake and 
        surrounding water bodies
        <bullet>  Evaluate and quantify non-targeted environmental and 
        ecosystem impacts resulting from demonstrated control methods 
        and develop mitigation practices to minimize adverse effects
        <bullet>  Develop and deliver educational programs for 
        landowners and managers on methods for controlling and 
        eliminating giant salvinia and for preventing its spread from 
        infected to non-infected waters
        <bullet>  Collaborate with the USDA Natural Resources 
        Conservation Service (NRCS), Texas Parks and Wildlife 
        Department (TPWD), other local, state and federal agencies and 
        nongovernmental organizations in Texas and Louisiana to expand 
        and enhance public educational efforts and provide research 
        information and additional resources to help prevent the spread 
        of giant Salvinia
Project Accomplishments to Date (June 2010 - June 2011)
        <bullet>  Collectively, Caddo Lake Institute (CLI), TPWD, and 
        TWRI personnel constructed a salvinia weevil rearing facility 
        at the Caddo Lake National Wildlife Refuge in August 2010; 
        further efforts by TWRI, CLI and local volunteers constructed 
        greenhouses at this facility in October 2010 to provide a 
        climate controlled environment that supports year-round 
        salvinia weevil production
        <bullet>  Active operation and management of the salvinia 
        weevil rearing facility began in August 2010 and has produced 
        substantial numbers of salvinia weevils to date
        <bullet>  As of June 22, 2011, approximately 75,000 adult 
        weevils have been released on Caddo Lake into 4 isolated areas 
        from the rearing facility
        <bullet>  Along with these adult weevil releases, as many as 
        250,000 weevil larvae were released. Larvae are the primary 
        killer of giant salvinia as they bore their way out of the 
        plant after hatching from eggs laid by adult weevils in the 
        stems of the plant, thus seriously damaging the Salvinia
        <bullet>  Developed signage for the salvinia weevil rearing 
        facility in cooperation with CLI, TPWD, USDA NRCS, U.S. Fish 
        and Wildlife Service (USFWS), U.S. Army Corps of Engineers 
        (USACE), and the Friends of Caddo Lake National Wildlife Refuge 
        to prominently display descriptive information about giant 
        salvinia, the salvinia weevil, the salvinia weevil rearing 
        facility and how the weevil can be used to aid the fight 
        against giant salvinia
        <bullet>  Worked closely with salvinia weevil researchers with 
        USACE and Louisiana State University (LSU) to transfer 
        information and to support each other in efforts to learn more 
        about salvinia weevil ecology and application of this 
        information in controlling giant salvinia infestations
        <bullet>  Conducted a weevil over-wintering study to determine 
        temperature tolerance thresholds for weevil survival in colder 
        temperatures; these weevils are a tropical species and have yet 
        to survive winters on Caddo Lake
        <bullet>  A study to determine how early in the spring weevil 
        reproduction begins was also established and is underway to 
        determine an optimum time and temperature at the beginning of 
        the growing season to inoculate giant salvinia with salvinia 
        weevils
        <bullet>  Actively working with other scientists and personnel 
        of LSU, TPWD, USACE, chemical industries and others to evaluate 
        costs and effectiveness of various herbicides and surfactants 
        to control giant Salvinia
        <bullet>  Currently in the process of hiring a private 
        applicator to chemically treat giant salvinia on Caddo Lake in 
        2011 to support and complement other spraying efforts by the 
        Cypress Valley Navigation District, TPWD and Louisiana entities
        <bullet>  Closely coordinating and tracking spraying efforts to 
        ensure that biological controls complement these efforts
        <bullet>  Maintained active coordination and collaboration 
        through established partnerships with local, regional, state 
        and federal entities by providing educational, scientific and 
        treatment support as needed
        <bullet>  Presented educational information on the dangers of 
        giant salvinia to diverse audiences, locally, regionally and 
        statewide. As of June 25, 2011; 31 meetings have been 
        participated in with more than 1,000 people reached
        <bullet>  Established a website, blog and Facebook page for the 
        Caddo Lake Giant Salvinia Eradication project to aid in 
        publicizing education and outreach, research, treatments and 
        success of the project
                                 ______
                                 
    Dr. Fleming. And I, likewise, have two statements for the 
record. One is from Gary Hanson, and then another I would like 
to read partially into the record and submit in whole for the 
record. Hearing no objection, so ordered.
    This is from Robert Adley, Senator Adley. I'd like to 
recognize him. He's here in the front row with us today. He's 
done work on this, and I'm going to read part of his statement 
into the record.
    He goes on to say: ``Spraying has been beneficial but 
depends greatly on the weather as far as its effectiveness. 
Spraying requires a specific ratio of water to the sprayed 
chemical. After spraying, it takes time to establish and begin 
to kill the salvinia. If much wet weather is encountered after 
the spraying, the benefit of spraying is reduced due to change 
in ratio.
    The plant grows in three layers, and spraying kills only 
the top layer. Hence the amount of chemical needed is three 
times the initial amount used.
    Talking about beetles, beetles were developed near Houma, 
Louisiana, and transported to the lake by loading more giant 
salvinia in trucks with beetles and put into the lake at 
specific points.
    The use of beetles has met with some success, but they're 
greatly diminished during cold winters. Hence, the use of 
beetles is part of control, but not sufficient by themselves.
    We may hear some testimony today. It's my understanding 
that beetles do a much more effective job in Brazil because 
they can survive the winters that are more moderate there.
    The Department of Wildlife and Fisheries tried lowering the 
lake to allow the plants to dry out and die, but that's been of 
limited effectiveness.''
    So, a lot of good information that Senator Adley provides 
to us today, so we will submit these testimonies for the 
written record as well.
    [A statement from Gary Hanson submitted for the record 
follows:]

 Statement of Gary M. Hanson, Director, Red River Watershed Management 
            Institute, Louisiana State University Shreveport

    Congressman Fleming, thank you for addressing the invasive aquatic 
plant Giant Salvinia (Salvinia molesta) problem threatening lakes and 
waterways in Louisiana, Texas and many other areas of the U.S. from 
Virginia to California (Fig. 1). I appreciate the opportunity to submit 
written testimony to the Subcommittee on Fisheries, Wildlife, Oceans 
and Insular Affairs oversight hearing today here at Louisiana State 
University Shreveport. I have served as Director of the Red River 
Watershed Management Institute since its formation as a LSU system 
institute ten years ago. During that time I have had a unique 
opportunity to interact, not only with our own expert faculty, but with 
many groups and organizations concerned with water quality and 
ecosystem issues throughout the Ark-La-Tex and coastal areas of 
Louisiana. I am intimately aware of the serious challenges facing our 
region and nation from a water resource-related point of view. I serve 
as a member of the Louisiana Ground Water Management Advisor Task Force 
and Chairman of the Water Resources Committee of Northwest Louisiana. 
This voluntary body is composed of leaders and technical experts from 
Caddo, Bossier, Desoto and Webster Parishes, City of Shreveport, 
Metropolitan Planning Commission, Executive Director of the Red River 
Waterway Commission, Director of the Sabine River Authority, St. Mary's 
Oil and Gas, and others who have expertise in groundwater and surface 
water issues. We have met specifically to discuss the evolving nature 
of invasive aquatic plants and in particular Giant Salvinia in our 
region. Our LSUS researchers have worked closely with those attempting 
to eradicate Giant Salvinia in Cross and Caddo Lakes. I have personally 
interacted with leadership and field biologists working Lake Bistineau, 
Toledo Bend Reservoir, Caddo Lake and Cross Lake.
    I have served as a member of the Louisiana Hypoxia Subcommittee for 
a number of years. This group has been tasked with evaluating the 
massive low oxygen or dead zone that occurs off the coasts of 
Louisiana, Texas and Mississippi each summer. The dead zone has been 
increasing over time and is considered a serious threat to our gulf 
fisheries. Early predictions for this year indicate that the dead zone 
will cover a record area of over 24,000 km2 or 9300 mil (Nancy 
Rabalais, 2011 - Fig. 2). The excessive nutrients flowing from 
Mississippi River tributaries into the Gulf of Mexico each summer is 
the cause of this worsening situation. This year's record floods will 
be a major contributing factor if the anticipated record dead zone 
forms. The nutrients stimulate excessive plant (phytoplankton) growth, 
which eventually die and as their biomass is oxidized most of the 
dissolve oxygen is removed from the water column. Most experts agree 
that one key factor that is responsible for Giant Salvinia inundating 
and taking over fresh water aquatic habitats is the increase in 
nutrient levels in targeted water bodies (urban and agricultural 
runoff, leaking septic systems and land disturbance).
    The infestation of most of our water bodies throughout Northwest 
Louisiana and East Texas by Giant Salvinia and other invasive aquatic 
plant species have devastated these aquatic environments and there 
appears to be no significant long-lasting successes in this battle. 
These exotic plants destroy the natural diversity and left unchecked 
will continue to negatively affect our economy, agriculture and public 
well being through scarcity of available surface water resources. The 
problem will only grow, unless all available public and private 
resources are brought to bear to work cooperatively to control the 
spread and growth of these plants. Determined efforts have been 
undertaken in most of these waterbodies. The COS has been working 
diligently to control Giant Salvinia and Hydrilla in Cross Lake (Fig. 
3), the only source of water for Shreveport and Barksdale Air Force 
Base. Already this year these plants have advanced to growth stages 
that are equivalent to late July or August because of the drought and 
unseasonably high temperatures. Prior to this spring the plants had 
been kept in check to some degree because of cold winter temperatures.
    The Lake Bistineau Task Force has also been working relentlessly to 
control the Giant Salvinia (Figs, 3, 4 and 5). The Louisiana Department 
of Wildlife and Fisheries have been trying a spectrum of approaches 
that includes, introducing Salvinia weevils, spraying large amounts of 
herbicides, removing cypress trees and draining the lake. The Task 
Force is considering modifying the darn so that the Giant Salvinia can 
be floated out of the lake into Loggy Bayou and ultimately the Red 
River. There have been some short-term successes. The Task Force has 
spent about $2 million to date with $400,000 spent for herbicides in 
one year. Draining the lake leaves massive deposits of nutrient laden 
biomass on the lake bottom. As the lake is refilled this decomposing 
biomass provides a ready source of nutrients to perpetuate the growth 
of more plants (Fig. 6). These various strategies and methods that are 
intended to manage and control Giant Salvinia all have drawbacks and 
disadvantages. It appears no one knows what affect the massive amounts 
of herbicides will have on the wildlife and fish, much less humans that 
consume them, In some cases, the strategies and methods already used 
may be considered to be as detrimental (or more so) as that of leaving 
the plants in place. The problem is massive and complex when 
considering the conditions that effect its' growth and the budgets and 
technologies that have been used to date and others that may be soon 
available to battle the plant.
    Let me explain briefly, before offering a new strategy based on a 
soon to be released technology that has the potential to keep up with 
the growth rate of the plants and remove the biomass, without the need 
to either drain the lakes and/or the excessive use of expensive and 
potentially dangerous amounts of herbicides. The draining of the lake 
should be a desperate last resort which is devastating to the lakes' 
ecosystem and only provides temporary control of the spread of the 
plants. Therefore, the only solution is to use a coordinated holistic 
approach to physically harvest and remove the biomass in a cost 
effective manner and thereby limit herbicide spraying to only those 
areas that are not accessible to current and future harvesting methods. 
The immediate benefit would be the restoration of the lakes and 
surrounding ecosystems and recreational economies. However, perhaps the 
greatest benefit would be the restored and preserved availability of 
precious fresh water that will only be of increased demand in the 
future.
    I am convinced that the only strategy going forward that will work 
is to cut through the jurisdictional red tape that causes time delays 
and increases the expense to fight the menace, by bringing in the 
private sector to work through joint public-private ventures to first, 
harvest and transport the biomass and then second, find alternative 
uses for it as biofuel and/or soil amendment, etc. Transportation will 
be the key cost factor in the future that will affect all aspects of 
the strategy and methods to harvest and remove the biomass from the 
water and then move it to commercial users and areas that may use the 
biomass cost effectively. I have been introduced to a company that has 
been working on a holistic mechanism to address the harvesting and 
utilization of the salvinia biomass from a commercial model approach, 
but it will likely rely on public coordination, cooperation and 
collaboration to be most successful.
    This terrible problem created by the Giant Salvinia and its' 
potential control solution could end up as a win-win situation for the 
betterment of our region and the rest of the affected areas of the U.S. 
with the full return of the use of our area water bodies for municipal, 
industrial and recreational usages, while restoring and preserving 
vital aquatic and the surrounding natural and residential habitats.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

[A letter from Senator Robert Adley submitted for the 
record follows:]

        Statement of The Honorable Robert Adley, State Senator, 
                 Senate District 36, State of Louisiana

    Congressman Fleming,
    Thanks for arranging for the field hearing relating to Salvinia. As 
you know, the problem is statewide and is a significant problem in Lake 
Bistineau. Lake Bistineau was the first manmade lake in Louisiana and 
is located wholly within my Senate district. As such, my office has 
assisted the Louisiana Wildlife and Fisheries Department by adding 
funds to its budget for control of Aquatic weeds. Additionally, we have 
coordinated meetings with the public and the dissemination of 
information to the public. As such, l am familiar with the past 
attempts to control and manage Salvinia in Lake Bistineau.
    Spraying has been beneficial but depends greatly on the weather. As 
I understand it, spraying requires a specific ratio of water to the 
sprayed chemical. After spraying, it takes time to establish and begin 
the kill of Salvinia. If much wet weather is encountered after the 
spraying, the benefit of the spraying reduced due to the change in 
ratio. The plant grows in three layers and spraying kills only the top 
layer. Hence, the amount of chemical needed is three times the initial 
amount used. It requires ongoing spraying to be effective and the 
chemicals used for the spraying are extremely expensive. Hence, 
Wildlife and Fisheries began evaluating other plans and established 
other plans for the ongoing reduction of Salvinia.
    Beetles were developed near Houma, Louisiana and transported to the 
lake by loading more Giant Salvinia in trucks with beetles and put into 
the lake at specific points. The use of beetles has met with some 
success but they are greatly diminished during cold winters. Hence, the 
use of beetles is part of control but not sufficient by themselves.
    The Dept. of Wildlife and Fisheries has tried lowering the lake to 
allow the plants to dry out and die but that too had limited effect on 
the overall growth of the plant. Because the dam for the lake is 
located outside of the main channel, the lake lowering of water levels 
is limited. For the complete replenishment of the lake for fish 
hatcheries and the control of Salvinia, the darn should be located at 
the channel, which would allow the water level to be brought down to 
channel level. The construction of a new dam is also very expensive. 
The current darn and the maintenance falls under the Louisiana 
Department of Transportation (DOTD). The Dept. of Wildlife and 
Fisheries has been meeting with DOTD regarding a new dam.
    During those meetings, it was determined that the Salvinia could be 
moved over the top of the existing dam in high water conditions. Hence, 
much of the Salvinia was removed from the lake last year by flowing 
Salvinia over the top of the darn. However, in normal weather that will 
not work because the actual control of water levels is at the bottom of 
the dam. Hence, Wildlife and Fisheries moved forward with a plan to 
make changes to the current dam that would allow the Salvinia to flow 
over the top in normal weather conditions.
    Additionally, the Wildlife and Fisheries expressed the need to 
remove some of the trees in the lake that are retarding the movement of 
the plant towards the channel and retarding the ability to spray more 
efficiently. To my knowledge, no trees have yet to be removed for 
various reasons.
    During this past legislative session, I put forth an amendment to 
the Capital Outlay bill for funds to make the changes to the dam. I 
ultimately removed the amendment because Wildlife and Fisheries relayed 
concerns by the Red River Waterway Commission. When the Salvinia flows 
from the lake over the dam, it eventually makes its way into the Red 
River. As long as the Salvinia is flowing within the Red River, it will 
not establish itself. However, oxbows in the river are at risk. Hence, 
I withdrew the amendment to fund the restructuring of the dam until the 
matter can be resolved.
    As of now, Wildlife and Fisheries tells me they are allowing the 
lake to fill again and will continue with spraying. Additionally, it is 
my understanding that they are evaluating so-called skimming methods 
for the removal of Salvinia.
    As you know, this is a very serious matter and anything that you 
can do to assist is appreciated.
                                 ______
                                 
    Dr. Fleming. I would now like to welcome today's first 
panel of witnesses. We're having two panels, and each of them 
received a written invitation from me outlining the issues we 
would like them to discuss in their testimony.
    Since I recognize that we were unable to accommodate 
everyone who might have had interest in testifying, I will be 
accepting any and all written statements for the record.
    This hearing will be printed and it will include all 
statements submitted today and through the next ten days that 
the record will be open.
    On Panel 1, we will hear from The Honorable Henry L. Burns 
of Haughton, Louisiana; The Honorable Robert Barham, Secretary 
of the Louisiana Department of Wildlife and Fisheries; Mr. 
Ross--you're going to have to help me with your name, sir.
    Melinchuk?
    Mr. Melinchuk. Melinchuk.
    Dr. Fleming. Melinchuk. OK. Very good. Thank you, sir.
    Deputy Executive Director, Texas Parks and Wildlife 
Department; Mr. William R. Altimus, and he's not arrived yet. 
If he does, certainly we'll welcome him to the panel, of 
Bossier Parish Police Jury, District Nine. Dr. Michael 
Grodowitz----
    Mr. Grodowitz. Grodowitz.
    Dr. Fleming. Grodowitz. Very good. Thank you. Biomanagement 
Team Leader, U.S. Army Corps of Engineers; and Dr. Randy G. 
Westbrooks, Invasive Species Prevention Specialist, United 
States Geological Surveys, National Wetlands Research Center.
    Representative Burns, you are now recognized for your five 
minutes of testimony.

             STATEMENT OF THE HON. HENRY L. BURNS, 
               LOUISIANA HOUSE OF REPRESENTATIVES

    Mr. Burns. Thank you, Congressman. I really appreciate it.
    I want to acknowledge the fact that this invasive plant is 
a problem for our entire country. One of the things I want to 
do, though, is emphasize its impact here locally on Lake 
Bistineau.
    Lake Bistineau has had a torrid history of--yes?
    Dr. Fleming. Be sure and get closer to the microphone.
    Mr. Burns. Closer to the microphone? OK. Can you hear me? 
Can everyone hear me?
    Dr. Fleming. I think we can hear you now.
    Mr. Burns. OK. Lake Bistineau has had a torrid history with 
invasive plants going back to the 1940s. Some of the types were 
water hyacinths, alligatorweed, hydrilla, water primrose, and 
now the giant.
    As you mentioned earlier, there is a three- to five-day 
body mass that can take place where it can double. Normally it 
takes about ten days to two weeks, but Lake Bistineau is the 
perfect nursery.
    This shallow, nutrient-rich inland water body spanning over 
17,000 acres with over a million acres of watershed that feeds 
it.
    What contributes to this watershed?
    Well, you've got rich agricultural land. You've got 
hamlets. You've got municipalities. You've got industry that 
are discharging some of their waters that find its way into 
Bistineau.
    Also, Lake Bistineau, 50 percent of that lake is forested 
with cypress trees, providing perfect nursery issues there.
    What type of impact do we have, whether it's economic, 
there's recreational, hunting, fishing, water sports has been 
at best the last few years hit and miss.
    Congressman Fleming, it is the number one complaint that we 
get. In fact, it's kind of dangerous sometimes to go to ball 
games because people's hunting spot or fishing spot has been 
hit.
    And then, of course, there's property values and broken 
dreams from people who have bought homes along these scenic 
river areas wanting to make their retirement there, to a place 
to bring their grandchildren out to fish.
    The biggest question, the number one question I'm asked is 
when are we going to get our lake back?
    There are numerous unintended consequences that has taken 
place, and let me just share a couple of those with you.
    One, my son's in-laws live on Lake Bistineau. They went out 
to have a day of fun and recreation. The motor clogged with all 
this invasive plant and it burned up the motor, so they 
struggled to get the boat back to the shoreline.
    Well, he thought he was in three or four feet of water 
because with the canopy there, you couldn't really tell. He 
jumps out of the back of the boat to push it to the shore, 
breaks his leg. Now, that's just from one family's point of 
view.
    A story that's even more outlining on what unintended 
consequences, and, Congressman Fleming, you have Shawn that 
works for you. Her sister Dotie Horton and Gary were out 
fishing on Bistineau.
    Their boat got hung up in a lot of aquatic invasive plant 
material, and he tried to push it in. When they pushed the 
boat, it finally jettisoned and clipped Dotie on the head, just 
barely, and Gary pulled his back muscle, so all the attention 
was given to her husband.
    Two days later, we were at LSU Medical Center and having 
lifesaving surgery because of the contusion and the hematoma 
that was caused from just that slide.
    So there are so many things that happen with this invasive 
plant that takes away the joy and the beauty, and we do 
appreciate, Congressman Fleming, all that y'all are doing and 
the Department of Natural Resources and Fisheries are doing.
    And, you know, it's a tough fight, but we want to give it, 
you know, everything we've got, and people really appreciate 
that you're having this meeting because they want to know what 
we're doing.
    And as I read the history--and I also have a report from 
Bill Altimus, if he does not show. I do have his statement, and 
we'll enter it into the record at a later time.
    Dr. Fleming. OK.
    Mr. Burns. Thank you.
    [The prepared statement of Mr. Burns follows:]

           Statement of The Honorable Henry L. Burns (LA-9), 
                   Louisiana House of Representatives

    Governor Jindal and the Louisiana Department of Natural Resources 
selected Lake Bistineau as the primary focus for controlling invasive 
plant life in our inland water bodies in Louisiana. I am grateful for 
this selection, but with limited funding our effort has restricted the 
department's ability to make the gains that were anticipated.
    It will take a coordinated effort by all parish, state, federal and 
to include private sector contributors just to minimized the negative 
impact of this destructive aquatic plant, Giant Salvinia.
    What is at stake? Quality of life, recreational opportunities, 
property values and economic development. Without question, it will 
take a team effort just to manage this problem. I applaud Congressman 
Fleming for his interest and action.
                                 ______
                                 
    Dr. Fleming. OK. Thank you, Representative Burns. We just 
got a report that Mr. Altimus had a minor emergency, so he 
probably won't be with us today. Something popped up at the 
last minute.
    Mr. Burns. Chairman Fleming, I have an actual official 
technical report I'd like to enter into the record.
    Dr. Fleming. Yes. Without objection, so ordered. Did you 
have a----
    Mr. Gohmert. No, that's what I was going to ask, that we do 
that.
    [NOTE: The report submitted for the record has been 
retained in the Committee's official files.]
    Dr. Fleming. OK. Very good. Secretary Barham, you're up 
next, sir.

   STATEMENT OF THE HON. ROBERT BARHAM, SECRETARY, LOUISIANA 
              DEPARTMENT OF WILDLIFE AND FISHERIES

    Mr. Barham. Congressman Fleming and Congressman Gohmert, on 
behalf of my boss, Governor Bobby Jindal, I certainly want to 
thank you for being here today and for focusing your attention 
and hopefully a lot of other folks' attention on what has 
become almost a science fiction challenge that we have, as you 
referred to. It is the blob in this part of the state.
    It's certainly a pleasure to be with Representative Burns 
and my former seat mate, Senator Adley, who I learned so much 
from. If there's a problem and he doesn't have an answer for 
it, you know it's a serious one, so this is quite a challenge 
for us all.
    We're working closely with Texas Parks and Wildlife. I've 
known Mr. Melinchuk for a long, long time, and Carter Smith, 
who is their Director, and it's going to take all of us.
    We have two congressmen representing two states here. It 
won't be long and you're going to have a whole panel of 
congressmen that's going to include Mississippi, Alabama, and 
certainly Florida. It's going to happen to us.
    I wish I could tell you we're winning this battle. We're 
not winning the battle. My budget is just under $8 million. 
$7.9 million is what I'm spending now, and I'm not leaving any 
of the assets that I have in the cabinet at the end of the 
year.
    Two years--we found this a little over ten years ago in 
Toledo Bend. Almost certainly someone dumped it out of a water 
garden or an aquarium. It joins other invasives like water 
hyacinths that was brought in, Johnson grass. They are plants 
that we don't have any control for that show up. We got it 
about ten years ago.
    As he pointed out, Bistineau is the poster location for 
this plant and what it needs to grow. It's a shallow sediment 
rich lake, a lot of trees, don't get a lot of wave action, and 
it started exploding. It became like a golf course out on 
Bistineau. It was just impossible to get around on it.
    These folks need the attention that--sometimes things have 
to get bad enough that everybody's affected before you get real 
action to it.
    With all deference to Bistineau, as long as it was stuck 
off in a little lake in northwest Louisiana, the rest of the 
state wasn't overly frightened.
    Well, two years ago we had 13,000 acres of giant salvinia 
in Louisiana. We have over 25,000 acres now. With me doing 
everything I can, it's doubled, and it's all the way into 
Barataria-Terrebonne Estuary.
    Dr. Dearl Sanders is here with LSU. He's growing our 
weevils for us. So we're losing ground using everything I've 
got to fight this stuff, and it literally is a game changer. It 
will destroy a fisheries habitat, destroys the property values 
around lakes.
    A lot of folks like to live on the water, and that's what 
we're facing. We're losing ground against something that we 
don't have the answer for. We're using every tool we can. 
Pulling down lakes is one of the tools.
    We're spraying, spending millions of dollars spraying; but 
this plant, in addition to growing, doubling in size--you're 
not timing me, by the way, you're going to have to wave at me 
when I go too long.
    But when--this plant not only doubles in size, but the 
nature of the plant is such that we can't fight it very well. 
On the leaves, it's got these little fibrous hair that protect 
it from chemical spray, and we just can't get to it.
    One of the effective tools we have is Galleon. It's a 
saturation complex that must remain in the water column from 60 
to 90 days.
    Now, we're in a drought now and it will work in a drought, 
but if you get a rain event, it dilutes it and it doesn't work, 
and Galleon cost over $1,850 a gallon, so you can see with my 
budget, I don't have the money to use Galleon everywhere, and 
it's not the silver bullet.
    I could go on and on, but this is a horrific problem, and 
all the help you can give us, we need it.
    [The prepared statement of Mr. Barham follows:]

      Statement of The Honorable Robert Barham, Secretary of the 
             Louisiana Department of Wildlife and Fisheries

    Thank you for the invitation to testify before you today about 
Louisiana's efforts to manage the infestation of the aquatic nuisance 
plant Giant Salvinia. I am Robert Barham, the secretary of the 
Louisiana Department of Wildlife and Fisheries for Governor Bobby 
Jindal. Our Department is charged with a broad range of duties, 
including responding to major man-made and natural disasters that occur 
both in our state and along our coast, hunting and fishing license 
sales, outdoor education, enforcement of fish and game regulations, and 
habitat management. Ultimately, resource management and protection are 
at the core of our mission.
    Since giant salvinia was identified in Louisiana more than five 
years ago, our biologists have made it a priority to identify methods 
for treating it, preventing further infestations and rehabilitating the 
water bodies across our state that it has already devastated.
    This plant is voracious. While our staff works long hours and days, 
without a comprehensive strategy to combat giant salvinia we'll never 
get ahead. The green monster, as some call this plant, works 24 hours a 
day, seven days a week. In as few as three days, it is capable of 
doubling its biomass. And in as little as seven days, giant salvinia 
can double surface coverage of water bodies. It spreads incredibly 
quickly, devouring the resources and damaging the habitats within water 
bodies across our state.
    There is no easy answer to this dilemma. We can't simply spray 
every area to kill it. We can't only introduce a predator and hope for 
the best. We can't fence it off or deploy booms and wait till the 
winter comes to kill it off. And no matter what efforts we take to 
prevent the spread, all it takes is one alligator, one nutria or other 
wildlife, to move from an infested water body into an area where giant 
salvinia hasn't yet taken root, and the spread continues. What we must 
do is devise a complex strategy, one that involves our agency, and 
local and federal agencies to stop the spread of giant salvinia and 
rehabilitate what it has damaged. This fight takes all of us, from the 
property owner on up.
    Our Department has already begun many of these efforts. Over the 
past few years we have employed contract herbicide sprayers, deployed 
booms, conducted experiments with natural predators, like the salvinia 
weevil, conducted drawdowns and aggressively sought to educate members 
of the general public. Battling giant salvinia is tasked to our Office 
of Fisheries and utilizes a $6.9 million invasive aquatic species 
budget.
    The current state of infestation in Louisiana is 25,076 acres, 
across 35 water bodies. Some of the most prominent areas of infestation 
are Lake Bistaneau and Caddo Lake. However, the jump in acreage 
infested with giant salvinia over the last two years from 13,691 to 
more than 25,000 acres, is due to the spread of infestation in South 
Louisiana, primarily in the Barataria and Terrebonne basins.
    In each water body we face a different challenge, but the 
parameters that allow infestation to flourish remain the same 
throughout. While this rootless aquatic fern flourishes during the 
summer months, it is incredibly hardy. Stress, lack of water and cold 
winters won't necessarily kill off the plant. And in water bodies like 
the Barataria and Terrebonne basins, the temperature doesn't drop 
nearly enough to produce a large scale kill-off of the plant.
    Giant salvinia even comes armed with its own defense mechanism in 
the tiny, white hairs that capture herbicides just above the plant's 
surface, seriously challenging the efficacy of any spray treatment. For 
nearly each solution we, as resource managers, can devise, giant 
salvinia has a solution. That is why we must tackle this problem from 
numerous angles.
    For this year through May 31, the Department has utilized 21 spray 
crews and contractor air boat treatments to control 10,730 acres of 
giant salvinia. These herbicides provide us with the ability to kill of 
the plant during the spring and into the warm summer months when it 
would flourish. However, spraying can be incredibly difficult. Many 
areas, such as Lake Bistaneau, are also inhabited by the iconic cypress 
tree. The close proximity of trees can make it incredibly difficult for 
spray crews and their boats to access parts of these infested water 
bodies. And as the tree loses its leaves each year, that debris further 
fuels the degradation of the aquatic habitat. While we advocate for 
moderate tree removal, this is both expensive and, at times, unpopular 
with the public.
    Spraying is also an incredibly expensive treatment method. For each 
gallon of Galleon, the herbicide our Department utilizes, it costs us 
$1,851 per gallon. With more than 25,000 acres infested, simply 
spraying would be an incredibly expensive and likely ineffective task. 
And the costs not included in the cost per gallon for herbicide are the 
manpower costs to the state, the cost of the equipment, the boats and 
the fuel.
    The financial commitment required by Louisiana residents for an 
herbicide-only approach is one reason we have also investigated and 
begun the introduction of giant salvinia's natural predator from 
Brazil--the salvinia weevil. This hardy little insect eats through the 
plant and consumes the terminal bud, the part of the plant which is 
responsible for growth, severely hampering further infestation. 
Currently, we produce salvinia weevils in the spring and release them 
during the summer months. However, we are exploring the possibility 
utilizing an existing Department facility as a salvinia weevil 
hatchery. A hatchery or farm that would allow us to produce the weevils 
during winter months will allow our biologists to release weevils 
before the start of the active months for giant salvinia--tackling the 
spread of infestation before the heat of summer.
    LDWF also actively utilizes drawdowns of water bodies infested with 
giant salvinia. Lowering the water level of bodies of water with large-
scale giant salvinia growth allows the biologists to strand and dry out 
the plants, killing them. In order to execute water fluctuations 
effectively, water control structures must be in place. In some 
instances, constructing water control structures requires authorization 
from the U.S. Army Corps of Engineers, local governments and districts.
    However, water fluctuations are not always a popular option with 
local residents as it may mean limited access of the water body being 
drawn down for recreational use. We work to communicate our efforts 
with local residents, government and user groups in affected areas. 
While there may be initial disapproval from residents and users, we 
firmly believe that water fluctuations provide a sustainable solution 
that, ultimately, means residents will have access to an infestation-
free water body in the future.
    An example of this method is the drawdown of Turkey Creek Lake, in 
combination with Galleon herbicide treatments, in 2008. The drawdown 
was, initially, a success, but small amounts of the plant that were 
isolated during the drawdown re-infested the main water body. Still, 
despite not being able to completely eradicate giant salvinia in Turkey 
Creek Lake, the current coverage is less than before the water 
fluctuations were instituted.
    Another example of a water fluctuation and herbicide combination 
approach was in treatment of Toledo Bend. In addition to the actions 
taken by our Department biologists, two successive hard winters 
provided added reduction to the giant salvinia and help prevent 
continued infestation. Herbicide treatment is currently being used to 
ensure giant salvinia does not re-infest the lake as the water level 
rises.
    Lake Bistineau is also a prime example of a combination approach to 
treatment of giant salvinia. Water level fluctuation, intense 
application of herbicides and two successive cold winters greatly 
reduced the giant salvinia infestation in the lake. Unfortunately, 
shallow cypress tree stands have provided refuge for the giant 
salvinia. Biologists and spray crews are unable to access the plants in 
shallow areas. However, total coverage in the lake is estimated to be 
less than 100 acres, down from 8,500 acres just a year earlier.
    Public education is another crucial component in battling the giant 
salvinia infestation in Louisiana. Because this rootless plant can 
completely cover the surface of water bodies, it severely limits public 
access for boating and fishing. It can be burden for property owners 
with waterfront access and it can be unsightly for residents who are 
used to enjoying the simple pleasure of viewing an un-infested lake.
    Our biologists have been extremely proactive in communicating with 
residents in impacted areas--from requesting to be on the agenda at 
Police Jury meetings to attending user group meetings to be available 
for questions and comments. In some instances, like for Lake Bistineau, 
our biologists have worked closely with local government to provide 
residents with consistent updates. Information from our efforts can be 
found both on the local website: http://www.lakebistineau.com/salvinia/
index.htm and on our Department's website at http://
www.wlf.louisiana.gov/water-bodies/33991.
    We have also produced numerous brochures and posters to educate the 
public about giant salvinia and their role in helping stop the spread. 
While it is not a cure-all, encouraging residents to thoroughly wash 
both their boat and boat trailer goes a long way to helping contain 
infestation. A boat trailer may pick up a small amount of giant 
salvinia; it may live on the trailer for a short while and upon the 
boater's next trip, be introduced to a new, uninfested water body.
    While we don't expect the actions of residents and those tourists 
who enjoy the lakes and rivers across Louisiana to be able to wholly 
prevent the spread of giant salvinia--a 10 inch rain event can do more 
damage in a short amount of time--encouraging good boating and fishing 
habits may be a small help. Like each component I have discussed, none 
can stand alone in treating the infestation. Instead a complex 
combination of actions must be taken.
    Ultimately, we are dedicated to the effort to tame this voracious 
plant. Giant salvinia restricts boating and angling access in state 
water bodies. It degrades the quality of habitat for fish and other 
organisms. Each component I've mentioned today is crucial to the 
overall effort.
    Let me be clear, giant salvinia cannot simply be eradicated. This 
deft plant is far too integrated into our environment to kill off. This 
will be an ongoing issue that will require local, state and federal 
dedication of funds to battle. Agencies at all levels, and local 
residents, must work together to reduce the occurrences of this plant 
and to rehabilitate impacted water bodies. Our Department is up to the 
task and we will continue to seek your support for our efforts in the 
years to come.
    Thank you, again, for the invitation to speak today. At this time, 
I'll take any questions you may have for our Department.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Mr. Barham. That's very 
enlightening and distressing at the same time.
    Next up is Mr. Melinchuk. Five minutes, sir.

 STATEMENT OF ROSS MELINCHUK, DEPUTY EXECUTIVE DIRECTOR, TEXAS 
                 PARKS AND WILDLIFE DEPARTMENT

    Mr. Melinchuk. Good morning. Thank you, Chairman Fleming 
and Congressman Gohmert, for giving me the opportunity to speak 
with you today on this important topic.
    Caddo Lake has a long history of problems with infestations 
of aquatic invasive plants, as you are----
    Mr. Gohmert. Ross, could we get you to pull the mic closer?
    Mr. Melinchuk. A little better?
    Mr. Gohmert. Great. Thank you.
    Mr. Melinchuk. And species like giant salvinia, water 
hyacinths and hydrilla have altered aquatic ecosystems and 
negatively affected boat access, navigation and recreation.
    Similar issues have occurred in 17 other Texas lakes and 
water bodies and have been especially prevalent in the eastern 
part of the state.
    To prevent and manage infestations of the giant salvinia 
and other aquatic invasive plants, the Texas Parks and Wildlife 
Department maintains a full-time four-man crew of certified 
pesticide applicators that work statewide.
    As funding allows, the Department also uses contract 
services to conduct herbicide treatments. Aquatic plant 
activities implemented by the Department and our contractors 
are based on an integrated pest management approach that uses 
biological, chemical, and mechanical controls supplemented with 
preventative measures like boater education and outreach 
campaigns.
    For the last ten years, the Department's annual statewide 
budget for management of invasive aquatic plants has ranged 
from several hundred thousand dollars to 1.5 million. Funding 
has been provided by a variety of sources, including our 
Department, the U.S. Army Corps of Engineers, U.S. Fish and 
Wildlife Service, various river authorities, and local 
partners.
    For Fiscal Years 2010 and 2011, the Texas Legislature 
provided about three-quarters of a million dollars annually for 
statewide management of invasive plants, which we matched with 
Federal grants.
    Unfortunately, state funding has been eliminated for Fiscal 
Years 2012 and 2013, and the Department is now going to be 
relying on Federal grants and partner cost share to support 
these activities.
    A comprehensive plant management program would require in 
our estimation about $2 million annually to implement, at least 
$600,000 of which would be targeted at giant salvinia.
    As has been said, giant salvinia was confirmed on the Texas 
side of Caddo Lake in September of '06; and since 2008, the 
Department has spent on average about $150,000 annually on the 
Texas side. Roughly 60 bucks an acre is what it's costing us.
    After a number of meetings with local, state, and Federal 
officials, including Representative Gohmert, the Department and 
partners developed a bi-state aquatic plant management plan for 
Caddo Lake in 2007.
    Funding needed to fully implement that plan was never fully 
realized, and by September of '09, giant salvinia had expanded 
to cover more than 3200 acres.
    Fortunately, due to a combination of cold winters in 2010 
and '11 and some aggressive herbicide treatments, giant 
salvinia has now been reduced to about 300 acres on the Texas 
side, so we're fortunate in that respect.
    Talked about weevils a little bit. Large numbers of giant 
salvinia weevils were stocked in Caddo Lake earlier this year, 
and the Department is hopeful that this action will prevent at 
least the expansion of giant salvinia during this growing 
season.
    Although giant salvinia weevils have proven effective in 
controlling giant salvinia in many areas of the world, their 
effectiveness in Texas is somewhat limited by our climate.
    However, if stocked at high enough rates, they have the 
potential to enhance our control efforts in Caddo and 
elsewhere, especially in the shallow backwater areas where 
chemical and mechanical treatments are difficult to conduct. 
Rearing facilities at Jasper, Texas, and Karnack should lead to 
more effective use of the weevil.
    Prevention is definitely the least expensive form of 
treatment, and public education and outreach efforts such as 
the Giant Salvinia Awareness Campaign launched in 2010 by Texas 
Parks and Wildlife Department are important components of the 
Integrated Pest Management Approach.
    Targeted outreach programs can be effective, but they, too, 
are expensive. The Department spent about $275,000 in 2010 for 
a one-month media campaign focused on Caddo, Lake Conroe, 
Toledo Bend, and Sam Rayburn reservoirs.
    The campaign included radio, television, print ads, online 
advertising, billboards, ramp buoys, pump station toppers, 
pretty comprehensive campaign.
    The boater survey conducted following the campaign showed 
us that 51 percent of boat owners had seen advertising or 
information about giant salvinia and that awareness had 
increased.
    Key point, in fact, 96 percent of boaters surveyed reported 
that the campaign made them more likely to clean their boat and 
trailer in the future.
    In closing, I want to emphasize our commitment to work with 
our Louisiana colleagues, other partners, to identify and 
secure a stable source of funding and coordinate efforts to 
manage giant salvinia in Caddo Lake and other public waterways.
    Thank you for the opportunity to address the Subcommittee 
and I'll take any questions.
    [The prepared statement of Mr. Melinchuk follows:]

        Statement of Ross Melinchuk, Deputy Executive Director, 
         Natural Resources, Texas Parks and Wildlife Department

    Thank you Chairman Fleming, Representative Gohmert and other 
members of the subcommittee for the opportunity to speak with you today 
on this very important topic. Caddo Lake has a long history of problems 
with infestations of invasive aquatic plants. Species such as giant 
salvinia, water hyacinth and hydrilla have altered aquatic ecosystems 
and negatively affected boat access, navigation and recreation. Similar 
issues have occurred in numerous other Texas waterbodies and have been 
especially prevalent in the eastern portion of the state. To prevent 
and manage infestations of giant salvinia and other invasive aquatic 
plants, the Texas Parks and Wildlife Department maintains a full-time, 
4-man crew of certified pesticide applicators that work statewide. As 
funding allows, the department also utilizes contractual services to 
conduct herbicide treatments. Aquatic plant management activities 
implemented by the department and our contractors are based on an 
Integrated Pest Management approach that utilizes biological, chemical 
and mechanical controls, and preventative measures such as boater 
education and outreach campaigns.
    Over the last 10 years, the department's annual statewide budget 
for management of invasive aquatic plants has ranged from several 
hundred thousand dollars to nearly $1.5 million. Funding has been 
provided by a variety of sources, including Texas Parks and Wildlife 
Department, the U.S. Army Corps of Engineers, U.S. Fish and Wildlife 
Service, river authorities and local partners. For fiscal years 2010 
and 2011, the Texas Legislature provided $750,000 annually for the 
statewide management of invasive aquatic plants, which was matched with 
federal grants. State funding has now been eliminated for fiscal years 
2012-2013 and the department is reliant on federal grants and partner 
cost-share to support these activities. A comprehensive aquatic plant 
management program would require an estimated $2 million dollars 
annually to implement, with at least $600,000 for giant salvinia.
    Giant salvinia was confirmed on the Texas side of Caddo Lake in 
September 2006. Since 2008, the department has spent, on average, over 
$150,000 annually on aquatic plant management on the Texas side of the 
lake, at an estimated cost of $60 per acre. After a number of meetings 
with local, state, and federal officials, including Representative 
Gohmert, the department and partners developed a bi-state aquatic plant 
management plan for Caddo Lake in 2007. Funding needed to fully 
implement that plan was never realized and by September 2009, giant 
salvinia had expanded its coverage to more than 3,200 acres. 
Fortunately, due to a combination of cold winters in 2010 and 2011, and 
aggressive herbicide treatments, giant salvinia has been reduced to 
less than 300 acres.
    Large numbers of giant salvinia weevils were stocked in Caddo Lake 
earlier this year, and the department is hopeful that this action will 
prevent the proliferation of giant salvinia during this growing season. 
Although giant salvinia weevils have proven effective in controlling 
giant salvinia in many areas of the world, their effectiveness in Texas 
is somewhat limited by our climate. However, if stocked at high enough 
rates, they have the potential to enhance our control efforts in Caddo 
Lake and elsewhere, especially in shallow backwater areas where 
chemical and mechanical treatments are difficult to conduct. Aquatic 
plant shredders and other mechanical removal devices have had limited 
success in east Texas lakes and have not shown to be cost-effective. 
This is especially true at Caddo Lake, where the abundance of Cypress 
stumps and other snags make use of these machines almost impossible.
    Prevention is definitely the least expensive form of treatment, and 
public education and outreach efforts such as the Giant Salvinia 
Awareness Campaign launched in 2010 by Texas Parks and Wildlife 
Department are important components of the Integrated Pest Management 
Approach that is being implemented by the department and our partners. 
Targeted outreach programs can be effective but also can be very 
expensive. The department spent approximately $275,000 in 2010 for a 
one-month media program focused on Caddo Lake, Lake Conroe, Toledo Bend 
reservoir and Sam Rayburn reservoir. The campaign included radio and 
television news stories, print ads, online advertising, billboards, 
boat ramp buoys and gas station pump toppers in targeted areas. A 
boater survey conducted following the campaign showed that 51% of boat 
owners had seen the survey and that awareness had increased. In fact, 
96% of boaters surveyed reported that the campaign made them more 
likely to clean their boat and trailer in the future.
    In closing, I want to emphasize our commitment to work with our 
Louisiana colleagues and other partners to identify and secure a stable 
source of funding and to coordinate efforts to manage giant salvinia in 
Caddo Lake and other public water bodies. Thank you for the opportunity 
to address the Subcommittee on this important topic. I would be happy 
to answer any questions.
                                 ______
                                 
    Dr. Fleming. OK. Thank you, Mr. Melinchuk. Next we have Mr. 
Grodowitz for five minutes.

STATEMENT OF DR. MICHAEL GRODOWITZ, BIOMANAGEMENT TEAM LEADER, 
                  U.S. ARMY CORPS OF ENGINEERS

    Dr. Grodowitz. Mr. Chairman, Congressman Gohmert, my name 
is Michael Grodowitz, and I work as a research entomologist for 
the U.S. Army Corps of Engineers, Engineer Research and 
Development Center, Vicksburg, Mississippi.
    Thank you for the opportunity to testify today on efforts 
to control and eradicate the invasive weed salvinia molesta or, 
as commonly known, giant salvinia.
    I'm sure that most people in attendance are quite aware of 
the manifold problems giant salvinia has and is causing in many 
areas of the U.S.
    A native to South America, it was first introduced into the 
U.S. in the 1980's in the Carolinas. Since that time, it is now 
found as far west as the Hawaiian Islands, east into the 
peninsula of Florida, and north into Virginia.
    I don't have to remind you that giant salvinia is an 
aquatic fern capable of forming surface mats upwards of one 
meter thick. Its growth rate is tremendous. It is known to 
double its biomass in two to three days, can have infestations 
with greater than 5,000 plants per meter squared, and amazingly 
can produce plant biomass of a hundred tons per hectare 
annually.
    Giant salvinia, as you all have heard, hinders navigation, 
disrupts water intake, degrades water quality, decreases native 
plant and animal diversity, impacts threatened and endangered 
species, and increases mosquito breeding habitat for species 
that are known to transmit encephalitis, dengue fever, malaria 
and elephantiasis.
    Numerous control strategies have been implemented for the 
management of salvinia. These include the use of traditional 
methods such as mechanical control and chemical applications.
    Chemical control is probably the most widespread management 
method employed in the U.S. today. The use of alternative 
methods, such as biological control, is highly promising and 
has been shown to produce long-term sustainable control.
    One insect agent has been approved for release in the U.S., 
the salvinia weevil, or cyrtobagous salviniae, and is the 
method of choice for many overseas locations.
    As you are painfully aware, each of these strategies have 
their own advantages and shortcomings. For example, chemical 
applications, while highly effective, are expensive, especially 
since they require repeat applications over several years.
    Drawdowns, which serve to desiccate and kill the plant, do 
reduce infestations and can isolate the plant into smaller 
areas allowing easier access for mechanical removal or chemical 
treatment.
    However, when water levels increase, remaining plants can 
be scattered throughout the water body making treatment even 
more difficult.
    The use of biological control has gained in increased favor 
in the United States. Over the last five years, rearing 
operations for the salvinia weevil have been developed at many 
Federal, state, and local levels, allowing the release of large 
numbers of weevils in a variety of water bodies, particularly 
in Texas and Louisiana.
    Importantly, the U.S. Army Engineer Research and 
Development Center, aquatic plant control and research program 
facility in Vicksburg, Mississippi, and our remote facility 
outside of Dallas, Texas, have been instrumental in providing 
weevils and rearing methodologies.
    While effective, it is important to note that the 
biocontrol is a long-term process, typically taking from two to 
four years for long-term control.
    The only strategy that will allow more complete management 
of giant salvinia is the implementation of all management 
methods in a truly integrated fashion, and to some extent that 
is becoming to be more commonplace in the United States.
    As you're aware, there are many actions that can be taken 
for more effective control of giant salvinia, but I believe in 
my opinion the following six items are paramount:
    One, since salvinia is mainly disbursed by humans, it's 
essential that we increase public awareness to minimize the 
risk of new infestation and reinfesting older sites.
    Two, it's important that we develop common guidelines that 
will allow the selection of the best control method or 
combination of strategies on a site-by-site basis.
    Three, we need to implement standardized sampling protocols 
for infield biocontrol population size, impact, and numbers 
released.
    Four, must ensure that monitoring for new infestation is 
accomplished on a continual basis. Early detection, rapid 
response is essential.
    Five, we need to address underlying factors responsible for 
the buildup of such large and damaging infestations.
    One of those, which I'm glad to see you mentioned, high 
nutrient levels are one of the most important. High levels of 
nitrogen and phosphorus allow for explosive plant growth.
    And finally and essential, that applied research be 
advanced, including identification of new chemicals and 
chemical combinations, more cost-effective insect rearing and 
release methods, and the development of integrated management 
technologies in an effort to enhance control.
    However, it must be noted that funding for this type of 
research will continue to be difficult, particularly in today's 
budget environment.
    In conclusion, salvinia management in the United States has 
come a long way since its introduction nearly 30 years ago. 
Diligent application of chemicals and the development of 
several large and successful rearing facilities for the weevils 
is a testament to that statement.
    However, more work is needed. This includes a more 
coordinated response to human mediated transport and new 
infestations, a better educated public, increased compatibility 
and application of sampling protocols on a national level, 
addressing high nutrient loads, and continuing applied research 
and development.
    Thank you, and I want to extend an open invitation to the 
congressmen and their staff to visit our facilities in the near 
future. Again, thank you and I look forward to your questions.
    [The prepared statement of Dr. Grodowitz follows:]

   Statement of Michael J. Grodowitz, Ph.D., Research Entomologist, 
Engineer Research and Development Center, U.S. Army Corps of Engineers, 
                         Vicksburg, Mississippi

    Mr. Chairman and other Members of the Subcommittee, I am Michael J. 
Grodowitz, Ph.D. I work for the U.S. Army Corps of Engineers, Engineer 
Research and Development Center. Thank you for the opportunity to 
testify today on efforts to control and eradicate the Invasive Weed, 
Giant Salvinia.
    Giant salvinia (Salvinia molesta), a native of Brazil, is a 
floating fern introduced into the United States through the aquatic 
nursery trade. Since its introduction in the middle to late 1990's, 
giant salvinia has dispersed naturally and by humans, and in less than 
20 years can now be found as far west as the Hawaiian Islands, east 
into the peninsula of Florida, and north into Virginia. It is one of 
the world's worst weeds and is causing manifold problems throughout the 
sub-tropical and tropical regions of the earth. Impacts are varied and 
include hindering navigation; disrupting water intake for municipal, 
agricultural and industrial purposes; degrading water quality; 
decreasing floral and faunal diversity; impacting threatened and 
endangered species; and increasing mosquito breeding habitat for 
species that are known to transmit encephalitis, dengue fever, malaria, 
and rural filariasis or elephantiasis.
    Giant salvinia causes significant problems in over 20 other 
countries including Australia, New Zealand, Fiji, the Philippines, 
India, Indonesia, Malaysia, Singapore, Papua, New Guinea, the Ivory 
Republic, Ghana, Zambia, Kenya, Namibia, Botswana, South Africa, 
Madagascar, Columbia, Guyana, and several Caribbean countries 
(including Cuba, Puerto Rico, and Trinidad). This list increases 
yearly. In the United States, it is now found in at least 90 localities 
and is especially troublesome in southern states including Texas, North 
and South Carolina, Louisiana, Georgia, Florida, Alabama, Mississippi 
and west into Arizona, and California.
    Giant salvinia reaches damaging infestation levels because of its 
tremendous growth rate. While it has been shown to only reproduce 
vegetatively (i.e., viable spores are not produced) this is more than 
enough to allow it to form surface mats up to 1 m thick with plant 
numbers approaching 5000/m\2\ and biomass production of upwards of 100 
tons/ha/year. Even greater production is possible under more favorable 
conditions. It has been known to double in number in one to eight days, 
depending on environmental conditions.
    Numerous control strategies have been implemented for the 
management of salvinia. These include the use of traditional methods 
such as mechanical control (i.e. cutting or plant removal) and chemical 
applications. Mechanical control options are not particularly 
effective. They are expensive and often do not produce results needed 
for even partial management. However, in certain instances, especially 
small isolated areas, mechanical control may be employed with some 
success. The use of chemical technologies can be effective but tend to 
produce only short-term control and can become expensive, especially 
when multiple treatments are needed over the course of a growing 
season. The use of alternative control methods such as biological 
control is highly promising and has been shown to produce long-term 
sustainable control. One agent has been approved for release in the 
United States, the salvinia weevil (Cyrtobagous salviniae), and is the 
method of choice for management in many overseas locations. While 
effective, biological control can take several years and there is some 
concern that it may not be particularly effective in the more northern 
extreme of salvinia's distribution. Other methods employed for salvinia 
control in the United States include flushing and drawdowns. Increasing 
water flow to `flush' plants out of a waterbody or drainage can reduce 
biomass locally but may increase the distribution of salvinia 
downstream. Drawdowns (which serve to desiccate and kill the plant) do 
reduce biomass and can isolate the plant into smaller areas allowing 
easier access for mechanical removal or chemical treatment. However, 
when water levels increase remaining plants can be scattered throughout 
the water body making treatment even more difficult.
    Currently, chemical control is the most widely used management 
strategy in the United States for the control of salvinia. A wide 
variety of products are employed mainly those containing diquat, 
glyphosate, and to a lesser extent fluridone and carfentrazone-ethyl. 
Active ingredients recently labeled for aquatic use including 
penoxsulam and flumioxazin, have been evaluated and are effective but 
have yet to be used on a wide scale. As indicated earlier, chemical 
applications can be highly effective producing dramatic control (> 90%) 
in a manner of days or months. However, several factors often dictate 
the need for repeat applications and diligent post-treatment 
monitoring. One important factor is the rapid growth rate of salvinia 
which allows the plant to easily outpace the current application of 
chemicals. Probably a more important factor is the ability of salvinia 
to re-grow from small buds or plants that are missed during chemical 
application, especially in backwater coves where overhanging vegetation 
can hide small plant populations or where plant growth is dense and 
underlying layers are protected from surface sprayed herbicides. These 
plant fragments can be smaller than \1/4\ inch. In addition, the plant 
can easily be transported by a variety of human mediated means. Thus, 
water bodies where salvinia has been eradicated can be easily re-
infested. Therefore, the rapid growth rate of salvinia and its 
excellent dispersal ability necessitates the use of greater amounts of 
chemicals with increased labor costs for application which leads to a 
never-ending cycle of chemical use.
    The use of biological control is gaining increased favor in the 
United States. Over the last five years, rearing operations for the 
salvinia weevil have been developed at the Federal, state, and local 
levels, allowing the release of large numbers of weevils in a variety 
of water bodies, particularly in Texas and Louisiana. Such an active 
approach to the use of biocontrol is promising and is allowing the more 
widespread application of a technology that offers the possibility of 
longer and more sustainable control. However, set-backs have occurred. 
First, releases of weevils from the various rearing operations are not 
coordinated to any large extent between the various agencies and 
institutions; i.e., no central database is available allowing for easy 
consultation and comparison. Also, in many cases, there is only minimal 
monitoring of release sites using sampling protocols designed to 
document weevil populations and subsequent impact over the long term. 
Hence, information on current numbers of biocontrol agents and impact 
levels, which is essential to make informed decisions on the need for 
additional releases, is lacking. In addition, numbers of weevils 
released is often reported differently by different agencies leading to 
erroneous information exchange on actual numbers introduced. Unusually 
cold weather has also hampered the establishment of the weevils in many 
sites in the northern distribution of salvinia. Historic cold events 
over the last two winters have significantly reduced the extent of the 
salvinia infestations especially along and just north of the I-20 
corridor. This has increased the effectiveness of chemical applications 
because of the smaller size of the infestations. Several sites in these 
areas were targeted for release of the weevil. However, with the 
reduction in salvinia populations establishment of the salvinia weevil 
could not be confirmed and may have been unsuccessful due to the 
extreme cold and mortality of the plants.
    The following are steps needed to ensure the implementation and 
success of a working and well coordinated management plan for 
successful control of salvinia:
        1.  Increase public awareness--While some effort has been put 
        toward educating the public on the dangers of this invasive 
        species, additional work is needed. This is especially 
        important since salvinia can easily be transported from one 
        water body to another through human mediated transport 
        including boats, trailers, and live wells, among others. 
        Emphasis needs to be directed toward ensuring that people 
        adequately clean all equipment before entering and leaving a 
        water body. This is not easily accomplished, but continued non-
        compliance will only allow the plant to spread to new locations 
        as well as re-infest sites where management options were 
        employed successfully in the past. Stronger penalties and fines 
        may have to be implemented for non-compliance along with a 
        coordinated educational program. It is important to note that 
        giant salvinia is listed as a Federal noxious weed by the USDA 
        which prohibits importation into the U.S. and across state 
        lines. It is also listed as a noxious weed in Florida, North 
        Carolina, Mississippi, Texas, Oklahoma, California, Arizona, 
        Louisiana, Alabama, South Carolina and Georgia based on state 
        regulations which go further to prevent its spread and sale 
        within these individual states.
        2.  There is a need to develop common guidelines on what site 
        characteristics dictate application of either chemical and/or 
        biocontrol techniques. While developing such selection criteria 
        can be complex, there are certain characteristics that will 
        allow intelligent selection of applicable technologies. Items 
        that should be considered include extent of infestation, number 
        of high priority sites needing rapid reduction, accessibility 
        of sites for chemical application, latitude, among others.
        3.  It is important to develop and implement standardized 
        sampling protocols for monitoring insect release sites for 
        population size and impact and to determine actual numbers 
        released from various rearing facilities. This includes the 
        development of standard methods for reporting such information 
        that can be used across the region.
        4.  We must ensure that monitoring for new infestations is 
        accomplished on a continual basis. Implementing such procedures 
        will identify and allow treatment of new infestations before 
        they reach levels where management becomes untenable. This 
        process is known as early detection, rapid response (EDRR) and 
        is an essential component of successful management programs.
        5.  It is important to understand and address underlying 
        causative factors allowing the formation of damaging 
        infestations of giant salvinia. One of the more important 
        causative factors is high nutrient levels that allow for 
        increased and explosive plant growth. While it is difficult to 
        minimize nutrient influx into water bodies, several strategies 
        have been used with varying success. These include repairing 
        leaking septic systems or positioning the septic fields away 
        from the water body, implementation of regulations prohibiting 
        fertilization of lawns right up to the water's edge, and 
        ensuring that sewage treatment plants use tertiary treatment 
        processes to limit nitrogen and phosphorus loading. One 
        potential method is the use of re-vegetation techniques to 
        establish a diverse community of non-invasive native vegetation 
        that will act as nutrient sinks to reduce nitrogen levels 
        thereby limiting plant growth and reducing the chance of new 
        infestations by salvinia as well as other invasive species 
        including waterhyacinth, hydrilla, and Eurasian watermilfoil, 
        among others. This includes the use of emergent species near 
        the water's edge to catch and contain nutrient run-off from the 
        surrounding landscape and the establishment of a diverse 
        submersed and floating leaved aquatic plant community to reduce 
        nutrients in the sediment and in the water column, and provide 
        competitive pressure through shading, filling of empty spaces, 
        etc.
        6.  Finally, advancement of applied research would enable 
        development of more efficient and efficacious methods for the 
        control of salvinia. This includes but is not limited to 
        identification and registration of new chemicals and chemical 
        combinations that are more environmentally compatible and 
        possess increased selectivity for salvinia. Also, it is 
        important to continue researching better methods of rearing, 
        releasing, establishing, and monitoring the salvinia weevil and 
        associated impact. More importantly, better methods need to be 
        developed to more successfully integrate these two methods in 
        an effort to enhance control. However, funding for this type of 
        research will continue to be difficult particularly in today's 
        budget environment.
    In conclusion, salvinia management in the United States has come a 
long way since its introduction in the 1990's. Diligent application of 
chemicals and the development of several large and successful weevil 
rearing facilities is a testament to that statement. However, more work 
is needed. This includes a more coordinated response to human mediated 
transport and new infestations, a better educated public, increased 
compatibility and application of sampling protocols on a National 
level, addressing high nutrient loads, and continuing research and 
development.
    I have included a U.S. Army Corps of Engineers report published in 
2004 that provides more detailed information on salvinia and the 
available management options. Thank you for the opportunity to testify 
today and I will be happy to answer any questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Grodowitz. Next is Dr. 
Westbrooks.

    STATEMENT OF DR. RANDY G. WESTBROOKS, INVASIVE SPECIES 
 PREVENTION SPECIALIST, USGS NATIONAL WETLANDS RESEARCH CENTER

    Dr. Westbrooks. Thank you. Thank you, Chairman Fleming, for 
the opportunity to testify about current efforts to control and 
eradicate giant salvinia in the MidSouth Region of the United 
States.
    My name is Randy Westbrooks. I'm an Invasive Species 
Prevention Specialist with the U.S. Geological Survey, National 
Wetlands Research Center, based in Whiteville, North Carolina.
    The USGS is the bureau of the Department of the Interior 
that conducts research to better understand interrelationships 
between biological systems, earth processes, and human 
activities.
    One of our roles is to provide biological, geological, and 
hydrological expertise and technical assistance to state and 
Federal land managers in addressing invasive species that pose 
a threat to natural ecosystems.
    This morning I will provide you with background information 
on giant salvinia as well as strategies for minimizing the 
establishment and spread in waterways of the southern United 
States.
    Giant salvinia is a small, free-floating aquatic fern that 
is native to South America. It is somewhat similar to our 
native duckweed, only bigger.
    It prefers warm temperatures and grows best in nutrient-
rich, slow-moving waters such as canals, ponds, and lakes.
    Under ideal growing conditions, giant salvinia can double 
its mass in five to seven days and form large floating mats.
    Left uncontrolled, these mats will interfere with native 
aquatic plants and organisms in the water. The mats also block 
access to boat ramps and docks and interfere with navigation.
    Giant salvinia was probably first introduced into the 
United States as a novelty aquarium and water garden plant 
prior to being listed as a Federal Noxious Weed by the USDA in 
1981.
    The first free living infestation of giant salvinia was 
detected and eradicated from a small pond near Walterboro, 
South Carolina, in 1995.
    Since that time, giant salvinia has been reported in a 
number of other states, including Louisiana and Texas. It was 
first reported in Toledo Bend on the Texas, Louisiana border in 
1998.
    Since then, it's been detected in 34 other water bodies in 
the state and in 17 water bodies in Texas, including nearby 
Caddo Lake and Lake Bistineau.
    Based on the work that has been done in weed eradication 
efforts across the country, such as the Beach Vitex Task Force 
in the Carolinas and Virginia and the North Carolina Giant 
Salvinia Task Force, there are a number of strategies that may 
be employed for addressing new aquatic weeds like giant 
salvinia.
    These include inspection and cleaning of boats and trailers 
at vehicle weigh stations along major highways by state 
personnel; inspection of water garden plants at aquatic plant 
nurseries by state personnel; inspection and cleaning of boats 
and trailers prior to leaving infested waters; detection and 
delimiting surveys at major public lakes and waterways by state 
and Federal personnel; removal of microinfestations around boat 
docks and ramps by shoreline watch groups; eradication of small 
infestations in public lakes by lake association contractors; 
eradication of small infestations in private lakes by 
homeowners and landowners; and control of large infestations on 
public lakes and waterways by interagency groups, such as the 
Interagency Giant Salvinia Control Team.
    The Interagency Giant Salvinia Control Team is making 
progress in controlling giant salvinia in these two states; 
however, successful eradication efforts will require that all 
impacted and potential stake owners get involved with the giant 
salvinia management effort in both states.
    Fortunately over the past two years, cold and unusual 
winter weather has significantly reduced giant salvinia 
infestations in the northern parts of the MidSouth.
    So this provides a unique opportunity to treat remaining 
infestations and to take steps to prevent giant salvinia from 
becoming wildly established in this region again.
    This is one invasive species problem that cannot be solved 
by public agencies alone. However, with public support and 
involvement, giant salvinia can be eliminated as a serious 
threat to the MidSouth Region.
    This concludes my statement, and I'll be happy to answer 
any questions that you have.
    [The prepared statement of Dr. Westbrooks follows:]

    Statement of Dr. Randy Westbrooks, Invasive Species Prevention 
  Specialist, U.S. Geological Survey, U.S. Department of the Interior

    Thank you, Chairman Fleming, for the opportunity to testify about 
current efforts to control and eradicate Giant salvinia in the MidSouth 
Region of the United States. My name is Randy Westbrooks, and I am an 
Invasive Species Prevention Specialist with the U.S. Geological Survey, 
National Wetlands Research Center, based in Whiteville, North Carolina.
    The USGS, which is a bureau of the Department of the Interior, 
conducts research to understand the interrelationships between 
biological systems, Earth processes, and human activities. One of our 
roles is to provide biological, geological, and hydrological expertise 
and research to assist State and Federal land managers in managing 
invasive species that pose a threat to natural ecosystems, particularly 
in our public parks and refuges. My statement will include background 
information on Giant salvinia (Salvinia molesta D.S. Mitchell), which 
is considered one of the world's worst weeds, and proven strategies for 
controlling and minimizing its spread in the waterways of the southern 
United States.
    What is Giant Salvinia? Giant salvinia is a small, free-floating 
aquatic fern that is native to southeastern Brazil and northeastern 
Argentina. It is somewhat similar in appearance to our native duckweed 
(Lemna minor), but bigger. Its most notable feature is the rows of 
``hairs'' with 4 branches that join in a cage-like tip. The tip traps 
air that helps the plant float on the water surface. Giant salvinia 
prefers tropical, sub-tropical, or warm temperatures and grows best in 
nutrient-rich, slow-moving waters such as ditches, canals, ponds, and 
lakes. It is a freshwater plant but can tolerate salinity levels in 
estuaries up to levels of about 10% that of seawater.
    Why is it a Problem? It is no exaggeration to say that Giant 
salvinia is one of the world's worst weeds. It takes only a fragment of 
a single plant to multiply vegetatively and produce a thick floating 
mat of plants (called a ``sudd'') on the surface of standing water 
(Holm and others, 1977). The mats clog waterways and block sunlight 
from reaching other aquatic plants below the surface, reducing the 
amount of oxygen in the water. As these plants die and sink to the 
bottom, decomposer organisms use up even more oxygen in the water. The 
mats also impede the natural exchange of gases between the water and 
the atmosphere, which can lead to stagnation of the water body. 
Ultimately, these processes will kill all plants, aquatic insects, and 
fish living below the mats. The mats also provide ideal conditions for 
mosquitoes to breed, block access to boat docks and boat ramps, and 
interfere with navigation.
    How was it Introduced and Spread? It is presumed that Giant 
salvinia was first introduced into the United States as a novelty 
aquarium and water garden plant and/or as a contaminant of aquarium and 
water garden plants, that were imported, before it was listed as a 
Federal Noxious Weed in 1981. Since then, it has escaped into the wild, 
where it has been identified in a number of States across the southern 
United States, including Louisiana and Texas. Once it infests a 
waterway, Giant salvinia is spread to new areas by flowing water and by 
boats, trailers, and other recreational watercraft.
    In 1995, the South Carolina Department of Natural Resources (SC-
DNR) identified the first sustained infestation of Giant salvinia in 
the United States in a small private pond near Walterboro, South 
Carolina. It was summarily eradicated from that pond by SC-DNR and the 
Plant Protection and Quarantine (PPQ) program within the USDA Animal 
and Plant Health Inspection Service (APHIS).
    In 1998, Giant salvinia was detected in Toledo Bend Reservoir on 
the Louisiana-Texas border. By the time it was identified and reported 
in Toledo Bend, Giant salvinia had already formed large mats of sudd 
that were interfering with recreational boating and fishing. Since 
then, it has been detected in 34 other water bodies in the State of 
Louisiana. Giant salvinia was likely introduced to Lake Bistineau on 
one or more boat trailers during the lake drawdown in 2005 (Louisiana 
Department of Wildlife and Fisheries). It was first reported in Caddo 
Lake in 2006.
    Giant salvinia was first detected in Pender County, in southeastern 
North Carolina, in 2002. In response, the North Carolina Giant Salvinia 
Task Force was formed and started working to eradicate Giant salvinia 
from five sites in the North Carolina Coastal Plain. Owing to their 
efforts, Giant salvinia has been conditionally eradicated from North 
Carolina. This year, the task force is conducting appraisal surveys at 
River Bend Swamp in Pender County, North Carolina, to make sure that it 
has been totally eradicated from the site.
    General Management Strategies. Preventing infestations is clearly 
the most effective strategy for managing Giant salvinia. Once it 
becomes established and widespread in a large water body it is very 
difficult to control. Under ideal conditions, Giant salvinia can double 
its mass and coverage area in 5-7 days. In areas where Giant salvinia 
has become established, setting up local monitoring programs that 
involve local residents and boaters, to make sure that new infestations 
are detected early and addressed quickly before it becomes widespread, 
has been effective. The Caddo Lake Shoreline Watch Program that is 
being organized by the Caddo Lake Institute and its partners is a good 
example of local stakeholders working together to address this problem.
    Manual, Mechanical Control--If an infestation grows too large to be 
easily eradicated, mechanical harvesters are sometimes used to open up 
boat lanes in public lakes until other means of control can be 
implemented. Infestations in small water bodies can be removed by hand 
or by draining the water and allowing the plants to desiccate on 
exposed lake bottoms.
    Chemical Control--A number of herbicides are effective in 
controlling Giant salvinia. Examples include diquat (Reward--a contact 
herbicide) and fluridone (Sonar--a systemic herbicide that is taken up 
from the water column). It is important to remember that a contact 
herbicide such as diquat will only control the plants that it touches. 
It will not kill all of the plants in a thick mat of Giant salvinia. On 
the other hand, systemic herbicides such as fluridone are ideal for 
controlling Giant salvinia in small, contained water bodies with 
standing water. All of the plants with submerged leaves will take up 
the chemical from the water and be killed. However, systemic herbicides 
will not stay adequately concentrated in large water bodies and flowing 
waterways, reducing their effectiveness.
    Biological Control--In some locations, biological control has been 
an effective method for managing Giant salvinia. The most successful 
example is the introduction of South American Salvinia weevils 
(Cyrtobagous salviniae), which demonstrated excellent results in 
controlling Giant salvinia on Lake Moondarra in Queensland, Australia, 
and other countries in the early 1980s.
    In 2009, the Louisiana State University (LSU) AgCenter and the 
Louisiana Department of Wildlife and Fisheries introduced 30 tons of 
Giant salvinia, which was infested with 2.3 million Salvinia weevils, 
into Lake Bistineau and four other north Louisiana lakes. As a result 
of this application of weevils, in conjunction with two consecutive 
cold winters, the Giant salvinia infestation in Lake Bistineau has been 
reduced by 90%, according to Dr. Dearl Sanders, with the LSU AgCenter 
(Bossier-Press Tribune, May 11, 2011).
    Despite the success of using weevils to control Giant salvinia in 
some regions, the Salvinia weevil is not a fully effective control 
method in every case because it is less tolerant of cold temperatures 
than Giant salvinia. For this reason, the Salvinia weevil was 
unsuccessful controlling Giant salvinia in Kakadu National Park in the 
Northern Territory of Australia. In 2005, Salvinia weevils that were 
released into the River Bend Swamp of Pender County, North Carolina, 
also did not overwinter while the Giant salvinia plants survived.
    On the basis of work by LSU and the Louisiana Department of 
Wildlife and Fisheries, as well as other work done by the U.S. Army 
Corps of Engineers and the Texas Parks and Wildlife Department, it is 
clear that biological control can be an effective strategy for reducing 
infestations of Giant salvinia in northern parts of the MidSouth Region 
(e.g., Caddo Lake and Lake Bistineau). However, the weevils must be 
released on infested waterways annually, since they are unlikely to 
overwinter in northern parts of Louisiana and Texas. The Salvinia 
Weevil Rearing Facility was recently established at the Caddo Lake 
National Wildlife Refuge to provide the Salvinia weevils that will be 
needed each year for Giant salvinia control projects in north Louisiana 
and Texas.
    Regulatory Status. USDA APHIS first listed Giant salvinia as a 
Federal Noxious Weed in 1981. As a listed Federal Noxious Weed, Giant 
salvinia cannot be imported into the United States or transported 
across State lines without a Federal permit from APHIS. Under the U.S. 
Plant Protection Act of 2000, USDA APHIS can also cooperate with State 
and local agencies to eradicate infestations of listed Federal Noxious 
Weeds such as Giant salvinia.
    Giant salvinia is also listed as a regulated State Noxious Weed in 
a number of U.S. states and territories. These include Alabama, 
Arkansas, Arizona, California, Colorado, Connecticut, Florida, Idaho, 
Louisiana, Massachusetts, Maryland, Michigan, Mississippi, Nevada, 
North Carolina, Oklahoma, Oregon, Puerto Rico, South Carolina, 
Tennessee, Texas, Vermont, and West Virginia.
    In Louisiana, Giant salvinia is listed as an Invasive Noxious 
Aquatic Plant under Louisiana Revised Statutes Title 76, Section 1101. 
In Texas, Giant salvinia is listed as a Noxious and Invasive Plant 
under Texas Administrative Code--Title 4--Agriculture--Rule 19.300.
    Under most State noxious aquatic weed laws, a listed species cannot 
be imported (into), transported (through), or possessed in the State 
without a permit from the plant regulatory agency of that State. Based 
on a strict interpretation of the Louisiana state law in 2006, 
homeowners, boaters and fishermen were discouraged from assisting in 
the Giant salvinia removal effort in Caddo Lake. However, as the 
infestation has become much more pervasive over the past several years, 
the Louisiana Department of Wildlife and Fisheries has begun 
encouraging homeowners to control Giant salvinia around their boat 
docks and to remove small populations of the plant from the water to 
help control further expansion of the infestation. Community 
participation, in cooperation with State and local agencies, is a 
critical component of a successful Giant salvinia removal and control 
effort.
    Proven Strategies for Managing Giant Salvinia and other New 
Invasive Plants in the Southern United States. There are a number of 
proven strategies that have been successfully used to manage invasive 
plants across the southern United States and could be employed to 
minimize further establishment and spread of Giant salvinia in 
waterways of the MidSouth Region. Here is a summary of these 
strategies.
          I.  Interagency Partnering to Address Giant Salvinia. 
        Successful eradication efforts will require that all impacted 
        and potential stakeholders get involved with the Giant salvinia 
        control effort in Louisiana and Texas.
                A.  A number of State Invasive Species Councils have 
                been established across the United States (the Maryland 
                Invasive Species Council, the Delaware Invasive Species 
                Council, etc.). Such interagency groups provide an 
                effective mechanism for interagency coordination and 
                stakeholder input for addressing new invaders such as 
                Giant salvinia. Such councils often form interagency 
                task forces to address new invaders that cannot be 
                addressed by a single agency.
                B.  The Beach Vitex Task Force (www.beachvitex.org) is 
                a good example of this new trend in interagency 
                partnering in action. This task force, which was first 
                established in 2003, has eliminated all but a few of 
                the 230 known infestations of Beach vitex from coastal 
                dunes along the South Carolina coast. The task force is 
                now working to eradicate Beach vitex from coastal 
                communities in North Carolina and Virginia. The 
                Interagency Giant Salvinia Team (LA/TX) is making 
                similar progress in managing Giant salvinia in 
                Louisiana and Texas.
         II.  Survey and Detection. Survey and detection is the first 
        line of defense against Giant salvinia.
                A.  One reason for the tremendous success of the Beach 
                Vitex Task Force effort has been the involvement of sea 
                turtle volunteers who are working to protect sea turtle 
                nesting habitat along the Carolina coast. In searching 
                for sea turtle nests among primary and secondary ocean 
                dunes, volunteers have been instrumental in detecting 
                and reporting incipient infestations of Beach vitex to 
                task force coordinators for action. Likewise, 
                development of local shoreline watch programs at public 
                lakes such as Caddo Lake and Lake Bistineau could be 
                very helpful to the Interagency Giant Salvinia Control 
                Team and local contractors in managing new outbreaks of 
                Giant salvinia.
                B.  Another possible approach for early detection of 
                Giant salvinia infestations would be through detection 
                and delimiting surveys, to determine the extent of the 
                infestation, on public waterways under the APHIS 
                Cooperative Agricultural Pest Survey Program in Texas 
                and Louisiana. As a listed Federal Noxious Weed, Giant 
                salvinia is already a high-priority target species for 
                USDA APHIS and State plant regulatory agencies, 
                especially in states where it is also listed as a State 
                Noxious Weed.
                C.  As previously mentioned, early infestations of 
                Giant salvinia in the southern United States escaped 
                from water gardens stocked with imported aquatic 
                plants. Periodic inspection of commercial pond and 
                water garden suppliers for the presence of Giant 
                salvinia and other aquatic weeds of concern in 
                Louisiana and Texas could reduce unintentional 
                distribution of these species.
        III.  Outreach and Education. Ensuring that every person 
        participating in water sports and recreation across the 
        MidSouth is aware of Giant salvinia and know what they can do 
        to help control the problem is also key to successful 
        eradication.
                A.  Ongoing public outreach through newspaper, 
                magazine, radio, and television news stories, features, 
                and public service announcements can be helpful to 
                inform the boating public about the problem.
                B.  Posting Giant salvinia warning signs at public boat 
                ramps, gas stations, and marinas by the Texas Parks and 
                Wildlife Department has been very effective in raising 
                awareness of the problem. The signs, which encourage 
                the boating public to clean their boats and trailers, 
                are important in the effort to prevent further spread 
                and establishment of this unwanted plant.
          IV.  Regulatory Containment, Control, and Eradication.
                A.  Steps to Prevent Interstate Movement on Boats and 
                Trailers. As noted earlier, the Federal Plant 
                Protection Act of 2000 provides authority to regulate 
                the interstate movement of listed Federal Noxious Weeds 
                such as Giant salvinia. One way to accomplish this 
                would be to inspect boats and trailers for Giant 
                salvinia at highway rest stops and vehicle inspection 
                areas. State DOT personnel and Highway patrol personnel 
                could include Giant salvinia in their routine 
                inspections of boats and trailers at highway rest stops 
                and vehicle inspection areas near the Louisiana and 
                Texas state borders.
                B.  Control of Large Infestations by Interagency 
                Control Teams. A great deal of work to control Giant 
                salvinia in Louisiana and Texas is being done by the 
                Interagency Giant Salvinia Control Team. Long-term 
                success of the Giant salvinia control effort in these 
                states depends on this team. Left unchecked, a Giant 
                salvinia infestation can establish at high levels in a 
                very short time.
                C.  Adoption of a Three-Tier Management Strategy. A 
                three-tier management strategy that includes 
                stakeholder involvement has proven to be effective in 
                managing large, small, and micro-sized infestations of 
                high-priority invasive plants such as Beach vitex and 
                Giant salvinia in the Carolinas. Such a strategy for 
                managing Giant salvinia would include control and 
                eradication of large infestations by an Interagency 
                Control Team, eradication of small infestations by 
                local task-force contractors, and control of micro-
                infestations (e.g., around boat docks, boat ramps, and 
                elsewhere) by impacted homeowners and the boating 
                public. The Louisiana Department of Wildlife and 
                Fisheries has already implemented this kind of approach 
                in southwestern Louisiana, where lake residents at 
                Toledo Bend Reservoir are encouraged to remove Giant 
                salvinia around their boat docks and boat ramps. The 
                landowner would normally manage infestations detected 
                in private ponds with advice from a State Aquatic or 
                Extension Weed Specialist.
    Summary and Conclusion. Since the Caddo Lake Giant Salvinia Field 
Tour was held in August 2007, tremendous strides have been made in 
getting organized to address Giant salvinia in Texas and Louisiana. The 
most significant achievement has been establishment of the Interagency 
Giant Salvinia Control Team. Fortunately, over the past two years, 
colder winter weather has killed a significant amount of Giant salvinia 
across the northern parts of the MidSouth Region, making the present a 
favorable time to treat existing infestations and to take steps to 
prevent it from becoming more widely established in this region. 
Adoption of a three-tier management strategy for control and 
eradication of large, small, and micro-sized infestations has proven to 
be effective in managing new and emerging invasive plants such as Beach 
vitex and Giant salvinia in the Carolinas. Another valuable component 
of any effort to address Giant salvinia in the MidSouth Region is to 
stimulate public awareness and engagement to ensure that Giant salvinia 
is not spread to new waterways via boats, trailers, and fishing gear. 
This is one invasive species problem that cannot be solved by public 
agencies alone. However, with public help and support, Giant salvinia 
can be eliminated as a serious threat to the MidSouth Region.
    This concludes my statement. I will be happy to answer any 
questions you may have.
For more information:
Anonymous. (2000). Environmental assessment for control of the aquatic 
        weed, giant Salvinia (Salvinia molesta) on four national 
        wildlife refuges on the lower Colorado River (Arizona/
        California). U.S. Fish and Wildlife Service, Division of 
        Refuges, Albuquerque, NM. 70 pp.
Dias, G. 1967. Eradication of Water Weed (Salvinia auriculata) in 
        Ceylon. World Crops. 19:64-68.
Hobbs, J. and P. Molina. 1983. The influence of the aquatic fern 
        Salvinia auriculata on the breeding of Anopheles albimanus in 
        coastal Guatemala. Mosq. News 43:456-459.
Holm, L., D. Plucknett, J. Pancho, and J. Herberger. 1977. The World's 
        Worst Weeds--Distribution and Biology. University of Hawaii 
        Press, Honolulu, HI. 609 pp.
Thomas, P., and P. Room. 1986. Taxonomy and control of Salvinia 
        molesta. Nature 320:581-584.
Westbrooks, R. 1984. Federal Noxious Weeds: Kariba Weed (Salvinia 
        molesta D.S. Mitchell). Weeds Today 15:8-10.
Online Resources:
Giant Salvinia Image--U-GA Bugwood Image Gallery. URL: http://
        www.invasive.org/species/subject.cfm?sub=2785 Giant Salvinia 
        Profile--ISSG Global Invasive Species Database. URL: http://
        www.issg.org/database/species/ecology.asp?si=569&fr=1&sts=sss
Giant Salvinia Profile--USDA Plants Database. URL: http://
        plants.usda.gov/java/profile?symbol=SAMO5
Giant Salvinia Control Plan. 2009 Texas-Louisiana Interagency Giant 
        Salvinia Control Team. URL: http://salvinia.org/Docs/
        Interagency
GiantSalviniaControlDRAFT6.pdf
Giant Salvinia Control Recommendations. Practical Guidebook to the 
        Control of Invasive Aquatic Plants of the San Francisco-Bay 
        Delta Region. URL: http://www.sfei.org/nis/salvinia.html
Jacono, C. 2004. Sites where Salvinia molesta (giant salvinia) occurs 
        in cultivation may serve as sources for introduction to natural 
        systems. U.S. Geological Survey Website. URL: http://
        salvinia.er.usgs.gov/html/cultivation.html
USGS (United States Geological Survey). 2003. Salvinia (web page). 
        http://salvinia.er.usgs.gov/. URL: http://salvinia.er.usgs.gov/
                                 ______
                                 
    Dr. Fleming. OK. Thank you, Dr. Westbrooks. Excellent 
testimony and very informational, and so now at this point 
we're going to begin questions of our witnesses.
    Basically we'll ask questions for five minutes each, and if 
we have further questions, we'll have further rounds and 
continue until we're done, so I now recognize myself for five 
minutes.
    I have a question for both of our researchers, our doctors 
here today. Now, this is kind of a hypothetical question, maybe 
it's even possible, but I'm sure mostly impractical.
    If you totally drain a lake, drain it dry to the bone, will 
that fully eradicate giant salvinia from that lake until its 
re-entry at some time at a later date?
    Dr. Westbrooks. Well, in North Carolina, we have seen giant 
salvinia sit on the side of a tree for three to four weeks and 
then when the water goes down.
    So I would say that you're going to have to leave the water 
down really low for a long time until it dries out.
    The idea of getting it out from a boat or from around a 
boat ramp, throwing it up in your yard, is to make sure it gets 
out of the water and stays there.
    So it's a matter of just how long you're going to keep that 
water low because it would be impossible to drain all the water 
out of a lake. I mean, it's going to be mushy and with mud and 
everything there.
    So I think that--they have done this with hydrilla, and 
Mike can probably talk about that, where you actually reduce a 
lake down to a certain level and you can actually go and it 
will help reduce hydrilla.
    I think this is more problematic because it forms this mat, 
and it maintains that moisture inside the mat, and so I think 
that would be one thing that you might can do in a swimming 
pool, but I don't know if you can do it in a lake with a mud 
bottom.
    Dr. Grodowitz. I have to agree with Randy on that. I think 
you will reduce the biomass significantly, but I think you will 
still have pockets of that plant.
    If you keep it dry, completely dry, for six months, you 
might be able to get some kind of control, but I think that's 
impractical, though it would be nice if that would happen.
    Dr. Fleming. Sure. If you treated it with herbicide on top 
of that to perhaps speed up, I guess, the period that it might 
die rather than--
    Dr. Grodowitz. That might help, but, again, what Randy was 
indicating, that stuff forms these thick mats, and even when 
you have a single surface, it's difficult to get herbicides 
into that plant.
    Dr. Fleming. So it traps water, but it's also--
    Dr. Grodowitz. So you might be able to kill that top layer, 
but you wouldn't be able to kill underneath that, so that might 
sound like a nice way of doing it, but I think it would be very 
impractical.
    Dr. Westbrooks. I will say if you can do that and implement 
all these other strategies where the water is going to come 
back but you've eliminated, say, half of it or three-quarters 
of it, that makes it easier on all these folks at Texas Parks 
and Wildlife and here in Louisiana to deal with it, to do all 
the things they're trying to do.
    So it's not a bad idea. It's just that if that were the 
only thing you were doing, I don't think it would work.
    Dr. Fleming. OK. Thank you. My second question is again 
another hypothetical.
    What is the possibility of harvesting this for biomass for 
some sort of energy use?
    Dr. Grodowitz. Again, what you have to consider is that 
salvinia is mostly water. It's 95 percent water, 90, 95 percent 
water.
    So when you start harvesting it, when you look at the 
economy, the economics of it, you're going to be moving a lot 
of weight from just the water end of it.
    And so for a biofuel type of production, salvinia is 
probably not a very good candidate. Most of it is water plant.
    And while I'm not so familiar with salvinia, but other 
aquatic plants, they have tried all over the world to use those 
for some type of benefits, and none of those really work very 
well, so--
    Dr. Westbrooks. I think the--
    Dr. Grodowitz. Go ahead.
    Dr. Westbrooks. The idea of getting it back to the land was 
an issue to begin with in Caddo Lake is when you have 
mechanical harvesters, they have a huge mass of this plant, how 
do you get it back to the land.
    So transportation of it back out to some place where you 
could actually go process it, unless you could process it there 
on the lake, if you had a processor on the lake where you're 
removing the water and if you've just got the biomass of the 
cellulose left of the plant.
    That certainly is something you should think about. It's 
terrible to just kill it and let it go to waste. You can't use 
it for something with biofuel.
    Dr. Fleming. So if it's desiccated, then obviously there's 
very little fuel left then because the weight is--vast majority 
is water to begin with. Yeah. OK.
    Dr. Grodowitz. And another thing is that personally I think 
it's--you have to be careful when you try to promote the use of 
an invasive species because then you just--how are people going 
to use it and then you have to start spreading it around and 
you're going to have problems with it again.
    Dr. Fleming. Right.
    Dr. Grodowitz. So I would rather see some kind of native 
plant or something that's not as invasive as salvinia--
    Dr. Fleming. Sure.
    Dr. Grodowitz.--used for biofuels.
    Dr. Fleming. Right. Thank you. Since my time is about up, 
I'm going to go ahead and yield to my good friend Congressman 
Gohmert for his questions. I have more after that.
    Mr. Gohmert. Thank you, Congressman Fleming.
    Well, I'll just follow up on that. I don't know if anybody 
here is familiar with the research that was completed at 
Stephen F. Austin about the possibility of giant salvinia 
extracts inhibiting the growth of tumor cells. Is anybody here 
familiar with that?
    OK. And, Doctor, I understand what you're saying. You don't 
want to come up with something that actually encourages the 
growth of an organism that takes over, puts a mat on the top of 
the water, kills everything underneath.
    But at the same time, if there was some way to have 
incentive to encourage people to get this mess out of the lake, 
then we welcome that, too.
    I'm curious. In this climate, for all the panel members, 
what do you think is the single best inhibitor of the growth of 
giant salvinia or the killer of giant salvinia?
    Dr. Westbrooks. Cold weather.
    Mr. Gohmert. Cold weather.
    Dr. Westbrooks. Yes.
    Mr. Gohmert. OK. So--well, seemed like we had about as cold 
a winter in East Texas and some have been skeptical about 
carbon dioxide causing warmth.
    We're saying if it's true it causes warmth, we need more 
carbon dioxide because we need things warmed up after this 
winter.
    But as you pointed out, it ends up killing the weevils. 
Now, I heard some people proposing that we spend money to 
develop a breed of these weevils that will actually survive 
better in the cold.
    But then I still have this innate concern that when you go 
to bring in an invasive species and then bring in another 
invasive organism, do you end up with more problems than you 
originally had?
    I still worry that at some point, one of these weevils is 
going to bite into something that they like as good or better 
than giant salvinia, and it's something we don't want them to 
kill.
    Dr. Grodowitz. If I can address that, sir.
    Mr. Gohmert. Sure.
    Dr. Grodowitz. First of all, these organisms that are used 
for biocontrol for plants are tested for many, many years under 
quarantine conditions, and they're actually starved and 
presented with a choice of plants and--
    Mr. Gohmert. Is that like we tested the grass carp before 
we put them in and then found out later that they actually do 
multiply even though they've been tested and guaranteed 
sterilized.
    Dr. Grodowitz. That's true, and you have a good point 
there, sir, and I have to acknowledge that.
    But, again, they're tested very strongly, and that 
relationship between a plant and an insect is different than a 
lot of other types of relationships where you see things shift. 
That's really hard to break.
    But the most important evidence that we have of these 
things are safe is that it's been used over the world for the 
last 30 or 40 years and has never, ever fed on anything else 
than salvinia in that group.
    Now, this weevil will feed on salvinias of different 
species, but it will not feed on anything else. After all these 
years all over the world, I've never seen any evidence that it 
shifted over to another host plant.
    Mr. Gohmert. Well, if we worked on developing a more winter 
hardy or cold weather resistant weevil, would you have any 
concerns that that might cause some other interests than it 
currently has for--
    Dr. Grodowitz. No, sir. I don't believe that's going to 
happen. I don't think you have to worry about that at all.
    I think it's important to realize that the last two winters 
we've had are probably one of the coldest that we've had for 
many, many years.
    And if we go back to a more typical winter cycle, I don't 
think the weevils will have any problem with over wintering and 
making it.
    The big important part, and I'm excited to see that the 
state and local people have started to have a more active role 
in biocontrol.
    If we can put weevils out there early, say even if they 
don't over winter with very high numbers, if we can put out 
enough weevils, I think we can see control within one season 
with these.
    These insects are very, very effective.
    In fact, they're one of the best insect agents for weed 
biocontrol in the world of any other ones that they have.
    So I think that that's the key. I think these two winters 
are a little bit unusual.
    Mr. Gohmert. Well, let me--my time is running out let me 
ask quickly.
    I've been reading about some usage of saltwater to help 
kill these plants, and, of course, I worry about saltwater 
going into fresh.
    Any comments on how that treatment works and any danger 
from it?
    Dr. Grodowitz. We know for sure that they're not very 
tolerant of saltwater. I think I've read recently it can take 
higher salt concentration than recent research that was done in 
our Dallas facility.
    But, you know, when you start looking at putting saltwater 
into freshwater, you're going to have amounts of huge problems 
over that, so I think I would try to tend to stay away from 
something like that if I could.
    Mr. Gohmert. Any other comments on saltwater.
    Mr. Barham. It will take too much salt to reach the level 
you need. Before you kill the salvinia, you'll be killing the 
cypress trees and the bass and the freshwater fish.
    Mr. Gohmert. OK.
    Mr. Barham. So that's not a practical solution.
    Mr. Gohmert. OK. Thank you. Thank you. My time is up.
    Dr. Fleming. And the gentleman yields back.
    I have further questions and a statement, by the way, just 
for what it's worth, anecdotal.
    It's recently been reported that the sun spot activity is 
going to diminish for some years to come and perhaps will see 
colder weather as a result of that, so maybe that will help us, 
so we shall see.
    Gentlemen, again, back to our researchers, what's the 
possibility of raising a hardier beetle that may survive our 
winters and maybe be around permanently?
    Dr. Grodowitz. I think that's very possible. I think that's 
something that we've looked at and examined, but it's going to 
take time and it's going to take funding, and I think that's an 
important part of it.
    Whether we need to actually do that, I think it will depend 
on how the winters are over the next few years.
    And just to make a statement, you know, we've had cold 
winters, coldest that we've seen in years and years, and the 
salvinia still survived. I mean, that's the scary part of it to 
me.
    But it's also important to realize that typically that 
weevil will probably survive as well if you have survival of 
the plant.
    I just don't think we've looked hard enough to really 
understand. We haven't had a true establishment of those 
weevils on these sites to see if they can over winter as well.
    I mean, we've had some anecdotes. I think that we need more 
applied types of research to ask those questions. I think 
that's an important part of it.
    Dr. Fleming. But when you say the plant survives, it is 
definitely diminished, wouldn't you say?
    Dr. Grodowitz. It is definitely diminished.
    Dr. Fleming. So--
    Dr. Grodowitz. We are--I mean, I just talked to Evan Canes 
of Louisiana Fish and Wildlife. He works at Bistineau.
    He's telling me they only have 50 acres compared to what 
they had over a thousand, so, I mean, yes, we're really lucky, 
but I think that one good summer and extended fall season where 
it's very warm, you're going to see salvinia unless you really 
keep on top of it.
    Dr. Fleming. Right.
    Dr. Westbrooks. When you have a mat--it's like insulation. 
It doesn't matter how--it can get zero. I've seen it in ice. 
I've seen the plant in ice in North Carolina and, of course, 
that would die.
    But if you get a mat--and the plants in the middle are what 
are surviving, you know. They can just sort of sit there, and 
it may get down to degrees, but, you know, that's the issue is 
the mat, the ability of the plant to form a mat that thick.
    Dr. Fleming. Yes.
    Dr. Westbrooks. And it's the stuff in the middle that is 
surviving. I say anything on the surface is definitely 
getting--
    Dr. Fleming. Right. Well, let me ask you this: Short of 
being able to have a weevil that will survive through the year, 
if we've got a higher population to the plant faster, could 
that really make a difference?
    If we can doing a better job of getting thousands, maybe 
millions of weevils put out and put out in a timely way, do you 
think that would have a more significant impact?
    Dr. Grodowitz. Yes. I think that's very important. That's 
what we've been striving for, and I think that we've have had 
some success with the use of cold frame in Lake Caddo, and 
hopefully we'll go and see the rearing facility.
    They released I believe 70,000 weevils fairly early. Our 
facility was just now starting. We were able to release fairly 
early as well.
    So the faster you can get the weevils out there, as long as 
there's a good matter of salvinia, I think you're going to see 
an impact faster as well, and we really need--
    And one of my things I talked about that were important is 
that we need to understand that those insects are established 
out there, so we need to be sampling, we need to be looking 
because most biocontrol programs, when they fail, it's because 
we didn't go back and really look and see what's happening. I 
think that's an important part.
    Dr. Fleming. Right.
    Dr. Grodowitz. Just throwing out weevils is only part of 
it. We need to look and see what's happening.
    Dr. Fleming. Right.
    Dr. Westbrooks. Thank you.
    Dr. Fleming. Thank you. Great information.
    Let's talk about impact. Representative Burns, certainly a 
lot of your constituents are along Lake Bistineau. What impact, 
if any, has this plant had on real estate values?
    Mr. Burns. Well, it's had a tremendous impact, Congressman. 
In fact, there are people who, you know, can't even get to the 
water with a boat from their property.
    And the idea of buying there, of course, was to enjoy the 
recreational amenities of the lake, and that has been taken 
from them. And, of course, they're willing to wait if we can, 
you know, do something fairly rapidly.
    And, of course, you know, we drew the water down and then 
we had a drought and so some of the process that we were going 
to use to help flush the salvinia out, you know, was taken away 
from us.
    So, you know, it seems like each time we turned--I do have 
a question that's kind of associated with this because I get 
different answers everywhere I go, and it impacts the ability 
to move the salvinia out.
    Say, if you do get some water entry and you get a little 
bit of the current flow and move it out, the trees, sir, you 
know, is a hedge against those moving out, and the question is, 
is a cypress tree protected.
    You know, some people say, you know, environmentalists say, 
you know, it's a national tree and you can't cut it. Some say 
that is not true, and I thought maybe this might be a good 
forum to, you know, have this brought out, if anyone knows the 
answer.
    Mr. Barham. You can cut it.
    Mr. Burns. OK. Did everybody get that? You can cut it. And 
that was my understanding also, but, you know, a number of 
people--
    But in answer to your question, it has impacted real estate 
and also all the services that support it, the boat docks, the, 
you know, fisheries, the restaurants, all the amenities 
associated with enjoyable life on the lake have been impacted 
very much.
    Dr. Fleming. So you're saying if you have a lake house, you 
buy a lake house, it's not very valuable if you can't get into 
the lake.
    Mr. Burns. That is correct.
    Dr. Fleming. OK. Very good. And no question it's had a 
significant economic impact.
    Well, I see my time is up, so I yield to my good friend.
    Mr. Gohmert. Thank you. Well, following up on economic 
impact, has there been any kind of study done in Texas or 
Louisiana that any of y'all are aware at the economic impact of 
giant salvinia on the lake property, recreational usage? 
Perhaps Parks and Wildlife has noticed fees--
    Mr. Barham. I'm not aware of a statewide study, anecdotal 
comments about declining property values, and Representative 
Burns is exactly right.
    There's not a good answer. Drawing a lake down is not the 
single best thing you can do.
    The property values lose a lot of why they're there by the 
fact that the lake is dry, so that's not the ideal situation. 
It may be part of a tool flushing out the salvinia. Also, the 
challenge because you're giving it to go somebody downstream.
    That salvinia is not dying. The salvinia that comes out of 
Bistineau is going down through Loggy Bayou and ultimately into 
the Red River, so we're just pushing the problem off to someone 
else.
    I have to jump in and say that ultimately the natural 
control looks like the only way we--the option that I see for 
the long term, Dr. Sanders has been talking about his weevils 
came from Brazil, I believe.
    He's looking at going into Argentina to see some more cold 
tolerant varieties perhaps down there or propagating some more 
winter tolerant varieties here or growing them in a hothouse 
environment here in the Shreveport area where we get the jump 
in the spring that you described, Congressman, so where we get 
a massive input of weevils early in the season when the 
salvinia is lower. That get--
    Mr. Gohmert. Well, that leads me to another question, 
though, about does anybody know the cost of raising these 
weevils, developing them?
    Mr. Barham. Well, I defer to the folks that do raise them.
    Dr. Grodowitz. I don't know--
    Mr. Gohmert. Anybody here know?
    Dr. Fleming. We'll get that--
    Mr. Gohmert. The next panel maybe can help us on that.
    What other herbicides besides Galleon?
    You mentioned Galleon, $1850 a gallon.
    Mr. Barham. 1851 a gallon.
    Mr. Gohmert. And I thought I was using some expensive paint 
recently, but that's incredible.
    What are some other herbicides that have been in use?
    Mr. Barham. Well, the water equivalent of Round-up, which 
is Sonar, I believe, and that's the other that we use.
    And, of course, if it's not in the productive crop growing 
season, you can use 24D in any aquatic environment as long as 
it's November to March.
    You can't use it in the summer in the peak growing time, so 
you're limited pretty much to Sonar and Galleon is what we've 
been using.
    Dr. Grodowitz. There are two really broad types of 
herbicides that are used for salvinia control. Some are contact 
herbicides. Some you spray on top of the plant. Kills the plant 
fairly quickly. There's also contact herbicides that are 
systemic. 24D is one. It takes a little longer to kill.
    But what you know about Fluridone and Galleon, as you put 
it in the water, you have to maintain a certain concentration 
at a certain length of time to kill the plant, but it's good 
because you're killing plants over a larger area, but very, 
very expensive and hard to maintain concentrations up there.
    There are several new registrations, chemical registrations 
that have come out, penoxulam and flumioxazin, that the Corps 
of Engineers has been testing right now to look at their 
effectiveness, especially in combination with the weevils.
    So if you have weevils out there, you spray these 
herbicides, what kind of impacts on the weevils, can you 
maintain weevil populations, will the weevils come back 
afterwards.
    So those are important applied research type of questions 
that were asked, and so there is a fairly good arsenal of 
chemicals you can use against this plant. It just depends on 
your situation, your budget, and your time frame that you need.
    Mr. Gohmert. Of course, we're dealing with freshwater, in 
some cases drinking water. What threats do those--whether it's 
Galleon, Sonar, 24D, what do they pose to other vegetation or 
to the freshwater itself? Do we know of any risks.
    Dr. Grodowitz. Well, you know, of any of those contact 
herbicides, if you spray them on, most--they typically will 
kill any plant that get sprayed, so you have to be very 
careful. Your application techniques are very important.
    Mr. Gohmert. Yeah. We don't want to kill any of the 
hydrilla or water hyacinths, I guess.
    Dr. Grodowitz. No. We want to keep those over there because 
they add some beauty to your lakes.
    But with any herbicides, if you follow label directions, 
you're careful with the application techniques--
    Mr. Gohmert. Right.
    Dr. Grodowitz.--you're not going to have any problems 
health-wise or--go ahead.
    Dr. Westbrooks. If there were concerns about drinking 
water, they would say on the--EPA--it's approved by EPA, don't 
put it anywhere there's going to be drinking water or 
something.
    So I think most of the water you're talking about is in 
rivers and lakes and ponds and stuff like that. There wouldn't 
be drinking water concerns, I guess, unless you had a well 
beside the lake.
    Mr. Gohmert. Well, is Bistineau used for drinking water? 
Does anybody know?
    Mr. Burns. Well, obviously it has many multiple uses and 
all, but, you know, I can't say that it's not being used, that 
there's no commercial hookup with it or any state sales 
associated with it now.
    We had some legislation look into that as far as Lake 
Bistineau, but there was real concern on, you know, some of the 
purchases of water because it wasn't really sure then 
everybody's water might end up being a water source, and it 
became a regional--became kind of a regional issue, so--but not 
to my knowledge, it's not used for drinking water.
    Mr. Gohmert. Thank you.
    Dr. Fleming. OK. The gentleman yields back.
    I have one more question here, and that is what is the 
impact or effect or the danger perhaps to the waterways, such 
as the Red River?
    We understand that it doesn't thrive in moving waterways, 
but on the other hand, there's always--we know that certainly 
create a danger to other lakes and ponds just by way of 
transportation.
    But what are the dangers to waterways and through 
waterways? Anyone on the panel?
    Dr. Grodowitz. Danger of salvinia?
    Dr. Fleming. Yes.
    Dr. Grodowitz. Just more than the typical types of--
    Dr. Fleming. Well, could it, for instance, cause navigation 
problems, the inability to navigate through flowing water?
    Dr. Grodowitz. For sure, and it's not going to accumulate 
in fast flowing water, as we're all aware, but even slow-moving 
waters.
    And the example that people use is the Sepik River in Papua 
New Guinea. It's a huge river, but very slow moving. That whole 
thing covered with salvinia. They had to move whole villages 
because they couldn't get out there any more, fisheries.
    So that's a very typical example you hear when people give 
talks about salvinia, so, yes, that is very, very possible.
    Dr. Fleming. All right.
    Dr. Grodowitz. I think you have to be careful, and if I may 
make one little statement--
    Dr. Fleming. Yes.
    Dr. Grodowitz.--that I think is important here.
    Dr. Fleming. Sure.
    Dr. Grodowitz. We need to talk of this plant. We need to 
get rid of it, we need to use all the tools that we have 
available.
    But the important thing is that we need to look at why 
these plants are causing problems in our--besides being there. 
I mean, several times people have mentioned that we have 
hydrilla, we have water hyacinths, and we have salvinia.
    There are underlying reasons why they're there and why 
they're causing problems, and I think you hit the nail on the 
head when you talk about high nutrient levels are really one of 
the more important, and it's one that we tend not to want to 
address because it's a hard question to get to.
    Lack of native vegetation is also important. I think that 
we need to control the plant.
    We need to get in there, but we need to start asking 
questions, hard questions, of what is causing these water 
quality changes in these lakes that allow these plants to 
flourish.
    And I just wanted to mention that. I didn't know that I 
made that clear very much.
    Dr. Fleming. Right. And the rest of the time I have, I'm 
just going to open up to the panel to see if you have any 
additional comments on any of these questions or any--are there 
any questions we haven't asked thus far.
    And, of course, Mr. Gohmert will get a chance to ask 
questions as well, so I'll open it up to the panel for any 
further statements.
    Dr. Westbrooks. Just one more example of the kind of 
effects this plant can have. Over in Africa, you're talking 
about flowing water. This may apply more to Caddo Lake or some 
place like that.
    But if you didn't deal with this over the next few years, 
what happened in Lake Victoria, which is near Kenya over there, 
they had this thing--this is like four years ago--and it got 
so--the mats would get so thick that trees would grow in them, 
so they became floating tree islands. So these things get 
pushed back and forth on the lake.
    Can you imagine a flooding giant salvinia three on Caddo 
Lake being pushed over there on the Texas side like Jack Hanson 
loves to talk about here comes the tree island. And so that 
would be the ultimate thing is I don't think as much in a 
river, but in a lake especially situation.
    But if you had backwaters on a river, if you could have 
these floating mats that would become so solid like a floating 
island and then you have tremendous amount of water coming down 
through there in a spring or something, it could cause problems 
down the river, something that you wouldn't notice, say, right 
now in a drought or something.
    So I think that there is hidden potential for problems in 
the future if you choose to do nothing with this.
    Dr. Grodowitz. That's for definite sure. If you start 
having flooding events with salvinia in the waters, you're 
going to have more damage because you're looking at all this 
huge biomass in the water being pushed down there, and that's 
well documented you'll see more damage that way.
    Dr. Westbrooks. It could actually--I don't know about 
salvinia, but I know in Florida water hyacinths would pile up 
against bridge, actually push the bridges out, so I don't know 
if it's comparable, but it probably could.
    Dr. Fleming. OK. Any others?
    Mr. Burns. I just wanted to bring up what Bill Altimus had 
said because you talk about all the tools that you can use.
    And they're addressing a totally different approach, 
although they're supporting all the activities that is going on 
now. They've been working in close contact with Louisiana Tech 
that has been working on a herbicide.
    And they wanted for the Committee to take a look at it 
also, and also a fungus they're working on.
    So you've got, you know, a research institute, Louisiana 
Tech, working in combination with the Police Juries, which is 
probably Webster, Claiborne, Desoto, Bossier Parish also, and 
they're willing to provide this.
    They have some type of agreement with a company called C-
Pro Corporation to evaluate the natural occurring fungus, and 
everything I've heard mentioned so far has been beetles and 
weevils.
    Do any of the distinguished panelists here have any 
thumbnail or knee jerk reaction to what I just mentioned versus 
the weevils and beetles?
    Dr. Grodowitz. If they can find something that works, I'm 
all for it.
    Dr. Westbrooks. A hundred percent.
    Dr. Grodowitz. But I'm not as familiar--I've heard of some 
of these things kind of anecdotally, but I'm not sure how far 
along they would be until they can be used effectively in an 
operational types of method.
    To approve a fungal pathogen for control over a weed, even 
if it's native, takes a long time to have those kind of 
approvals done, but if they can find something, I'm all for it.
    Mr. Burns. OK.
    Dr. Westbrooks. If it were native, if it were from another 
country, it would have to go through approval at the national 
level of biological control technical advisory group would 
actually review a petition like that. So--but if it's native I 
say--
    Dr. Grodowitz. But even if a native one, they're very 
difficult to get through because you have to go through EPA 
registration.
    Dr. Westbrooks. EPA.
    Dr. Grodowitz. Yeah.
    Dr. Westbrooks. OK.
    Dr. Fleming. OK. Well, thank you panelists and I yield to 
my friend.
    Mr. Gohmert. Well, I want to follow up what, Dr. Grodowitz, 
you brought it up.
    One of the problems that is a result of having all these 
invasive species, the water hyacinths, hydrilla, and now giant 
salvinia, this stuff does die, even though new replaces in many 
cases, and it goes to the bottom.
    And in the old days, like Caddo Lake, where, you know, a 
giant flood would just sweep all that sediment out and you get, 
you know, fresh native growth again.
    I had one landowner say he bought his property because he 
liked how deep it was right there at that point in the lake, 
which means it's normally more expensive property because it's 
deeper, and it was 15 feet right there where he was located, 
and now it's seven feet because of all the dead masses that go 
down and build up.
    And then, as I understand it, you've got more nitrogen 
coming and then it seems like it actually causes it to 
reproduce more quickly, and so it's an interesting issue to say 
that we may need to study the effects on the water that causes 
these non-native plants to all of a sudden take off like they 
never have in our history.
    But I'm just curious in either Texas or Louisiana, is there 
any money that's been allocated and from the Federal Government 
toward dredging out some of this old plant mass? Any comments 
on that?
    Are we spending any money to deal with the damage that 
comes from these masses going to the bottom? Anybody know of 
any, Texas, Louisiana, or Federal?
    Mr. Burns. I'm not aware of any dredging for the reason of 
the plants. Only dredging I'm aware of is for navigational 
issues.
    Mr. Gohmert. Yeah.
    Mr. Burns. And it doesn't have anything to do with the 
plants--
    Mr. Gohmert. Right.
    Mr. Burns. One of the problems you've got, I will say that 
you're describing a situation that is striking fear in all of 
our hearts about losing bodies of water to this plant.
    One of the areas I'm most concerned with is the Atchafalaya 
Basin. It's the largest swamp area in the country--shallow, 
trees, slow-moving waters.
    We just opened the Morganza Spillway. Fortunately we 
don't--we're not seeing a lot of--we don't see any salvinia at 
this point that was put into it.
    Now, ultimately it's going to get there because it's coming 
out of the Red River. It's coming down to the Atchafalaya, but 
that's the place that it will take. It will make--we almost 
lost Henderson Lake, and that was water hyacinths.
    And so we've got some real threats from these type of 
plants in certain environments, these shallow, slow-moving, 
tree-strewn, nutrient-rich environments across the Deep South.
    Mr. Melinchuk. If I might just add to that point, I think, 
you know, we talk about the number of water bodies that are 
currently infested.
    I think our challenge is to make sure that we contain it to 
those water bodies now, and all the things we're talking about 
play into this.
    It truly is an integrated approach. There is no single 
silver bullet, but I think--I think, you know, boater 
education, educating people on what giant salvinia looks like, 
and to make sure you clean, drain, and dry your boat before you 
move it to another lake after your weekend on one of these 
lakes is really going to be key to us containing it within 
these areas, and then we can focus on control and management on 
those water bodies and not have to contend with another 35 or 
40 in two years. It has that potential if it gets away from us.
    Mr. Gohmert. And one of the things that wasn't mentioned, 
but I know y'all are aware, Randy pointed out years ago, but I 
was shocked that you could have a level of water hyacinths and 
not think you had a salvinia problem.
    Pull up the water hyacinths and then there's a mat forming 
of salvinia up underneath that protected and yet still growing. 
We've seen that over at Caddo Lake.
    But I think you had something else?
    Dr. Westbrooks. I just want to add one thing. You brought 
up something really interesting that I haven't even thought 
about before, and that is if this goes on for a really long 
time, in other words, you keep fighting this for a long time, 
you're going to have to figure out how to start cleaning out 
the lake, even if you kill the stuff and it settles to the 
bottom.
    To begin with, all we know is that it takes oxygen out of 
the water and is killing fish and stuff like that, but if this 
organic matter builds up for like peat in the bottom of these 
lakes, you may have an entirely different problem.
    It's going to change the characteristic--ecological 
characteristics of the lake. Ecologists could respond to that 
better than me, but I just think that you ought to add that to 
your list--
    Mr. Gohmert. From what you know, what would that do to the 
lakes?
    Dr. Westbrooks. I don't know, but I would really like to 
have an ecologist take a look at that because that's way beyond 
weed control.
    In other words, if we kill it, then that's all we need to 
worry about, but you brought up something that is actually--
somebody else probably ought to look at that.
    And I haven't heard anybody ever even talk about looking 
at, OK, if we kill it, but if we get four feet of this stuff on 
the bottom, well, that may be as bad for other reasons.
    OK. Sure, you've got your clean water up here, but now the 
lake is four feet deep. So--
    Mr. Gohmert. Well, good point. Well, thank you so very 
much.
    Dr. Fleming. I think the gentleman yields his time. We've 
completed questioning from our first panel of witnesses. 
Excellent, excellent information. We thank you, gentlemen, so 
much, but don't go away. We have an excellent--equally 
excellent second panel coming.
    We're going to take a break for five minutes while the 
panel comes forward. If you want to go to the restroom or 
whatever, go ahead and be back in five minutes. We'll start 
promptly.
    [Recess.]
    Dr. Fleming. We're going to be getting started in one 
minute.
    As people are getting in their seats, I wanted to mention 
that there is going to be an entourage of us visiting Caddo 
Lake today, to actually go out and look at the current 
situation there with giant salvinia and just see it up close 
and personal and talk further about it there, share 
information.
    Also, I'll mention about my good friend Louie Gohmert. 
Apart from being a judge, he's quite an expert at barbecue 
ribs. He cooks barbecue ribs. I think it's once a year.
    Mr. Gohmert. Actually we're trying to do it three or four 
times.
    Dr. Fleming. Three or four? He wants to ramp that up. And 
some of the best ribs you'll ever taste, Texas style ribs right 
there in Washington D.C.
    And certainly he had to battle with Nancy Pelosi a little 
bit on getting clearance for cooking in the House of--in the 
office building there; but at any rate, he was able to overcome 
all obstacles, so we appreciate that.
    We're now ready to hear from our second panel of witnesses. 
They're Dr. Dearl Sanders, a resident coordinator, Idlewild 
Research Station, Louisiana State University; Mr. Michael 
Massimi, invasive species coordinator, Barataria-Terrebonne 
National Estuary Program. Don't ask me to say that again. I'm 
not sure how close I came the first time.
    Mr. Ken Ward, project manager, Department of Public Works, 
Caddo Parish; Mr. Richard Lowerre, President, Caddo Lake 
Institute; Mr. Jeff Trandahl, Executive Director of the 
National Fish and Wildlife Foundation; and Dr. Damon E. Waitt--
Waitt; is that correct?
    Dr. Waitt. Correct.
    Dr. Fleming. Senior Director and Botanist, Lady Bird 
Johnson Wildflower Center, University of Texas at Austin.
    Like all witnesses, your written testimony will appear in 
full in the hearing record, so I ask that you keep your oral 
statements to five minutes as outlined in our invitation letter 
to you and in keeping with Committee Rule 4(a).
    And I think some of you, maybe perhaps all of you, have 
been here. You've seen how the lights work. Four minutes on 
green, one minute on yellow.
    When it's red, we would want you to wrap up, although we're 
a little more flexible today than we would be otherwise because 
we only have two Members asking questions.
    And certainly, as you can see from the previous panel, we 
have a little more flexibility that we can have some more give 
and take exchange, a little less rigid from how we do it when 
we have a lot more Members asking questions.
    Dr. Sanders, you're now recognized for five minutes, sir.


STATEMENT OF DR. DEARL SANDERS, RESIDENT COORDINATOR, IDLEWILD 
          RESEARCH STATION, LOUISIANA STATE UNIVERSITY

    Dr. Sanders. Thank you, Congressman.
    I'm Dearl Sanders with the LSU AgCenter. The AgCenter is 
the agricultural research and cooperative extension arm of LSU.
    Put in our first herbicide screening trial on salvinia in 
1999, put in our first biocontrol trial on salvinia in 2001. 
Twelve years later, we have gotten three new herbicides labeled 
for use to put in the toolbox.
    We've reared 1.3 million weevils for release. A million of 
them were released up here in your district.
    So why are we here today if we have all these good control 
tools? The bottom line is that all of these control tools have 
weaknesses. It boils down to something that's already been 
addressed today.
    We did a growth study back several years ago, released into 
a pristine environment, good growing conditions. These weevils 
out about--or the plants out about 35 or 40 days after you put 
them in an area, reaching 80 percent growth rate per day.
    That means that it--not biomass, but area covered--doubles 
every day and a half. That means you can't have any misses with 
these treatments or you're right back where you started.
    The foliar materials that are out there are effective, but 
as Mr. Adley put it earlier, it's like peeling an onion. You 
just have to peel off layer after layer after layer after 
layer. It's expensive and requires a lot of tenacity to go out 
and spray the same body of water every two weeks for the rest 
of your life.
    The total water volume treatments that were mentioned, 
Secretary Barham mentioned Galleon, an excellent material, but 
you're putting a million dollars--500 gallons eats up about a 
million dollars, a million dollar treatment, and you're betting 
it's not going to rain 35 days from now. That's a hard bet to 
make.
    Weevils, we've had good success with weevils in south 
Louisiana. I've had, oh, two nurseries operating, two more 
harvested this year, three more for harvest next year, three 
more on the books for 2013, started making releases 2007, made 
massive releases in 2009.
    We've cleaned up about ten or 11,000 acres of salvinia in 
south Louisiana. It didn't get cold there. We put a million 
weevils up here in your district in 2009, and January 2010 we 
lost a million weevils to the cold weather. So you can see the 
problems associated with all this.
    Now, there are some things that I can tell you up front 
about the weevils that we do know for sure, and we've done 
grass carp trials, salinity trials, fertility trials, DNA 
trials.
    We've got a huge ream of information on this thing, nothing 
that's led us to believe that we've got a silver bullet on 
this.
    Now, what I can tell you about the weevils, in south 
Louisiana where they have worked, the weevils are never going 
to eradicate giant salvinia.
    Where they exist in Brazil--and I've been there--they live 
in equilibrium, a few plants, a few weevils. Plants get 
increasing, the weevils increase. It's an equilibrium, but not 
an eradication.
    Where it takes about two to three years in south Louisiana 
for them to start showing tracts of open water, you're making 
progress. There's a tipping point.
    You have to have about 40 weevils per kilogram of giant 
salvinia to reach that tipping point to where the weevils are 
destroying more of the salvinia than the salvinia can replace.
    Once you reach that point, it tips over real quick, but it 
takes about two to three years to reach that point, or it has 
since 2007.
    The other thing is the things don't fly. Almost all weevils 
in the world have the capability of flying. The boll weevil, 
the sweet potato weevil, they all fly. This little booger won't 
fly no matter what you do to him.
    That means you can have two bodies of water. You can have 
Toledo Bend and Sam Rayburn, not separated by any great 
distance, but the man is going to have to move the weevils from 
point A to point B to make this work. That's very labor 
intensive.
    Basically our hope now is to continue with the weevil 
releases in south Louisiana. We continue to screen herbicides. 
We're doing all these other tests that really haven't amounted 
to a whole lot.
    We'll continue to do it hoping something will come through. 
We're going to continue with weevil releases, especially 
targeting the south Louisiana area. We're making them available 
for Wildlife and Fisheries for--up here in north Louisiana.
    We do have a proposal before USDA now to seek funding to 
look for a cold-tolerant weevil. Thank goodness Secretary 
Barham has been around and we're running on a shoestring. 
Fortunately he's provided the shoestring.
    Our efforts to find Federal funding, USDA, NRCS, Corps of 
Engineers, U.S. Fish and Wildlife, it was even on our earmark 
list for years before they did away with earmarks, but none of 
that funding has ever come through, but we're doing with what 
we can. Thank you.
    [The prepared statement of Dr. Sanders follows:]

      Statement of Dearl Sanders, Edmiston Professor and Resident 
 Coordinator: Bob R. Jones-Idlewild Research Station, Louisiana State 
                     University Agricultural Center

    The LSU AgCenter has been involved in investigating and 
implementing control measures for giant salvinia since 1999.
    After its discovery on Toledo Bend Reservoir in 1998, a herbicide 
screening site was established adjacent to the Sabine River Authority 
headquarters building at Pendleton Bridge. This screening site was 
operated for three years and it was where all herbicides registered for 
aquatic use, all herbicides with pending registrations for aquatic use 
and many herbicides that could possibly be registered were screened.
    With the discovery of giant salvinia near Cameron, La., in 2000, a 
biological control program was initiated. It is interesting to note 
that the only effective eradication of giant salvinia in Louisiana was 
accomplished at the Cameron site by using salt water. The traditional 
drainage and pumping facilities were temporarily reversed, and the 
infested canals and associated ponds were filled with high salinity 
water from the nearby Calcasieu Navigation Channel. After the salvinia 
had died, the process was reversed, removing the salt water from the 
system with little, if any, negative effect on the native plant life. 
Remnant populations of giant salvinia not associated with the drainage 
system were treated with a herbicide (diquat) by a contract applicator 
until no live giant salvinia could be located. With the eradication of 
the giant salvinia from the Cameron location all further herbicide and 
biological control research was suspended in that area.
    The Cameron site was the only infestation site where high salinity 
water was available in enough quantity to be efficacious. So herbicide 
screening trials at various locations at Toledo Bend Reservoir 
continued until 2004.
    In 2005, an infestation was identified in the lower Bayou Des 
Allemands and was traced to the vicinity of the Company Canal. In 2006, 
large-scale biological control and herbicide trials were established on 
Golden Ranch near Gheens, La. A 6 acre aquaculture facility was made 
available by the landowner, stocked with giant salvinia and then 
infested with giant salvinia weevils obtained from the Corps of 
Engineers site near Center, Texas. The reproduction of the weevils was 
limited due to the possible uneven sex ratio of males to females. In 
early 2007, an active population of weevils was found on Toledo Bend 
near Negreet, La., and weevils were transported to the Golden Ranch 
site where they flourished. By 2009, this nursery site had produced 
approximately 1.2 million adult weevils that were transplanted into 18 
water bodies in Louisiana and two in Texas.
    In addition to the mass rearing of weevils for release, basic 
biology research on the weevils was also under way. Studies at the 
Golden Ranch site confirmed reports in the literature from Australia 
that under ideal growing conditions giant salvinia can approach an 80 
percent daily coverage rate, or, stated another way, the giant salvinia 
can reach a point where it can double the area of water covered every 
1.5 days (Attachment 1).
    Basic studies conducted at the Golden Ranch site and in Baton Rouge 
discovered or confirmed several important things about the weevils:
        1.  The weevils cannot fly. This is important in planning a 
        distribution system, since any movement of weevils from one 
        place to another that is not directly connected by water is 
        unlikely. The weevils must be moved by people to accomplish any 
        large-scale control program.
        2.  In southern Louisiana it takes a minimum of two full years 
        for the population to reach a threshold where the weevils 
        consume the salvinia faster than the salvinia can reproduce.
        3.  Once the weevils reach this threshold, the number of adult 
        weevils increases rapidly, and the amount of available salvinia 
        in the nursery declines as rapidly.
        4.  In our work, this threshold is approximately 40 adult 
        weevils per kilogram of salvinia (Attachment 2).
    Most herbicide screening work was transferred to the Golden Ranch 
site and continued until 2010 at that location. A number of new 
herbicides, not available during the initial screenings, were tested at 
the Golden Ranch site. Of those, three recently were registered for use 
on giant salvinia thanks in part to our screening work.
    At the request of and in cooperation with the Louisiana Department 
of Wildlife and Fisheries, an extensive grass carp biological control 
trial was conducted at the Golden Ranch site in 2009. The trial 
confirmed that grass carp will not eat giant salvinia even when it is 
the only plant material available. This was not unexpected, since grass 
carp usually do not consume floating plants and giant salvinia contains 
a metabolic inhibitor (thiamine inhibitor) that if consumed in quantity 
is toxic to the fish (and other animals).
    A small number of weevil releases were made in 2008. In 2009, 
working in cooperation with Louisiana Wildlife and Fisheries personnel, 
approximately 50,000 pounds of weevil-infested salvinia was harvested 
from the Golden Ranch site and transplanted to lakes throughout 
northwest Louisiana. This amount of material represents approximately 1 
million adult weevils. These weevils were released by Louisiana 
Wildlife and Fisheries personnel on Lake Bisteneau, Caddo Lake, Cross 
Lake, Toledo Bend, Clear Lake, Loggy Bayou and Black Lake. An 
additional 10,000 pounds of infested salvinia was harvested and 
transplanted to sites in south central Louisiana. Releases in south 
Louisiana were made in Lake Salvador, Bayou Des Allemands, Golden 
Ranch, Delta Farms, Bayou Black, Mandalay NWR, Jean Lafitte National 
Park and the Atchafalaya Spillway. Additional weevil releases were made 
in south Louisiana in 2010 and early 2011.
    The weevil releases in south Louisiana made in 2008 and 2009 have 
been successful. Several canals adjacent to Bayou Des Allemands that 
were impassable in 2008 currently are free of giant salvinia. Salvinia 
populations on Golden Ranch have been reduced by nearly 90 percent. On 
parts of Delta Farms salvinia has been reduced by 80 percent. Prior to 
opening of the spillway for flood control in 2011, the areas in the 
Atchafalaya spillway with weevil releases had substantial reductions in 
salvinia population densities. Similar salvinia reductions have been 
observed at other release sites.
    It must be noted that the salvinia weevil never eradicates giant 
salvinia. As in its native Brazil, it consumes salvinia to the point it 
can no longer maintain huge population numbers--allowing some salvinia 
and some salvinia weevils to remain somewhat in equilibrium.
    The successes discussed above are very encouraging. Unfortunately, 
the same cannot be said for the weevil releases in northwestern 
Louisiana. The unusually cold winter of 2009-2010 and the winter of 
2010-2011 that was nearly as cold winter decimated the weevil 
populations. Samples obtained shortly after Feb. 1, 2010, from Lake 
Bisteneau indicated no weevil survival. (Samples taken from all release 
sites in south Louisiana in February 2010 and February 2011 showed good 
to excellent weevil survival.) The cold winter temperatures also 
decimated the salvinia populations in other areas, as well, it is 
unlikely that any weevils survived the cold temperatures in 
northwestern Louisiana.
    The weevil nursery at Golden Ranch was discontinued at the 
landowner's request. We currently have two nurseries established with 
plans to harvest weevils in 2011. We have two additional nurseries 
completed with plans to harvest in 2011 and three additional nurseries 
in the construction phase.
    The results of over more than two dozen herbicide trials conducted 
by the LSU AgCenter since 1999 have identified a number of herbicides 
that are effective in controlling giant salvinia when applied according 
to directions. A number of the effective herbicides have obtained 
federal registration from the EPA and are available for use. These 
herbicides can be divided into two groups: foliar sprays and total 
water treatments. Diquat (Reward), flumioxazin (Clipper) and glyphosate 
(numerous trade names) are foliar treatments shown to be effective with 
multiple applications. Fluridone (numerous trade names) and more 
recently penoxulam (Galleon) are total water treatment herbicides (the 
giant salvinia absorbs the herbicide through root uptake) often are 
effective from a single application, but the contact time (time the 
plants are exposed to the herbicide) may be as long as 60 days. 
Exchange of water (rainfall, normal current flow, etc.) with the 
minimum exposure time negates control. Even with these herbicides 
proven to be effective, chemical control of giant salvinia is 
problematic for several reasons:
        1.  All of the foliar applied herbicides require multiple 
        applications to have a significant effect on matted giant 
        salvinia. Multiple applications are expensive and labor 
        intensive.
        2.  The total water treatment herbicides require long contact 
        times. This works well in small confined areas (ponds with 
        little watershed area), but it often does not work well in 
        larger water bodies with larger watersheds and does not work at 
        all in areas of moving water.
        3.  All of these herbicides are expensive (as high as $1,600 
        per gallon on the upper end), and state budgets are limited.
        4.  With the phenomenal growth rate of giant salvinia 
        (Attachment 1), complete control is difficult to achieve, since 
        only a few surviving plants can repopulate and area in a brief 
        time.
    The LSU AgCenter has and continues to operate an outreach program 
of meetings, publications, videos and so forth to inform the public of 
the threat of giant salvinia and recommending that the boating public 
clean their boats and trailers of any aquatic vegetation before 
launching into uninfested waters. As part of the outreach program, the 
LSU AgCenter also conducts a series of educational programs in 
cooperation with the Louisiana Department of Agriculture and Forestry 
to train commercial and public sector applicators in the proper methods 
of applying herbicides to giant salvinia and other nuisance aquatic 
plants.
    Future research plans include a continuation of the herbicide 
screening program and refining/increasing our salvinia weevil 
production capabilities. Of specific interest is research directed at 
hopefully finding a strain of the salvinia weevil that can accommodate 
the low winter temperatures northwestern Louisiana experienced in 2009-
2010 and 2010-2011. Additional research will be predicated on finding 
additional research funds.
    In conclusion, we believe herbicide sprays and weevil releases will 
reduce the levels of infestation of giant salvinia in south Louisiana 
to acceptable levels, but eradication is very unlikely. Applications of 
herbicides should be made on new and accessible locations. Salvinia 
weevil releases should be made in more remote areas and where herbicide 
applications are not cost effective. Unless a cold-tolerant strain of 
salvinia weevil is identified and made available for use in north 
Louisiana, biological control measures always will be subject to winter 
kill. Unless and until a cold-tolerant strain is available, salvinia 
control will depend on herbicide applications and help from mother 
nature.
    This research and extension program has been funded in part by the 
Johnny Fruge Aquatic Plant Control Fund and from grants from the 
Louisiana Department of Wildlife and Fisheries, DuPont Corp, Monsanto 
Corp and BASF Corp.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

Dr. Fleming. Thank you, Mr. Sanders. Mr. Massimi?


  STATEMENT OF MICHAEL MASSIMI, INVASIVE SPECIES COORDINATOR, 
         BARATARIA-TERREBONNE NATIONAL ESTUARY PROGRAM

    Mr. Massimi. Thank you, Mr. Chairman. Thank you, Mr. 
Gohmert. I'm Michael Massimi from Barataria-Terrebonne National 
Estuary Program, which, if you're not familiar, is all the land 
between the Mississippi River and the Atchafalaya River.
    It's about a four-million-acre area, roughly triangular, 
down on the coast, coastal estuaries. We very much appreciate 
the weevils down there. Thank you.
    It's an area that has a lot of environmental problems. 
We're the fastest disappearing land mass. Everybody knows about 
Louisiana's trouble with land loss.
    The invasive species is no less an issue down there. We 
have plenty of them. Since I've been there for seven years, we 
have six new invasive species recorded in the Barataria-
Terrebonne just since I've been there.
    Plenty of salvinia in the coastal estuaries. It's not just 
up here in the northern part of the state.
    After Hurricane Katrina, we started finding giant salvinia 
in several new locations. The hurricane definitely spread it 
around, and my fear is that this river flood of 2011 is going 
to really spread it a lot farther, into the Atchafalaya basin 
and then, of course, into the Barataria-Terrebonne system as 
well.
    It's found in the Barataria system, the north rim of 
Barataria Bay, including in Jean Lafitte National Historical 
Park, and I believe that we're going to see severe impacts very 
soon in the Penchant Basin system of Terrebonne. That is where 
all the Atchafalaya River water eventually went.
    So we've already talked about its incredible growth rate. 
We've kind of already discussed what this thing does. The 
impacts are very severe.
    Total shade, blocking gas exchange on the surface, no 
oxygen getting through. As the plant decays, that sucks oxygen 
out as well, and causes fish kills. We're seeing that in the 
southern part of the state.
    The mat is so thick that even your air-breathing animals, 
even big ones like otters, don't want to go through that.
    Ducks will relish our native duckweed, which is a similar 
floating plant, but it's a thin mat, and ducks can get through 
it. Ducks will completely avoid a water body covered with giant 
salvinia.
    And then, of course, the human impacts as well. We've 
already touched on it. Water management structures get 
overwhelmed. Boating is impossible, even sometimes for larger 
vessels. A mat three feet thick is going to impede a pretty big 
boat.
    Intakes for industrial water or municipal drinking water 
get clogged, and one of the questions earlier was about 
drinking water. I have been informed that Cross Lake now has 
giant salvinia in it, and that's where the City of Shreveport 
gets their water from.
    So we know what it is. We know how bad it is. We know what 
it does, and we, I think, have unanimously decided we want to 
get rid of it. So how do we do that?
    We've talked about the chemical control. That's definitely 
going to be a big part of any comprehensive management plan. We 
will rely on herbicides, no doubt about it. The drawback to 
that is it's very expensive. Using chemicals year after year 
has other impacts.
    And speaking just generally about invasive species biology, 
invasives love to stir up habitats. They have a much harder 
time invading an area if every niche is filled with a native 
species and it's a functioning healthy ecosystem.
    You do something to disturb that, the invasives come in. 
They're great generalists and they're great pioneers of 
disturbed habitats.
    Using chemicals repeatedly knocks back not just your target 
species, it knocks back a lot of species. You're degrading the 
habitat in that way, and so it can be a negative feedback or 
positive feedback, rather, where a further degraded habitat is 
now primed for further invasion.
    And we see this with invasive species helping one another. 
An invasive actually degrades a habitat, clearing the way for 
another invasive to come in. Common in invasion biology.
    So one thing we can do that hasn't been mentioned is good 
restoration and restore native vegetation, cut back on the 
nutrients. That's going to be part of a comprehensive plan as 
well.
    Earlier there was a reference to the interagency control 
team. I definitely agree with all the recommendations they've 
put together. More weevils is at the top of that list for me. 
I'm a huge proponent of biocontrol.
    Another thing speaking generally about invasion biology is 
that imbalance, and you mentioned restoring the natural 
balance. When a new invasive invades a new area, it's freed 
from that system of checks and balances. Its predators aren't 
there. Its diseases aren't there, so that's why they tend to 
explode and go nuts.
    Biocontrol is the one method that tends to restore that 
natural balance. Now, you can spray chemicals year after year 
after year, but if the biocontrol program eventually works, and 
I do suspect that there is a threshold there, you get 
sufficient numbers enough, you're going to have a self-
sustaining population and you start to restore that natural 
balance.
    Eradication, probably not, but, you know, at least it's 
back in balance where the salvinia is just part of the natural 
system.
    Also, outreach and education is very, very important, 
especially at the boat launches and for registered boaters and 
hunters.
    The fight against invasive species and salvinia, in 
particular, it should be multidisciplinary. It should be 
multijurisdictional. It should be transpolitical.
    A good early detection and rapid response program where 
lots of outreach means lots of eyes in the field, lots of boots 
on the ground. We have a phone number where they can call and 
report it quickly. We have assets out there ready where you can 
go out.
    When the infestations are still small, eradication is a 
possibility. Once they get big, there's no other possibilities, 
so early detection and rapid response programs should be a 
critical part of a comprehensive program.
    And, finally, I'd like to just say that in invasive species 
management, we're constantly caught in a reactionary mode, so 
we're here today to talk about giant salvinia, but we really 
should take a much more high altitude view and much more 
widespread and talk about invasives in particular proaction 
rather than reaction.
    There is a nutria bill. There is a feral hog bill, and 
maybe there will be some salvinia action at some point, but if 
we can have stricter regulations on what gets imported into 
this country to begin with, we might avoid the next giant 
salvinia.
    I would even venture to say that giant salvinia was a 
preventable disaster if we had had stricter regulations on what 
sorts of plants could be imported.
    There is no way giant salvinia would have passed a risk 
screening. It was well known to be invasive in lots of other 
places in the world, and it would never have been allowed in if 
we had a pre-import risk screening program.
    And there are some actions that are attempting to do that. 
Senator Nelson of Florida is introducing the--it's an update to 
the Lacey Act, which would basically start a pre-import risk 
screening process for exotic animals and APHIS also has a new 
action Q37, which would do the same thing for plants.
    Basically if we see that they are a problem in other parts 
of the world and we have a high invasive potential, we don't 
let them in, and I'd like to see us move toward a more 
proactive system like that rather than reacting to each new 
invasive species.
    Thank you.
    [The prepared statement of Mr. Massimi follows:]

      Statement of Michael Massimi, Invasive Species Coordinator, 
             Barataria-Terrebonne National Estuary Program

    To Mr. John Fleming, M.D., Chairman, and the Honorable Members of 
the Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs:
    The invasive floating fern giant salvinia (Salvinia molesta) is 
possibly the most noxious of all aquatic weeds. It is native to 
southern Brazil where, ironically, it is not particularly abundant or 
troublesome. Freed from the natural system of checks and balances in 
its native range, however, giant salvinia has become one of the world's 
most destructive invaders. Introduced and spread mainly as an 
ornamental by the horticulture and pond garden trade, it has become 
established in tropical and subtropical regions on four continents. In 
the US, giant salvinia is established in at least 11 states, and if 
current trends hold, it has the potential to devastate freshwater 
habitats in as many as 20 states.
    In Louisiana, giant salvinia first became established in the Toledo 
Bend Reservoir in 1998. By 2004 it had spread to Terrebonne, Cameron, 
Lafayette, Jefferson Davis, and Lafourche Parishes. Then came the 
hurricane season of 2005. While salty storm surge from Hurricane Rita 
apparently helped wipe away the infestation in Cameron Parish, Katrina 
did no such favors in the southeastern portion of the state. The 
widespread flooding and high winds had the opposite effect. Giant 
salvinia was soon found in the Gulf Intracoastal Waterway, where it was 
then able to spread into many waterbodies throughout the coastal zone. 
Boating activity no doubt contributed to the accelerated spread, both 
along the coast and in the lakes of northern Louisiana. Giant salvinia 
is currently considered established in at least 15 parishes, mostly in 
the southeast and northwest of the state, and the river flooding of 
2011 will most certainly result in additional introductions. Giant 
salvinia can thrive in any freshwater area of the state, and I believe 
that we are, unfortunately, only on the leading edge of the giant 
salvinia invasion.
    The growth rate of giant salvinia is exponential. It doubles its 
coverage area in as little as a week under good growing conditions. A 
single plant could cover 40 square miles in three months. Waters 
infested with giant salvinia quickly become covered by a thick mat of 
vegetation. The mat can be up to three feet thick at the surface, 
making navigation impossible, even for relatively large boats. The mat 
is also much denser than other floating plants, blocking sunlight 
almost completely and greatly inhibiting oxygen exchange at the 
surface. The decay of plant masses further deoxygenates the water. The 
result is catastrophe for native flora and fauna. Hypoxic waters can 
cause fish kills. Submersed native aquatic plants are shaded out and 
they die. Habitat is destroyed for air-breathing animals like otters, 
diving birds, turtles and frogs, which cannot penetrate the mat. Ducks, 
which relish surfaces covered with the much thinner native duckweed, 
will completely avoid surfaces covered with salvinia. There is also 
evidence that prolonged presence of salvinia mats causes gradual 
acidification of lakes and ponds.
    Giant salvinia infestations have severe human impacts too. Water 
management structures are damaged or rendered useless, boating and 
commercial navigation is impeded, intakes for municipal drinking water 
or industrial facilities are clogged, and recreational uses such as 
fishing, waterfowl hunting, paddling, or swimming are stopped.
    Expensive and laborious efforts across the globe to control giant 
salvinia have seen mixed results. Chemical herbicides offer some 
control, but certain characteristics of the plant and its growth 
present challenges to chemical control. Contact spray herbicides can 
miss plants and plant parts under the waterline, and the thick mats 
serve to cover and protect plants buried within them. Systemic 
herbicides can be difficult to maintain at sufficient concentrations in 
large or flowing waterbodies. Also, frequent use of herbicides in 
aquatic settings present environmental and human health concerns.
    Harvesting salvinia mechanically can be effective only in very 
small infestations; otherwise the sheer weight and volume of the wet 
plants are unmanageable. Booms and other structures to prevent the 
movement of salvinia can protect small areas, but often get overwhelmed 
by the massive mats when pushed by wind or current.
    Currently, though, there is promise with biological control. A 
small South American insect known as the salvinia weevil (Cyrtobagous 
salviniae) has been approved for use by the USDA's Animal and Plant 
Health Inspection Service. The salvinia weevil appears to be completely 
host-specific, meaning that is cannot survive on plants other than 
salvinia. It is thus an ideal biocontrol agent. It feeds primarily on 
the buds, but also the leaves of the plant. Its larvae hatch on the 
plant and feed on buds and rhizomes. Plants develop brown lesions at 
the feeding sites that quickly grow and merge. Entire mats can brown 
over and the plants die and sink. Under the right conditions, salvinia 
weevils can be extremely effective at controlling giant salvinia.
    Weevils have been released in Louisiana since the mid-2000s, so far 
without dramatic impact, although tremendous progress has been made in 
Australia and South Africa using the same insect. One of the 
limitations here is temperature. The insect appears to be slightly more 
sensitive to cold than the plant, and both are on the edge of their 
temperature range in Louisiana. Although weevils have been reported to 
overwinter in Toledo Bend, weevils released in Lake Bistineau in 2009 
did not survive the freeze event in January 2010. But biocontrol is a 
long-term process, and we should not be discouraged. As we have seen 
with many introduced species, tolerances for environmental conditions 
often change over time due to selection. We now have four rearing ponds 
in the state, growing two strains of the weevil, but an expanded 
rearing operation would be a big step forward in producing effective 
weevil population numbers.
    The fight against invasive species and salvinia in particular 
should be multidisciplinary, multijurisdictional, and transpolitical. 
According to the Gulf and South Atlantic Regional Panel of the Aquatic 
Nuisance Species Task Force, ``Spread will continue until combinations 
of multiple control methods are established and implemented 
consistently across states and jurisdictions.'' I agree with the 
recommendations of this group's salvinia control team, which include 
significantly increasing the number of weevils to be released, 
incorporating technology such as satellite imagery and software 
development to inform monitoring programs, developing new funding 
strategies, and coordinating collaborative control that can 
strategically integrate weevil release zones with chemical spray zones 
and other control efforts.
    Giant salvinia, like most invasive species, is an aggressive 
pioneer of disturbed habitats. Physical disturbance of the landscape or 
water quality problems such as eutrophication can disrupt native 
succession and open ecological niches to invasion. Thus another 
important component of a comprehensive salvinia management plan is to 
restore aquatic habitats by controlling nutrient runoff, curbing water 
pollution, and maximizing the presence of native vegetation. To use an 
often quoted phrase, never leave an empty niche!
    When giant salvinia is found to have invaded a new site, or when a 
new invasive species is reported, it is important to have a robust 
program of early detection and rapid response. My organization, the 
Barataria-Terrebonne National Estuary Program, is partnering with the 
University of New Orleans and the Louisiana Department of Wildlife & 
Fisheries to produce such an ED/RR program. The goal is to have field 
identification guides of potential invaders for resource agents in the 
field, and a clear line of communication that can quickly mobilize 
assets when a sighting is made, before an invasive species becomes 
widely established. ED/RR programs require resources and funding, but 
they are critical to successful invasive species management.
    The final piece of the management puzzle is education and outreach. 
Increased attention to invasive species at the local level should be 
introduced in school science curricula. Plant pest notices should be 
sent to people with boat registrations and hunting and fishing 
licenses. Signage should be placed at public boat launches and parks 
with instructions on how to minimize the spread of aquatic invasive 
species. Encouraging good public stewardship of the environment pays 
for itself over time.
    Unfortunately, the recurring theme in invasive species management 
is reaction. We are constantly trying to chase down the best control 
practices for each new problem species. We scramble to mitigate damages 
and restore habitats one invasion at a time. Government action, such as 
the outdated listing procedure for injurious species provided to the 
U.S. Fish & Wildlife Service by the century-old Lacey Act, has invasive 
species biologists caught in a permanent reactionary mode. A species' 
damage to the environment is a necessary condition for it to be 
declared injurious, so it has already become established and is highly 
unlikely to be susceptible to eradication. Controlling invasive species 
to a manageable level is the best we could hope for in such situations.
    Many invasions are preventable. Stronger regulations to control the 
importation and trade of exotic plants and animals could have prevented 
such environmentally disastrous invasive species as Asian carp, 
tilapia, red lionfish, nutria, Burmese pythons, catclaw vine, hydrilla, 
and giant salvinia. Fortunately, there are new regulations being 
enacted and proposed that will finally move us toward a more proactive, 
rather than reactive, approach to invasive species. Senator Bill Nelson 
of Florida is currently intruding a bill, the Invasive Wildlife 
Prevention Act, which would bring the exotic animal import provisions 
of the Lacey Act into the 21st century. It would allow the USFWS the 
flexibility to conduct risk assessments before a new exotic animal is 
allowed into the country. Also, the USDA has issued action Q-37 to the 
Animal and Plant Health Inspection Service similarly allowing them to 
conduct risk analyses on plants that have shown potential for 
invasiveness before they are allowed to be imported.
    Of all the tools available to combat invasive species, prevention 
is the only one that definitely works. Proactive approaches like Q-37 
and the Invasive Wildlife Prevention Act must replace the old way of 
doing things. I am certain that giant salvinia would never have been 
allowed into the country if APHIS had been able to conduct pre-import 
risk screening. We are stuck with salvinia now, but while the next 
invasive species could be worse, it can be prevented--if we put the 
proper rules in place.
                                 ______
                                 
    Dr. Fleming. OK. Thank you, Mr. Massimi. Excellent advice. 
Next is Mr. Ward. You have five minutes, sir.

 STATEMENT OF KEN WARD, PROJECT MANAGER, DEPARTMENT OF PUBLIC 
                      WORKS, CADDO PARISH

    Mr. Ward. Thank you, Chairman. Thank you, Congressman. From 
Caddo Parish Commission and our Administrator Woodrow Wilson, 
we would like to say thank you for hosting this hearing in 
Caddo Parish.
    My name is Kenneth Ward. I've been project manager for 
Caddo Parish for a little over five--almost five years now. I 
have worked a lot with our Parks Department on Caddo Lake about 
the giant salvinia issue. We've looked at a lot of different 
options. I'd like to give you a brief breakdown.
    Giant salvinia has been in Caddo Lake since 2006. Its fast 
growth rate causes many problems to the lake and the people who 
use it. Giant salvinia can double in size within a week and can 
become up to three feet deep. This causes Caddo Lake to not be 
the water resource that it should be.
    One million seven hundred thousand (1,700,000) gallons of 
water every day are used to provide quality drinking water to 
Caddo Parish residents. Giant salvinia reduces the oxygen in 
the water, which increases treatment requirements.
    The thickness of the giant salvinia also slows down 
currents, causes suspended solids to settle at the bottom, 
resulting in increased sedimentation.
    Who knows what the problems will be associated with the 
decaying salvinia at the bottom of the lake?
    More than 30,000 people on Caddo Lake each year use it for 
recreation. Giant salvinia causes dead--large dead zones where 
floating islands of salvinia harm wildlife as well as 
recreation. The floating islands create problems for boaters, 
blocking off large areas of the lake. Reduced sunlight and 
oxygen cause problems for fish and other wildlife in those 
areas.
    Currently, the Louisiana Department of Wildlife and 
Fisheries is the lead agency for fighting giant salvinia in 
Caddo Lake. As the local government agency, Caddo Parish works 
with the Louisiana Department of Wildlife and Fisheries to 
address visitors' concerns effectively.
    The U.S. AgCenter--LSU AgCenter and Louisiana Tech 
University are conducting research to provide best ways to 
battle giant salvinia. They are researching herbicides, 
weevils, and microorganisms.
    Today, no known problem areas exist on Caddo Lake in Caddo 
Parish, but now that the summer is here, the high temperatures 
and lack of rain creates the perfect growing conditions for 
giant salvinia.
    In a few short weeks, Caddo Parish--Caddo Lake could be out 
of control as experienced in 2008. The cold winters for the 
past two years and the flushing due to the heavy rains last 
year have forced giant salvinia over the dam and into the 
currents of the Red River, which has helped clear Caddo Lake.
    The Parish of Caddo has worked closely with the Louisiana 
Department of Wildlife and Fisheries to identify herbicide 
sprayed area. The Wildlife and Fisheries has a spray crew 
dedicated to Caddo Lake.
    Herbicide spraying works, but it has many limitation. The 
cost of the herbicide is the greatest. In fact, in past years 
Louisiana--the State of Louisiana has run out of funds for 
herbicide and the Parish of Caddo has helped purchase the 
chemicals for continued spraying.
    Manpower for spraying is also very limited. Spraying cannot 
be applied in the rain or high wind conditions.
    Boat launch barriers have been installed at Caddo Parish's 
Earl Williamson Park in Oil City to help assist giant salvinia 
from entering the boat launch areas.
    This helps keep the plant from attaching to boat trailers 
during launch and release, but during high winds, giant 
salvinia can be blown in the barriers, which mean--which cause 
problems in the launching areas.
    Caddo Parish has passed and posted ordinances on the 
prohibition of transportation and spreading of giant salvinia. 
Enforcement of such ordinances are very expensive and time 
consuming.
    Signs have been posted at all boat launches to assist in 
proper notifications, hoping that most users would be concerned 
that they are not the ones causing the invasive plant to be 
spread.
    Louisiana State University in Shreveport, through a grant 
with funds from Caddo Parish, is also providing ways to 
possible solutions for the giant salvinia battle.
    Caddo Parish is also providing land to Wildlife and 
Fisheries for a regional facility to store equipment and 
supplies to help fight the giant salvinia in northwest 
Louisiana.
    Some other possible solutions are the introduction of 
weevils in the infested areas. The ability of the weevils to 
survive our winters and the inability to spray where weevils 
have been added are the largest limitations.
    Harvesting is an option for the open lake areas. Areas with 
heavy trees and shallows make harvesting virtually impossible. 
Both of these require funding and large amounts of manpower.
    In conjunction with Louisiana Department of Wildlife and 
Fisheries, the Parish of Caddo is working to save one of our 
most valuable water resources in northwest Louisiana. The loss 
of historic Caddo Lake due to giant salvinia would be a loss of 
a way of life to our parish.
    Jobs that derive from the lake would be lost. Families 
would have to move away from Caddo Lake to find work. 
Recreational opportunities and high quality drinking water 
would be lost.
    The Parish of Caddo has spent more than $40,000, not to 
mention the state funds that have been spent, to save this 
valuable resource.
    With research and committed dedication, this invasive plant 
can be managed in Caddo Lake. Thank you.
    [The prepared statement of Mr. Ward follows:]

           Statement of Kenneth Lynn Ward, Project Manager, 
                       Parish of Caddo, Louisiana

    Giant salvinia has been in Caddo Lake for several years. Its fast 
growth rate causes many problems to the lake and the people who use it. 
Giant salvinia can double in size in a few days and can become up to 
three feet deep. This causes Caddo Lake not to be the water resource 
that it should be.
    One million seven hundred thousand gallons of water each day is 
used to provide drinking water for Caddo Parish residents. Giant 
salvinia reduces the oxygen in the water, which increases treatment 
requirements. The thickness of the salvinia also slows down currents 
causing suspended solids to settle to the bottom resulting in increased 
siltation. Who knows what problems are associated with the decaying 
salvinia at the bottom of the lake?
    More than thirty thousand people visit Caddo Lake each year for 
recreation. Giant salvinia causes large ``dead zones'' where floating 
islands of salvinia harm wildlife as well as recreation. The floating 
islands create problems for boaters, blocking off large areas of the 
lake. Reduced sunlight and oxygen cause problems for fish and other 
wildlife in those areas.
    Currently, the Louisiana Department of Wildlife and Fisheries is 
the lead agency fighting giant salvinia in Caddo Parish. As the local 
government agency involved, Caddo Parish works with the Louisiana 
Department of Wildlife and Fisheries to address visitors and residents' 
concerns effectively. LSU AgCenter and Louisiana Tech University are 
conducting research to find the best way to battle giant salvinia. They 
are researching herbicides, weevils, and microorganisms.
    Today, no known problem areas exist on Caddo Lake in Caddo Parish. 
But, now that summer is here, the high temperatures and lack of rain 
creates the perfect growing conditions for giant salvinia. In a few 
short weeks, Caddo Lake could be out of control as experienced in 2008 
(see pictures A and B). The colder winters of the past two years and 
the ``flushing'', due to heavy rains last year, forced giant salvinia 
over the dam and into the currents of the Red River which has helped to 
clear Caddo Lake.
    The Parish of Caddo has worked closely with the Louisiana 
Department of Wildlife and Fisheries to identify herbicide spray 
locations. Wildlife and Fisheries has a spray crew assigned to Caddo 
Lake. Herbicide spraying works, but has many limitations. The cost of 
the herbicide is the greatest. In fact in past years Louisiana ran out 
of funds for herbicide and the Parish of Caddo purchased the chemicals 
for continued spraying. Manpower for spraying is also very limited. 
Spray cannot be applied in rain or high winds. See pictures C and D of 
areas before and after spraying.
    Boat launch barriers have been installed at the Parish of Caddo's 
Earl Williamson Park in Oil City to assist in keeping giant salvinia 
from entering the boat launch area, see picture E. This also, helps in 
keeping the plant from attaching to boat trailers during launch and 
pick up. But during high winds, giant salvinia can be blown over the 
barriers and back into the launching area.
    Caddo Parish has passed and posted ordinances on the prohibition of 
transportation and spreading of giant salvinia. Enforcement of such 
ordinances are hard and time consuming. Proper enforcement is very 
expensive. Signs have been posted at all boat launches to assist in 
proper notifications, hoping that most users would be concerned that 
they are not causing the invasive plant to spread.
    Louisiana State University in Shreveport through a grant with funds 
from Caddo Parish is working on finding possible solutions to the giant 
salvinia battle. Also, Caddo Parish is providing land to the Louisiana 
Wildlife and Fisheries for a regional facility to store equipment and 
supplies to fight giant salvinia in Northwest Louisiana.
    Other possible solutions are the introduction of weevils to the 
infested areas. The ability of the weevils to survive our winters and 
the inability to spray areas where weevils have been added are the 
largest limitations. Harvesting is an option in open lake areas. Areas 
with heavy trees and shallows make harvesting impossible. Both of these 
require funding and large amounts of manpower.
    In conjunction with the Louisiana Department of Wildlife and 
Fisheries, the Parish of Caddo is working to save one of the most 
valuable water resources in Northwest Louisiana. The loss of historic 
Caddo Lake due to giant salvinia would be the loss of a way of life to 
our Parish. Jobs that derive from the lake would be lost. Families 
would have to move away from Caddo Lake to find work. Recreational 
opportunities would be lost, and high quality drinking water would be 
lost. The Parish of Caddo has spent more than $40,000, not to mention 
the State funds that have been spent, to save this valuable resource. 
With research, and committed dedication this invasive plant can be 
managed in Caddo Lake.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Dr. Fleming. Thank you very much, Mr. Ward. Mr. Lowerre, 
five minutes, sir.

                 STATEMENT OF RICHARD LOWERRE, 
                PRESIDENT, CADDO LAKE INSTITUTE

    Mr. Lowerre. Thank you, Mr. Chairman, Congressman Gohmert, 
thank you so much for letting me speak today and----
    Dr. Fleming. You can just pull that mic closer to you so--
--
    Mr. Lowerre. All right. Is that better? Is it on.
    Dr. Fleming. Yes, it's on.
    Mr. Lowerre. Thank you also for holding this hearing here.
    The public awareness of the problem and public awareness of 
things they can do is a very important aspect of the effort. I 
believe it's the most important aspect, and that's what I want 
to talk about briefly.
    This hearing, having it here, can help with that whole 
public awareness campaign that we need to have. I also want to 
thank Congressman Gohmert for all his support for the work of 
the Caddo Lake Institute and many partners in Texas for the 
work that's gone on on the problem over the last five years.
    Giant salvinia is a regional problem. We need to solve it 
with regional solutions. Caddo Lake is a good example. 
Obviously solving the problem on one half of the lake, the 
Texas side or the Louisiana side, doesn't solve the problem. 
We'll still have the problem if we don't solve it on both 
sides.
    The same is true with the region. Having lakes in the area 
with problems, solving it only on one lake is not going to 
solve our problems. It's going to move from one lake to 
another. It's just a matter of time.
    I also don't think, as you've heard, that there's any 
silver bullet, that there's any one agency, Federal, state or 
local, that's going to solve the problem. We need a public-
private partnership that pulls everyone involved together.
    We've done that in a decent fashion, but we can build on 
it. We've learned over the last five years how to do it. We've 
had amazing, really tremendous help from every Federal agency 
that's here, along with the Fish and Wildlife Service, the 
state agencies, the local counties and parishes, the cities 
have all pitched in.
    We've had help from private industries bringing in money, 
and we've had what I think is an amazing job by a lot of the 
volunteers, a lot of the landowners around the lake, a lot of 
the visitors to the lake in helping.
    I think that is really what--the way we're going to solve 
the problem because we just can't afford to spend all the kinds 
of money to spray as we were told the same 20 acres year after 
year or month after month.
    We've got to do some prevention as we get on top of the 
problem, whether it be by freeze or by large herbicide or 
weevil action. We still have to have what you've heard, that 
early detection, rapid responses to solve the problems as they 
start, really before they get out of hand.
    Those infestations that the local people can handle, and 
we've had amazing success in many areas with some local 
shoreline watch where people are actually out there identifying 
it, calling in rapid response, or taking care of it themselves 
with rakes and other devices, just to remove those small 
infestations.
    We need that. We obviously need a real effort at the boat 
ramps, wherever we can reduce the spread of it from lake to 
lake. Again, volunteers can help there. It's not something that 
we really expect to see a police force out there issuing 
tickets.
    Education, reminders, maybe some people that are willing to 
go out there and remind people and help people, gas stations.
    Texas Parks and Wildlife has a great I guess what's called 
pump topper with some information right there as people stop to 
fill up the tank, getting owners of gas stations and people 
that work there aware of the problem.
    There's things we can do that don't cost a lot of money, 
but they take some coordination. They take some almost door-to-
door activity in some cases to get the people involved.
    Once they are involved, and one example is a field guide 
that was funded by the State of Texas, Alcoa, a lot of 
individuals participated in it, and it's not just, you know, 
horrible, here's the invasive species. It's, look at all these 
great natives we have out here. Learn to identify those also. 
Learn to understand your system.
    It's good that people can then actually identify the 
invasives and help us and they're ready for the next one, and 
we know the next one is going to come, too.
    So building that grass roots effort is what I hope your 
Committee will help us do, the state and the Federal agencies, 
the local will all participate in a partnership.
    I think we have seen at Caddo Lake since the--at least the 
founding of Caddo Lake Institute in 1993 by Mr. Henley that the 
local participants really do want to protect their resources. 
Given the opportunity, given the information, the science and 
the understanding, they can do amazing work.
    Again, thank you for this hearing. I appreciate it.
    [The prepared statement of Mr. Lowerre follows:]

     Statement of Richard Lowerre, President, Caddo Lake Institute

                 Regional Solutions for Giant Salvinia

INTRODUCTION
    Mr. Chairman, thank you for permitting me to address your committee 
today on the important issue of control of Giant Salvinia. I also want 
to thank Congressman Gohmert for his support for the work of the Caddo 
Lake Institute and the many others who have worked hard together on the 
problem. I also appreciate the subcommittee members taking the time to 
help address the invasive species issues facing this region and much of 
the country.
    Giant Salvinia is clearly having a very negative impact on this 
region. You have heard and will hear from many about the problems 
created by its presence. It is reducing the recreational value of the 
natural resources in the area. It is depressing the economics of 
tourism, sport fishing, hunting, and other water-based enterprises. It 
is depressing property values.
    Giant Salvinia is clearly a regional problem. We need to address it 
together, as a regional problem.
    Caddo Lake makes a good example, since it is half in Texas and half 
in Louisiana. Effective management of Giant Salvinia on only one side 
of the state line is clearly not a viable approach. Likewise, effective 
management at one lake in the region is also not sufficient. Because 
this plant can easily be transferred from lake to lake on boats and 
trailers, we need to address the problem at all the lakes. If we do 
not, those lakes that are not treated will simply become the source for 
infestations and re-infestations of other lakes.
    Mr. Chairman, you have assembled a very good set of people with 
expertise and experience to help this committee address the problems. 
Moreover, by holding the hearing here, you are helping with the needed 
public outreach effort. Thank you.
    It is that public outreach effort that will be the focus of my 
testimony today.
    The Caddo Lake Institute (CLI) is a non-profit scientific and 
educational organization with the mission of protecting the ecological, 
cultural and economic integrity of Caddo Lake, its associated wetlands 
and surrounding plant and wildlife habitats.
    CLI was founded by Don Henley in 1993 and has had the honor of 
working with the local governments, non-governmental organizations and 
individuals around Caddo for 18 years. We have worked together to take 
advantage of opportunities to improve local economic development and to 
address threats to such development in the region. Giant Salvinia is 
one of the biggest threats to date.
    The public-private partnerships that have developed to work on 
opportunities and threats can claim significant victories. In the 1990s 
for example, we obtained a designation for much of Caddo Lake as a 
Wetland of International Importance under the Ramsar Convention, now 
signed by over 160 countries. Likewise, the partnership has 
successfully addressed threats to the lake and wetlands including 
assuring adequate flows to Caddo Lake.
    The successes have been the result of coordination and cooperation 
among partners once there was consensus on a goal. There is a very 
strong consensus now that Giant Salvinia is a serious threat and has to 
be properly managed.
BACKGROUND ON THE WORK ON INVASIVE SPECIES AT CADDO LAKE
    Many individuals and organizations have played important roles in 
the work on invasive species at Caddo Lake. Some of the key individuals 
are here today.
    For example, Texas State Representative Hughes (who is testifying 
today) has been a strong ally, helping to obtain funding from the State 
of Texas for the efforts by the Cypress Valley Navigation District to 
control Giant Salvinia.
    Likewise USGS, and especially Dr. Randy Westbrooks, has played a 
critical role in providing information on control of Giant Salvinia 
that we could not get from private sources. Dr. Westbrooks continues to 
be a critical advisor.
    Dr. Damon Waitt has also been an important advisor and ally. His 
website, www.texasinvasives.org serves as an important central location 
for information on how we can address problems of invasive species.
    The National Fish and Wildlife Foundation has helped fund the work 
of the Caddo Lake Institute--work that CLI hopes to continue. The 
Foundation has been an important source for funds for other control 
efforts around the country as well.
    There are many others who have helped, but are not represented here 
today. Alcoa is one of the private companies that has helped fund work 
at Caddo. Alcoa helped pay for the field guide to aquatic plants of 
Caddo Lake that helps people identify native and invasive aquatic plant 
species.
    The Northeast Texas Municipal Water District (NETMWD) led a 
watershed protection planning process that helped coordinate some of 
the earliest work to manage Giant Salvinia.
    The Cypress Valley Navigation District (CVND) has used its limited 
resources effectively in the application of herbicides.
    Last year, the Texas Parks and Wildlife Department (TPWD) initiated 
a major public education campaign on invasive species focusing 
initially on the problems in Northeast Texas with Giant Salvinia. Some 
of their materials are shown in the attachments to my testimony.
    It is, however, non-governmental groups and volunteers who have 
done some of the most amazing work to fight Giant Salvinia. For 
example, in 2006 and 2007, the Greater Caddo Lake Association of Texas 
raised money and convinced many volunteers to spend hundreds of hours 
to build a 2-mile-long net across Caddo Lake and to collect the Giant 
Salvinia daily as it was captured in the net. A picture and map of that 
net is attached.
    A local landowner, John Sanders, purchased an expensive floating 
mechanical harvester to allow CLI and others to experiment with such 
equipment on Caddo Lake and determine if and when such harvesting can 
play a role in the overall effort, and it can.
    Since there are too many partners who have helped to name them all 
here, I have attached a poster to this testimony which identifies them. 
The full size poster is located at the Caddo Lake National Wildlife 
Refuge and is one effort to recognize the many participants in the 
effort to control invasive species.
    It is my belief that only with such an extensive public-private 
partnership can we solve the problem of Giant Salvinia. There is no 
single solution; no one entity that can provide all the answers. There 
are important roles for the people who live, work and play at the 
affected lakes and rivers. We need to have them involved in a 
significant way, and we can.
SOLUTIONS
    This hearing is an important step in solving the regional problem 
with appropriate regional solutions.
    We need a comprehensive public-private partnership made up of all 
the potential participants, including
        1)  the two state agencies with legal responsibilities for 
        management of invasive species,
        2)  federal agencies with expertise and resources to bring to 
        this two state problem,
        3)  local governments that can often move more quickly to 
        respond to local problems,
        4)  universities that bring expertise to the problem, and
        5)  local non-governmental organizations and individuals who 
        can assume important roles in the effort.
    While we are going to have to rely on chemical, biological and 
mechanical controls, mostly used by governmental entities, it is almost 
as important to have the owners of property at the lakes, boats used on 
the lakes and marinas with operations on the lake to serve as 
inspectors for the effort. They can help identify infestations so the 
Giant Salvinia can be eradicated before it gets out of hand.
    In fact, in the long run, it has to be the local stakeholders who 
are engaged and want to take responsibility if the management of 
invasive species is going to be successful.
    We had a great start to public education and participation at Caddo 
Lake. The two-mile net is just one example. We have lost some of our 
momentum, however. We lost the funding for the volunteer coordination 
that is needed. And while the hard freeze of 2010 knocked back the 
Giant Salvinia, it also knocked back public involvement. That is 
understandable. The hard freezes did what all our other efforts had not 
done. In fact, some thought that periodic freezes would solve our 
problems.
    After that 2010 freeze, however, Giant Salvinia roared back. If not 
for the freeze this past winter, Caddo Lake could have been on its way 
to very significant coverage by Giant Salvinia this year. We now know 
that we cannot rely on freezes. We know that Giant Salvinia can take 
over a lake in just a couple of years, damaging the economic and other 
values of the lake.
    The two freezes in the winter of 2010 and 2011 have given us a new 
opportunity to reinvigorate people to help. Lakefront landowners and 
boaters and others can help identify small infestations so rapid 
response teams can spray or remove the Giant Salvinia.
    We had this type of effort at Caddo in the past. We called it a 
Shoreline Watch. Residents and others were trained and provided field 
guides and other tools and information to help with search and destroy 
efforts. They helped identify infestations and some even took actions 
to remove the Giant Salvinia.
    CLI is starting this effort again. We believe we can be more 
effective this time, having learned from past experience. We also 
believe we can and should take this approach to other lakes, if invited 
to do so by the local communities.
    CLI and other non-governmental organizations can also build on 
other work done over the past 5 years. We can, for example, use the 
materials developed by TPWD and in others states for a broad public 
campaign. This work will likely be needed just to keep the current 
effort up, given budget cuts for TPWD. We can also use the videos, PSAs 
and other ideas that have already been developed. TPWD has agreed to 
assist.
RESEARCH
    I do want to highlight one more critical part of the effort. We 
need to know what is working now and what can work best under different 
conditions. Toward that end, the Texas A&M Water Resource Institute has 
been able to establish an experimental Giant Salvinia weevil rearing 
facility at the Caddo Lake National Wildlife Refuge. It did so with 
federal funds, thanks to Senator Hutchison. It has also set up research 
projects that will help us evaluate the proper role of weevils and 
other control techniques.
    Until last year, we lacked these aspects of the effort. Weevils 
seemed like a possible solution, but there were different opinions 
about if and when they should be used. We are learning first hand now 
that they can be raised in this region and that they can be used to 
control Giant Salvinia. They will not, however, be a silver bullet. 
They certainly can be used to help control Giant Salvinia, but here, 
where we have freezes that kill the weevils faster than the plant, they 
are not going to be the only tool we need to use.
    The weevil facility has another benefit. It provides a great public 
education opportunity since it is located at the visitor area at the 
Caddo Lake National Wildlife Refuge.
    Mr. Chairman and members of the subcommittee, when you consider 
options to address Giant Salvinia, I hope you will be looking to expand 
these facilities to other parts of our region if, as I expect, you 
learn that these types of facilities are cost effective tools in the 
fight against Giant Salvinia. Texas A&M, LSU and other universities are 
the logical grantees for these types of research and experimental 
efforts.
CONCLUSION
    I have a set of recommendations on the opportunity to engage the 
public in the management of Giant Salvinia. I urge this subcommittee to 
encourage a strong public role. That is, I believe we need not only the 
chemical, biological and mechanical systems that our government 
agencies can bring to the problem, but also the grass roots solutions.
    With your help we can find solutions that fit the two-state or 
regional problem. One of those solutions should be early detection and 
response assisted by local residents and other stakeholders. Those 
efforts can be important to:
        1.  Eradicate Minor Infestations: We can develop better 
        programs to encourage and assist property owners, boaters, 
        local governments and local lake associations to help identify 
        small infestations in public water bodies and report them to 
        others for rapid responses through chemical treatments.
        2.  Remove Many of the Small Infestations: We can develop 
        better programs to encourage and assist property owners, 
        boaters and others to remove infestations around their boat 
        docks, boat ramps, marinas and other locations to prevent 
        establishment or spread of the invasive species.
    To make this happen, I believe we need to raise public awareness 
throughout the region. We have good models, such as the signs, bumper 
stickers and other materials developed by the Texas Parks and Wildlife 
Department.
    We also need to reduce the transportation of Giant Salvinia in the 
region. We can develop better programs to use volunteers and signage at 
local gas stations and at other locations to encourage boaters to clean 
their boats and trailers before leaving boat ramps at Giant Salvinia 
infested waters to help stop the spread of the problem.
    And in raising public awareness of the need to reduce the movement 
of Giant Salvinia, we will have prepared ourselves to address similar 
problems for the next invasive species to arrive.
    Thank you for holding this hearing and the opportunity to provide 
this testimony.
Attachments:
Pages 1-4: CLI brochure
Page 5: Signage at the weevil-rearing facility on the Caddo Lake 
National Wildlife Refuge
Page 6-9: TPWD public awareness campaign materials
Page 10: Map and photo of giant salvinia net across Caddo Lake
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Dr. Fleming. All right. Thank you, Mr. Lowerre. OK. Mr. 
Trandahl, you're up next, sir.

  STATEMENT OF JEFFREY TRANDAHL, EXECUTIVE DIRECTOR, NATIONAL 
                  FISH AND WILDLIFE FOUNDATION

    Mr. Trandahl. Thank you. And I just want to start by 
thanking both of you gentlemen for taking time and traveling 
here and holding a field hearing like this.
    Invasive species are an issue that there is a lot of 
confusion around, and yet not a lot of attention paid in 
Washington D.C. Around the issue, yet it costs our economy $100 
billion annually, and it's an enormous drag on communities, and 
we're seeing that here in this community.
    And I run the National Fish and Wildlife Foundation, and 
we're one of the larger funders in terms of invasive response.
    We're a very proud funder of the Caddo Institute, and we 
look to communities to try to understand not only what are the 
issues, but does the community support action in terms of 
trying to respond and is there a multiprong strategy involving 
several partners on the ground in order to effectively respond.
    Many times when invasive species are identified, a 
lackluster response is done on the ground, and ultimately what 
we find ourselves in is a worse situation than if we had 
actually done nothing.
    So I believe this is an example where we have the 
opportunity to really go at this and really be able to control 
the issue.
    But, again, it has to have that community support and voice 
behind it, and what Rich says about public education is truly 
one of those key components.
    National Fish and Wildlife Foundation, we fund in fifty 
states. We focus in terms of wildlife sustainability in 
abundance normally, but in a situation like this, it's about 
control and eradication.
    We want to get the economy and protect the economies that 
are out there and protect those working landscapes and those 
individuals, get them that public access that they want for 
boating, fishing, hunting, or other economic purposes.
    We fund roughly $1.3 million annually.
    We partner with Fish and Wildlife Service, BLM, Forest 
Service, and APHIS in doing that, and that $1.3 million that we 
put on the ground is one of the largest funds, believe it or 
not, for invasives in the country. It's quite sad.
    We also do work with private partners. There is an enormous 
need for private resources to step up into the invasive species 
realm, but it isn't something that's exciting, and it's not 
always in the headlines.
    So we have to help put pressure into those donors and 
better educate donor bases in order to help build private 
resources because we all know public resources are so tight.
    I have to say, I commend the Institute. Right now we have a 
request for proposals out there. We run a competitive process 
as we put money on the ground, and we hope to be looking 
forward to being a continued partner long into the effort here. 
Thank you.
    [The prepared statement of Mr. Trandahl follows:]

            Statement of Jeff Trandahl, Executive Director, 
                 National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify on behalf of the National 
Fish and Wildlife Foundation (Foundation) and efforts to control and 
eradicate Giant Salvinia. The Foundation has supported conservation 
projects in the northwest Louisiana and eastern Texas and specifically 
funded grants to the Caddo Lake Institute for Giant Salvinia that I 
will discuss later in the testimony. The Foundation has also provided 
grants to the Caddo Lake National Wildlife Refuge, Red River National 
Wildlife Refuge, and other non-profit organizations in Louisiana and 
Texas working to protect the region's natural resources through 
conservation and education activities.
    The Foundation was established by Congress in 1984 to leverage 
federal and private funds to conserve fish, wildlife, and their 
habitats. Since then, the Foundation has developed a successful model 
of fostering public-private partnerships to address the most 
significant threats to fish and wildlife populations and their habitats 
on private working lands and public lands. We have a particularly 
strong history in working with community-based organizations to support 
conservation actions that benefit fish, wildlife, plants and other 
natural resources while positively impacting local economies through 
improved recreation, tourism, and other business opportunities.
    The Foundation has demonstrated its unique ability to bring 
together multiple federal agencies with state, tribal and local 
governments and private organizations to implement coordinated 
conservation strategies through grant-making programs. We employ this 
collaborative model to address invasive species and thank you for the 
opportunity to discuss our programs and the challenge of Giant 
Salvinia.
Caddo Lake and Giant Salvinia
    Caddo Lake is a wetland of international significance that supports 
diverse species of fish, wildlife, and plants and provides unique 
recreational opportunities for the public. Caddo Lake is a popular 
destination for waterfowl hunters and fishermen in Louisiana and Texas 
and attracts visitors from across the country. These sporting 
activities as well as boating, canoeing, photography, bird watching, 
camping and other recreational activities are important to the local 
economy and are inextricably linked to the health of Caddo Lake.
    In 1993, Caddo Lake was declared a wetland of international 
significance by the Ramsar Convention on Wetlands, which is an 
international treaty that recognizes exemplary wetland systems across 
the world and provides the framework for national action and 
international cooperation for the conservation and wise use of wetlands 
and their resources. Caddo Lake is one of only 27 wetlands in the 
United States recognized by the Ramsar Convention on Wetlands. The bald 
cypress forests of Caddo Lake, including trees as old as 400 years, 
host one of the highest breeding populations of wood ducks as well as 
prothonotary warblers and other neotropical birds. The forests and 
wetlands of Caddo Lake are critical for migratory bird species within 
the Central Flyway, including tens of thousands of migrating waterfowl 
that utilize Caddo Lake (and other nearby lakes) as resting and feeding 
grounds.
    However, these internationally-recognized wetlands are threatened 
by Giant Salvinia, one of the world's most noxious aquatic weeds 
introduced from Brazil as part of the pet industry. Giant Salvinia 
grows rapidly and spreads across water surfaces, forming dense floating 
mats that reduce light penetration and result in oxygen depletion of 
the lake. This prevents growth of natural vegetation, a food source for 
waterfowl, and the mats of Giant Salvinia also eliminate open water on 
lake for waterfowl to use for resting purposes. Oxygen depletion below 
the mats of Giant Salvinia also impacts fish survival in the lake. 
Giant Salvinia was first identified in Louisiana in 2005, quickly 
spread into Texas in 2006, and infests lakes in both states.
Pulling Together Initiative: Supporting Community-Based Solutions to 
        Invasive Species
    Invasive species like Giant Salvinia are one of the greatest 
threats to fish, wildlife, and plant biodiversity facing the United 
States and disrupt the economy and ecology of our nation. Invasive 
plants threaten private working lands and publicly protected lands and 
infest over 100 million acres in the United States. On public and 
private lands and waters of this country, invasive species negatively 
impact the natural systems on which we all depend and economic losses 
are estimated at over $100 billion annually. It is our experience that 
a community-based, inter-jurisdictional approach based on a 
comprehensive and adaptive management plan is necessary to effectively 
address the problem of invasive species such as Giant Salvinia.
    In order to help address the problem of invasive species, the 
Foundation and its federal agency partners established the Pulling 
Together Initiative in 1997 to provide financial support to help local 
communities effectively manage these plant invaders through cooperative 
management strategies for their control, eradication, and prevention.
    The Pulling Together Initiative was created to specifically address 
the large scale problem of invasive plants in the United States by 
engaging a variety of local stakeholders in a comprehensive, long-term 
strategy to reduce the problem. The Foundation, in partnership with the 
U.S. Fish and Wildlife Service, Bureau of Land Management, USDA Forest 
Service, and USDA Animal and Plant Health Inspection Service, brings 
together landowners, citizen groups, and weed experts to develop and 
implement strategies for managing invasive plant infestations on public 
lands, private working lands, and other natural areas. The cooperative 
approach of the program has played an instrumental role in invasive 
plant management across the country.
    Interest in the program is strong and the Foundation was only able 
to fund one-fifth of the total funding requested in 2010. Grantees 
include local governments, non-profit organizations, Refuge friends 
groups, and others performing on-the-ground conservation efforts to 
combat invasive plants. All grant awards must be matched by non-federal 
contributions from project partners on at least a 1:1 basis. To date, 
the program has awarded $17.9 million to 541 projects. Leveraged by an 
additional $37.6 million in partner contributions, these grants have 
resulted in a total of $55.5 million for local communities fighting 
invasive weeds.
    In addressing invasive plants, grants emphasize the importance of 
local support by private landowners, state and local governments, and 
the regional/state offices of federal agencies that are committed to 
working together to manage invasive plants across their jurisdictional 
boundaries. To be successful, a long-term weed management plan should 
be developed based on an integrated pest management approach using the 
principles of ecosystem management and the plan should include a public 
outreach and education component.
    We have found that the most successful approach to addressing 
invasive species is through Weed Management Areas--formal partnerships 
among public and private landowners working together using natural 
rather than political boundaries, such as a watershed, ecosystem, 
landscape, or county. The Pulling Together Initiative has helped to 
create numerous local Weed Management Areas, fund their ongoing 
stewardship work, and educate local communities about the magnitude of 
the crisis posed by the spread of invasive plants and what they can do 
to help address the problem.
    The Foundation had an independent evaluation of the Pulling 
Together Initiative in 2009 to assess the effectiveness of the program 
and opportunities for improvement. They found that the grants result in 
strong and diverse partnerships and catalyze the formation of robust 
weed management organizations. In nearly all cases for the grantees 
surveyed, partnerships and weed control activities continue after the 
grant has ended. The evaluation concluded that the successful grantees 
engaged in weed control as a primary activity, utilized a variety of 
innovative approaches, and incorporated educational and public outreach 
activities. Most grantees utilize volunteers which help to extend 
resources and involve the broader community. With these comprehensive 
strategies in place, grantees reported a significant degree of success 
and ``better controlled'' weed infestations.
Pulling Together Initiative Grants to Caddo Lake Institute
    The Foundation awarded grants through the Pulling Together 
Initiative to the Caddo Lake Institute (Institute) in 2007 and 2008 to 
address aquatic invasive plants at Caddo Lake. Through these grants, 
the Institute positively engaged private shoreline-owners, cultivated 
media relationships, strengthened public education, and facilitated 
removal of Giant Salvinia from Caddo Lake. Most importantly, the 
Institute was empowered to work collaboratively with government 
agencies, residents, and other stakeholders to address Giant Salvinia 
at Caddo Lake. The Institute received two $50,000 grants through the 
Pulling Together Initiative. Grant funds were leveraged by $120,664 of 
matching contributions for a total investment of $170,664.
    A key part of the Institute's success has been their public 
awareness campaign and recruitment of local volunteers. To foster 
volunteer participation, the Institute attended numerous community 
meetings and exchanged information with public and private stakeholders 
about biological, chemical, mechanical, and other physical control 
strategies. Through meetings with individual shoreline residents, the 
Institute helped private individuals deploy small-scale containment 
devices on a voluntary basis. Also during the grant period, the 
Institute developed and distributed a Field Guide to Invasive Aquatic 
Plants to help the public identify problem plants and assist in control 
efforts. Residents became better informed about control strategies and 
a stronger public participation process was established in partnership 
with the Texas Parks and Wildlife Department.
    The Institute has been successful in working with federal, state 
and local governments to advance cooperative management efforts through 
public-private partnerships. Their work actively involves the public 
and has generated local, state and national media coverage of Giant 
Salvinia at Caddo Lake. We believe these are important accomplishments 
and these types of strategies can be employed on a larger scale at 
Caddo Lake and other areas infested with Giant Salvinia in Louisiana 
and Texas.
    The Foundation has supported the existing partnership at Caddo Lake 
and we expect to continue to be a partner in the future. However, for 
the Foundation and its grantees to be effective, a collaborative and 
coordinated effort between the states with community engagement is 
necessary. We look forward to working with organizations and agencies 
in the region to build on their existing work and comprehensively 
address the problem of Giant Salvinia in the future.
    Once again, thank you for the opportunity to provide testimony on 
this subject and we look forward to working with you to address this 
issue and other conservation concerns.
Background on the National Fish and Wildlife Foundation
    As of FY 2010, the Foundation has awarded over 11,000 grants to 
national and community-based organizations through successful 
partnerships with the Department of Interior Agencies, USDA's Forest 
Service and Natural Resources Conservation Service, the Environmental 
Protection Agency, the National Oceanic and Atmospheric Administration, 
and others. This collaborative model brings together multiple federal 
agencies with state, tribal and local governments and private 
organizations to implement coordinated conservation strategies in all 
50 states. Since its inception, the Foundation has leveraged nearly 
$530 million in federal funds into $1.8 billion in on-the-ground and 
in-the-water conservation with less than 5% aggregate overhead to the 
federal government and fewer than 100 staff nationwide.
    The Foundation's grant-making involves a thorough internal and 
external review process. Peer reviews involve federal and state 
agencies, affected industry, non-profit organizations, and academics. 
Grants are also reviewed by the Foundation's issue experts, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, according to our Congressional Charter, the 
Foundation provides a 30-day notification to the Members of Congress 
for the congressional district and state in which a grant will be 
funded, prior to making a funding decision.
                                 ______
                                 
    Dr. Fleming. Great. Thank you, Mr. Trandahl. And now Mr. 
Waitt. Dr. Waitt. I'm sorry.

STATEMENT OF DR. DAMON E. WAITT, SENIOR DIRECTOR AND BOTANIST, 
  LADY BIRD JOHNSON WILDFLOWER CENTER, UNIVERSITY OF TEXAS AT 
                             AUSTIN

    Dr. Waitt. Mr. Chairman and Congressman Gohmert, thank you 
for the opportunity to speak before your Subcommittee on the 
important issue of giant salvinia.
    As you're aware, invasive species like giant salvinia are 
of great concern to those of us who care deeply about our 
natural and national heritage.
    But even as we're working to protect that heritage from 
climate change, land development, and other pressures, natural 
ecosystems across the country, on our land and in our waters, 
are facing a less obvious but equally serious threat from non-
native invasive species.
    I'll add to the bulleted list of problems with invasive 
species, that they cause from with reducing habitat for 
endangered species and also to the cost of $137 billion 
annually, they're also the second greatest threat to native 
biodiversity, second only to habitat destruction.
    Today you've heard a lot about the efforts to control giant 
salvinia on Caddo Lake, Lake Bistineau, and other bodies of 
water in Texas and Louisiana.
    You've heard from scientists, land managers, and 
politicians describing their successes and failures, dollars 
spent, biocontrol initiatives, the impact of freezes and acres 
treated.
    While I'm familiar with these issues, I'd like to take this 
opportunity to share my personal experience with Lake Bistineau 
and Caddo Lake.
    Lake Bistineau: As the son of a U.S. Air Force pilot, our 
family moved around quite a bit, and in 1972, we were stationed 
at Barksdale Air Force Base, and we moved to Bossier, 
Louisiana.
    I was 11 years old when Lake Bistineau became my lake. 
Bistineau was where we camped, where I caught my first fish, 
where I was the captain of the jon boat. In my teen years, Lake 
Bistineau is where I skied, met girls, and snuck my first beer.
    Nature deficit disorder does not exist at Bistineau. Like 
the Spanish moss draped from the cypress trees, Bistineau was 
draped in nature. You were surrounded by it, immersed in it, 
and sometimes even intimidated by it, but you could by no means 
escape it.
    It is sad to think that these kind of experiences may no 
longer be available to the 11-year olds of 2011.
    Bistineau helped define me and started me on a path that 
led to a Ph.D. in Botany, the Wildflower Center, and a passion 
to protect ecosystems from invasive species.
    Caddo Lake: My experience with Caddo Lake came later in 
life and was primarily secondhand from a woman who grew up in 
Karnack, Texas.
    With her mother dead, her much older brothers gone, and her 
father running the local general store, there was little time 
for five-year old Claudia Alta Taylor.
    As a child, Claudia found solace in nature paddling the 
dark bayous of Caddo Lake. The sense of place that came from 
being close to the land never left her.
    She would devote much of her life to preserving it. It 
helped define her and started her down a path that led to the 
White House, Highway Beautification, and the National 
Wildflower Research Center. That young girl was, of course, 
Lady Bird Johnson.
    And when I talked to her about invasive species when she 
was still alive, she would describe--she said to me, ``Damon, 
those are plants that have no socially redeeming value.''
    One of Lady Bird's most famous quotes goes, ``The 
environment is where we all meet; where we all have a mutual 
interest; it is the one thing all of us share. It is not only a 
mirror of ourselves, but a focusing lens on what we can 
become.''
    I think we all agree that we all have a mutual interest in 
controlling giant salvinia. The question is what we can become, 
which leads me to my next point.
    Coordination. You have in this room all the ingredients to 
address the threat of giant salvinia; good research, 
biocontrol, herbicide programs, committed partners, and 
volunteer support.
    What seems to be lacking is the recipe for success that 
coordinates these ingredients into an effort that will solve 
the giant salvinia problem.
    And I say coordination, not cooperation.
    I think this hearing and all the projects we've heard about 
are good examples of the cooperation that is already occurring.
    My recommendation would be to integrate all the giant 
salvinia management efforts across the jurisdictional 
boundaries. There is a good precedent for this approach in the 
Cooperative Weed Management Areas that are springing up all 
across the Nation with the exception of Texas and Louisiana.
    Cooperative Weed Management Areas are local partnerships 
that include citizens, city, county, state, Federal leaders, 
non-profit or for-profit corporations.
    Cooperative Weed Management Areas go by different names in 
different parts of the country. In the northeast, they're 
called Partnerships for Regional Invasive Species Management, 
or PRISMs. In the southeast, they're called Cooperative 
Invasive Species Management Areas, or CISMAs.
    Call them what you will, they all share six basic 
characteristics. They operate within a defined area 
distinguished by the common weed problem; they involve a broad 
cross-section of landowners and natural resource managers; 
they're governed and held accountable by a steering committee; 
and they have a long-term commitment to cooperation, along with 
a comprehensive plan.
    All this facilitates coordination across jurisdictional 
boundaries, allows partners to share and leverage limited 
resources for the benefit of all.
    These are highly visible efforts that build community 
awareness and participation. They improve control efforts by 
training all partners in use of best management practices.
    They provide an early detection and rapid response network, 
and they can help secure funding, as we heard from Mr. 
Trandahl.
    Having established a coordinated partnership, you will make 
progress on the giant salvinia problem, be better prepared to 
address the next invasive species to arrive.
    For as long as we leave our guard down and our borders 
open, new threats will surely arrive, which brings me to my 
last point.
    Prevention. Prevention is the first line of defense. It's 
the most cost-effective approach because once a species becomes 
established, controlling it may require significant and 
sustained expenditures.
    Public investment in prevention tools, resources and 
infrastructure is indispensable in protecting our natural 
resources.
    That and I encourage the congressmen to support two Federal 
initiatives mentioned by Mr. Massimi; one is the revision of 
the Lacey Act, to require screening of animal imports and, 
second, to improve and strengthen the U.S. Department of 
Agriculture's quarantine provisions for Q37.
    Thank you for this opportunity.
    [The prepared statement of Dr. Waitt follows:]

   Statement of Damon E. Waitt, Ph.D., Senior Director and Botanist, 
   Lady Bird Johnson Wildflower Center at The University of Texas at 
                                 Austin

Biographical Information
    Dr. Damon Waitt is Senior Director and Botanist at the Lady Bird 
Wildflower Center in Austin, Texas. A self-supporting Organized 
Research Unit of the University of Texas at Austin since 2006, the 
Wildflower Center was founded in 1982 and is nationally recognized as 
an innovative leader in plant conservation and environmental 
sustainability, as well as the premier national source of information 
on native plants and landscapes. Dr. Waitt serves as the principal 
investigator on several projects related to the Wildflower Center's 
Pulling Together Invasive Species Initiative including the Invaders of 
Texas Citizen Science Program (www.
texasinvasives.org). In addition, Dr. Waitt serves on the Invasive 
Species Advisory Committee for the National Invasive Species Council, 
is founder and past-president of the Texas Invasive Plant and Pest 
Council, past chair of the National Association of Exotic Pest Plant 
Councils and past-president of the Texas Academy of Sciences. Waitt 
also serves on the Texas Invasive Species Coordinating Committee 
Advisory Group and acts as the Center's liaison to the National 
Environmental Coalition on Invasive Species.
Testimony
    Mr. Chairman and members of the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs, thank you for the opportunity to 
speak before your group on the important issue of Giant Salvinia (GS). 
As I am sure you are aware, invasive species like GS are of great 
concern to those of us who care deeply about our natural and national 
heritage. But even as we are working to protect that heritage from 
climate change, land development and other pressures, natural 
ecosystems across the country--in our backyards, along our roadways, on 
our farms and ranches and in our waters--are facing a less obvious but 
equally serious threat from non-native invasive plants. Here are just a 
few of the problems caused by invasive species:
        <bullet>  After habitat destruction, invasive species are the 
        second greatest threat to native biodiversity. Invasives 
        threaten the survival of native plants and animals, interfere 
        with ecosystem functions, and hybridize with native species 
        resulting in negative genetic impacts.
        <bullet>  Invasive species impede industry, recreation, 
        threaten agriculture, endanger human health, and are becoming 
        increasingly harder to control as a result of rapid global 
        commercialization and human travel.
        <bullet>  Invasive species are a significant threat to almost 
        half of the native species currently listed as federally 
        endangered.
        <bullet>  The costs to prevent, monitor and control invasive 
        species combined with the costs to crop damage, fisheries, 
        forests, and other resources cost the U.S. $137 billion 
        annually.
    Today, you are going to hear a lot about the efforts to control GS 
on Caddo Lake, Lake Bistineau and other bodies of water in Texas and 
Louisiana. You will hear from field scientists and managers describing 
their successes and failures, dollars spent, bio-control initiatives, 
the impact of freezes and acres treated. While I am familiar with these 
issues, I would like to take this opportunity to share my personal 
experience with Lake Bistineau and Caddo Lake.
Lake Bistineau
    As the son of a USAF Pilot my family moved around quite a bit 
(Japan, Massachusetts, Minnesota, Panama). In 1972, my father was 
stationed at Barksdale Air Force Base and the Waitt family picked up 
once again and moved to Bossier City, Louisiana. I was eleven years old 
when Lake Bistineau became my lake. Bistineau was where we camped, 
where I caught my first fish, where I had my birthday parties, where I 
was the captain of the Jon Boat. In my teen years, Lake Bistineau was 
where I skied, met girls and snuck my first beer. Nature Deficit 
Disorder did not exist at Bistineau. Like the Spanish moss draped from 
the cypress trees, Bistineau was draped in nature. You were surrounded 
by it, immersed in it and even intimidated by it but you could by no 
means escape it. It is sad to think these kinds of experiences are no 
longer available to the eleven year olds of 2011. Bistineau helped 
define me and started me on a path that led to a Ph.D. in botany, the 
Wildflower Center and a passion to protect ecosystems from invasive 
species.
Caddo Lake
    My experience with Caddo Lake came later in life and was primarily 
second-hand from a woman who grew up in Karnack, Texas. With her mother 
dead, her much older brothers gone and her father running the local 
general store, there was little time for little, five-year-old Claudia 
Alta Taylor. As a child, Claudia found solace in nature paddling the 
dark bayous of Caddo Lake, under ancient cypress trees decorated with 
Spanish moss just like Lake Bistineau. The sense of place that came 
from being close to the land never left her. She would devote much of 
her life to preserving it. It helped define her and started her down on 
a path that led to the White House, Highway Beautification, and the 
National Wildflower Research Center. That young woman was, of course, 
Lady Bird Johnson, America's Environmental First Lady.
    One of Lady Bird's most famous quotes goes: ``The environment is 
where we all meet; where all have a mutual interest; it is the one 
thing all of us share. It is not only a mirror of ourselves, but a 
focusing lens on what we can become.'' I think we agree that we all 
have a mutual interest in controlling the GS, the question is what we 
can become which leads me to my next point.
Coordination
    You have in this room all the ingredients to address the threat of 
GS (research, bio-control, herbicide programs, volunteer support, a 
management plan, etc.). What seems to be lacking is the recipe that 
combines these ingredients into a coordinated effort that will solve 
the GS problem.
    My recommendation would be to integrate all GS management resources 
across jurisdictional boundaries. There is a precedent for this 
approach in Cooperative Weed Management Areas (CWMAs) that are 
springing up (with the exception of Texas and Louisiana) all across the 
United States (Figure 1). CWMAs are local partnerships that coordinate 
efforts to address the threat of invasive plants across jurisdictional 
boundaries. They include local citizens, city, county, state and 
federal leaders, and both nonprofit organizations and for-profit 
corporations. CWMAs go by different names in different parts of the 
country, for example, Partnerships for Regional Invasive Species 
Management (PRISMs), Cooperative Invasive Species Management Areas 
(CISMAs), or Invasive Species Teams or Partnerships. They can be 
organized in a variety of ways, but they all share six basic 
characteristics:
        1)  They operate within a defined geographic area, 
        distinguished by a common geography, weed problem, community, 
        climate, political boundary, or land use.
        2)  They involve a broad cross-section of landowners and 
        natural resource managers within the boundaries.
        3)  They are governed by a steering committee.
        4)  They have a long-term commitment to cooperation, usually 
        through a formal agreement among partners.
        5)  They have a comprehensive plan that addresses the 
        management of invasive species within their boundaries.
        6)  They facilitate cooperation and coordination across 
        jurisdictional boundaries.
Why establish a CWMA?
    CWMAs cross geographical and political boundaries. Groups that have 
an agreement in place that allows cooperation across boundaries can 
address invasive plants on the landscape as a whole, rather than 
piecemeal. GS doesn't know the difference between the Texas and 
Louisiana side of Caddo Lake. Coordinated invasive plant management 
efforts are likely to be much more effective than treating a particular 
species at different times and with different methods on separate 
properties.
    CWMAs allow partners to share and leverage limited resources for 
the benefit of all. One partner may have a group of dedicated 
volunteers, another may have tools or herbicides they are willing to 
share, and another may have the ability to send press releases to media 
contacts. Partners joining together have access to more resources.
    CWMAs are highly visible, building community awareness and 
participation. Cooperative efforts can bring the issue of invasive 
plants to the attention of state and federal legislators and 
demonstrate broad support from the community for preventing and 
controlling invasive species.
    CWMAs can improve control efforts by training all partners in the 
use of best management practices. Training local landowners in control 
methods can reduce non-target damage and help them select the most 
appropriate methods for their situation.
    CWMAs can provide an early detection and rapid response network by 
ensuring that all the partners are aware of and are able to identify 
and respond to new infestations.
    CWMAs can help secure funding. An established CWMA can access 
multiple funding sources, including government grants, private 
foundation grants, and donations. The ``pulling together'' concept is 
attractive to many funders such as NFWF.
    Having established a cooperative partnership, you will make 
progress on the GS problem and be better prepared to address the next 
invasive species to arrive. For as long leave our guard down and our 
borders open, new threats will surely arrive bringing me to my last 
point. . ...prevention.
Prevention
    Prevention is the first-line of defense. It is the most cost-
effective approach because once a species becomes widespread; 
controlling it may require significant and sustained expenditures. 
Public investment in prevention tools, resources and infrastructure is 
indispensable in protecting human health, agriculture and natural 
resources. To that end I encourage this subcommittee to take a close 
look at two federal initiatives:
        1.  Revise the Lacey Act to require screening of animal 
        imports. The Lacey Act provides authority for the FWS to name 
        groups of animals as ``injurious species'' and thus restrict 
        their import. However, it does not require that animal species 
        being proposed for import be screened for either invasiveness 
        or disease risk first. This creates unacceptable threats to 
        native wildlife, to the economy, and to human and animal 
        health. Thus, Congress should provide the FWS with the 
        necessary authority to screen invasive animals, both 
        terrestrial and aquatic, rather than relying on the Lacey Act's 
        currently ineffective 100 year old provisions.
        2.  Speed up and strengthen the U.S. Department of 
        Agriculture's (USDA's) revision of plant regulations to screen 
        out weedy imports. Intentional horticultural and nursery 
        imports are the top pathway for the introduction of harmful 
        weeds. Other nations have significantly reduced weedy 
        introductions--and have reaped major economic benefits--by 
        adopting risk screening protocols. The United States urgently 
        needs a similar approach. The Obama administration should 
        direct the USDA's Animal and Plant Health Inspection Service 
        (APHIS) to promptly complete its revision of regulations for 
        importing plants, known as Quarantine 37, or ``Q-37.'' APHIS 
        released proposed improvements in 2009 but has not yet 
        implemented them. This effort needs a jump-start by the 
        administration.
    Thank you for the opportunity to provide this testimony.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                 

    .epsDr. Fleming. Thank you, Dr. Waitt, and that concludes 
the initial portion of the second round. We'll go now to the 
questions. I now recognize myself for five minutes.
    Dr. Sanders, I didn't catch it in your oral statements, but 
in your written statements, you indicate, and I'll quote you, 
The only effective eradication of giant salvinia in Louisiana 
was accomplished at the Cameron site by using saltwater.
    Dr. Sanders. That's true.
    Dr. Fleming. I'm intrigued about that. Tell me about that.
    Dr. Sanders. In 2001, we were contacted by Cameron Parish 
Police Jury. They had an infestation of giant salvinia 
essentially in the freshwater marsh just north of the town of 
Cameron.
    We went in there and took a long look at it and they tried 
spraying, spraying, spraying, and it went down the same road 
we've all been down.
    Three years later, 2004, I finally talked them into 
reversing the flow system. This was a drainage system that 
keeps the freshwater marsh fresh. It sits right on the 
Calcasieu Ship Channel.
    We hit a period of about 30 parts per thousand of saltwater 
with a southerly flow during the summer. I convinced them to go 
against their grandfathers' wishes and reverse the flow in that 
system. They drained it down, pumped saltwater in there, and 
eliminated the problem.
    The following year and a half later, of course, Hurricane 
Rita eliminated the town, so it was 15 or 18 feet of saltwater, 
but the problem had already been solved at that point.
    Now, that was essentially a saltwater marsh that had been 
converted to freshwater over time through man's interventions 
with water control structures.
    I simply did away with that for a very brief period of 
time. They flushed the saltwater system--the saltwater out of 
the system after 30 days. Fresh water plants returned, 
everything was fine.
    The problem up here is we're a long ways from the Gulf to 
get free saltwater. I had access to free saltwater.
    Dr. Fleming. OK. So that technique holds a lot of promise 
if you have access to saltwater.
    Dr. Sanders. Certainly. We are faced with a--due to--or 
just realizing that high river flow this year has introduced 
salvinia into areas previously uninfested of Jefferson, 
Plaquemines, St. Bernard.
    We'll probably look real close at that again this year 
because those areas do have access to saltwater.
    Dr. Fleming. Well, what would be the possibility or the 
practicability of not putting saltwater into such a lake, but 
putting salt in such a lake?
    Dr. Sanders. I was asked that question four or five years 
ago by a gentleman from Minden, so I actually did the math on 
that one.
    To get the level--the lethal level for giant salvinia is 
around six parts per thousand or six pounds of salt for every 
thousand pounds of water. Water weighs about nine pounds per 
gallon.
    You can do the math. It comes up to about something like 
750 18-wheeler loads of salt that would be put into the lake.
    At that point, you would lose all your cypress trees, as 
Secretary Barham mentioned earlier.
    Dr. Fleming. The baby goes out with the bath water. And 
what about if, let's say, that was not a concern, that you 
don't have cypress trees or whatever? How difficult is it to 
desalinate the water at that point.
    Dr. Sanders. The water would eventually desalinate in a 
situation where you have a flow-through lake like you do with 
Bistineau or Caddo, eventually the saltwater would move 
downstream. It would dilute itself out, depending on rainfall.
    Dr. Fleming. OK. Very interesting. Let's see. Mr. Trandahl, 
in 2005, 2007, 2008, the Foundation provided grant money to 
address the emerging problem of giant salvinia on Caddo Lake. 
Can you describe how this grant money was spent?
    Mr. Trandahl. Actually I'll turn it over to Rich. He can 
give you much more specific.
    Dr. Fleming. OK.
    Mr. Trandahl. The grant was obviously provided to the 
Institute.
    Mr. Lowerre. It was great. I should have mentioned this 
before, how the work from--the funding from the National Fish 
and Wildlife Foundation supported a large effort of pulling 
people together, doing a lot of what we talked about, the 
shoreline watch effort.
    We held training sessions because everyone is concerned. It 
was illegal to possess giant salvinia, so what does that mean 
for a shoreline person to rake it out of the lake. Is that 
illegal, you know?
    Well, we had to do a fair amount of training just in 
understanding, and we did sessions. Parks and Wildlife helped, 
local organizations, local governments helped.
    So the funding helped provide essentially a staff person to 
work, to help coordinate that kind of effort, to help work with 
the volunteers who did things such as the two-mile net that was 
put across the lake to try to capture the salvinia, and daily 
people would go out and clean the nets to try to reduce it.
    Those kinds of efforts, trying things like just barriers 
around boat docks to keep the salvinia out and open up the boat 
lanes. The mechanical harvester experiment was also part of--
was funded in part by the National Fish and Wildlife 
Foundation.
    So it really made it possible for us to experiment and 
bring a lot of people together working with the state and 
Federal agencies, who we definitely need there, but bring more 
people involved and I think successfully at the time.
    We hope to be able to bring a lot of that back together and 
cost expand it to all parts of the lake. We really did focus a 
lot on Texas and not so much on the Louisiana side.
    Dr. Fleming. I'd like to say parenthetically, I really like 
this idea about the public-private collaboration partnership. 
It has a magnification effect on the dollars spent. It's not 
just a government program. Who cares. The government is going 
to come and clean it up.
    When it's your money, you're a sportsman, you're donating 
money to the foundation or whatever organization there is and 
you're going to also make the physical effort.
    You're going to make sure your boat is clean, that your 
gear is clean, that--you know, because if it's not, then you're 
going to end up paying money to clean that back up again.
    So I think it has many benefits beyond just the obvious, 
which is to--the fact that government has such limited 
resources now, and so I appreciate what y'all are doing on 
that.
    Mr. Lowerre. And if I could comment----
    Dr. Fleming. Sure.
    Mr. Lowerre.--quickly. For good or for evil, this does 
require matching grants, so it does require Lake Caddo 
Institute to go out and find some funds, find partners.
    Dr. Fleming. Yes.
    Mr. Lowerre. And that's really helpful because it actually 
brings others involved, also. We had some great help, funding 
from local governments and private industries.
    Dr. Fleming. All right. Excellent. Thank you. I yield to my 
friend.
    Mr. Gohmert. All right. Thank you. We do appreciate 
everybody's opening statement, but even more than your opening 
statements, I appreciate the work because obviously we have 
here a collection of people that have taken this very 
seriously.
    And I can tell you personally that, you know, from talking 
to people in Washington about it, when you're talking about 
some little sweet, innocent-looking plant, it's hard to get 
people fired up about it.
    You know, they can go online and see the pictures and go, 
that? That's a threat? And so we appreciate all your efforts 
because you don't let appearances fool you. Obviously we're 
dealing with a difficult problem.
    Now, Dr. Sanders, you've mentioned grass carp in your 
discussion. I don't believe anybody today has discussed that. 
Was there much of any success with grass carp?
    Dr. Sanders. Congressman, this is another one of these 
studies that was requested by an outside individual through 
Wildlife and Fisheries, and all the historical data on grass 
carp indicate that they don't eat floating plants.
    But because of the request, we put in a trial in Gaines in 
2007, the grass carp provided by Wildlife and Fisheries. We had 
different stocking rates and different levels of infestation.
    After 90 days--of course, we had a control where we fed 
catfish commercial feed for the grass carp. After 130 days, the 
grass carp that had only giant salvinia to eat had--a number of 
them died, and all of them had lost weight from the time we put 
them in there. The ones we put se none in the controls were 
three times as big as when I put them in there.
    Basically it boils down to two things; one, they don't like 
floating plants to start with and, two, something that hasn't 
been addressed here is that the giant salvinia contains a 
metabolic toxin, contains a thiamine inhibitor.
    The grass carp nibbled on it until they got sick and 
decided that they would eat mud after that and then die, which 
is what they did. We cut the stomachs open and simply full of 
mud.
    I've gotten requests for why can't we use this for animal 
feed, cow feed. Same situation. You have to overcome this 
thiamine inhibitor problem to keep the cows from getting sick, 
so it works the same with fish.
    Mr. Gohmert. So grass carp just don't eat it. If they do, 
they get sick.
    Dr. Sanders. The nastiest trial I ever ran in my life.
    Mr. Gohmert. I've never asked anybody this. They're not 
edible, are they? Grass carp.
    Dr. Sanders. After having harvested them three or four 
different times over 120 days, I didn't want to see another 
grass carp. You're going to have to ask someone else that 
question.
    Mr. Gohmert. All right. Well, what about the cost of 
producing weevils? I know----
    Dr. Sanders. That question came up in the previous----
    Mr. Gohmert. Right.
    Dr. Sanders.--panel, so I did some quick math. We 
produced--in 2009 we produced 1.3 million adult weevils. We did 
the harvest and turned them over to Wildlife and Fisheries, so 
transportation costs aren't included in this. You would have to 
get Secretary Barham for that.
    My bottom line on it was about $35,000. That covered the 
half-time employee for that period of time and supplies.
    Mr. Gohmert. All right. And, again, there's been discussion 
of how many were needed, but about what area would 1.3 million 
weevils cover.
    Dr. Sanders. A million weevils came up here to northwest 
Louisiana and the cold weather got them. The 300,000 were 
distributed through about 18 water bodies in south Louisiana, 
and that's where we've had some success.
    We've eliminated about 10,000 acres of salvinia with those 
weevils to date, and they are continuing to grow and expand.
    Mr. Gohmert. And the question also came up in the last 
panel regarding the nutrients and too much is not a good thing, 
obviously, in lakes. Kills off fish and you get situations with 
plants you don't want.
    And before I ask that, let me just comment, because this 
will be the last question from me this round. My time ran out.
    But the public-private partnerships have been mentioned, 
but I have to thank especially the representatives of private 
foundations that have done so much for our lakes and waters and 
trying to keep us in situations where we can enjoy our 
environment.
    And, of course, I've gotten to know Don Henley through 
Caddo Lake. Nobody has more of a heart for the area in which he 
grew up than Don Henley, formerly of the Eagles.
    And even though he's a devout Democrat, he has done great 
things for the environment, and we sure appreciate that.
    In fact, previously when we were leaving a meeting and I 
had to run vote, gave the cursory, OK, take it easy, and then I 
realized that's an Eagle song. Don't let the sound of your own 
wheels make you crazy, and he said, too late. But, anyway, we 
do appreciate the work he's done to try to keep Caddo pristine.
    But what could, should be done about the nutrients that 
just continue to be a by-product of giant salvinia, water 
hyacinths, and hydrilla? Any comments what we could do, what we 
should do?
    Mr. Lowerre. The one thing we are doing, at least in the 
Caddo Lake watershed, is working with some Federal and state 
money on a watershed protection plan where we're working with 
producers, ag producers on issues of best management practices 
to reduce the extra nutrients that come into the system.
    You know, in some cases it's just a matter of proper 
balance of phosphorus and nitrogen, and the fertilizers can--
meaning we're going to have less of that stuff running into the 
rivers and systems.
    So there are some things on the water quality area that 
need to be done, continue to be done. Those are the kind of 
problems that I'm sure all up and down the Mississippi people 
are facing. We need to solve that.
    We've not tried to deal with the problem in the lake, the 
bank of nutrients in the base, in the bottom yet.
    Mr. Gohmert. OK. Thank you.
    Dr. Fleming. I thank you. The gentleman yields back.
    A question for my good friend, you're not referring to the 
Philadelphia Eagles, you're talking about the band.
    Mr. Gohmert. The band the Eagles, that's correct.
    Dr. Fleming. Yeah, because my staff just advises me that 
Don Henley is actually touring with the Eagles in Europe as we 
speak, which is why he's not here today, so maybe we'll get him 
with the next one.
    Mr. Gohmert. Maybe he's out at the Hotel California.
    Dr. Fleming. Yeah. Back to the weevils, just sorting 
through all the testimony that we've heard, and certainly the 
relative cost.
    Dr. Sanders, you mentioned $35,000 to treat, I guess, an 
entire lake in this case with weevils? Is that the proper unit?
    Dr. Sanders. Well, the million weevils got distributed 
throughout this region up here, and you have to ask Wildlife 
and Fisheries how many weevils went where. We kind of had the 
say-so over where they went in south Louisiana.
    Basically we were putting about 800 weevils on a 200-yard, 
250-yard grid pattern, and the lakes varied from pond size up 
to 40 or 50 acres, so it kind of depended on how big the lake 
was.
    But that was the target. We were trying to put 800 weevils 
on a grid pattern.
    Dr. Fleming. OK.
    Dr. Sanders. It seems--and there may be better grid 
patterns than that, better distribution.
    The weevils I can mechanically harvest is pretty easy to 
do. It's efficient. I've got an elevator. You back into a body 
of water that's a nursery and you line the trucks up and you 
load them out.
    The problem occurs on the distribution end. You have to 
distribute these things out of a boat, and we haven't found an 
easy way to do that.
    You have to have people--about 40 or 50-pound totes are 
about as much as any person can manage in a boat, so you have 
to get it down to the human level on a distribution end. That's 
also labor intensive, and, of course, that would be expensive, 
and that was covered by Wildlife and Fisheries, so----
    Dr. Fleming. Sure.
    Dr. Sanders.--Secretary Barham can give you those figures 
probably.
    Dr. Fleming. It sounds like relative to herbicide, it's 
much more cost effective, wouldn't you say.
    Dr. Sanders. Oh, yes. I probably have spent somewhere 
around 180,000, $200,000 on these nurseries total over a five-
year period, and that was less than a single Galleon treatment 
in Lake Bistineau.
    Dr. Fleming. Right. OK. All right. So that----
    Dr. Sanders. So that will give you kind of a reference on--
--
    Dr. Fleming. Certainly that suggests that weevils at this 
point are more promising, and while there's certainly no final 
answer, that's a more cost-effective treatment.
    And we talked about ways of making them survive through 
cold weather, ways of getting larger numbers to the site sooner 
in time, and maybe we can improve upon those as well as the 
weevils themselves.
    Well, I'm going to open again up to the panel and ask you 
if there's any other areas that we haven't discussed or 
anything else you would like to submit. Any other comments?
    Mr. Lowerre. If I could.
    Dr. Fleming. Yes.
    Mr. Lowerre. I do think at least I have been remiss in 
thanking the universities and the research institutes because 
they've--they really are important to the effort, too.
    A lot of our money just had to go out to control and 
treatment, and it's taken a while to, I think, understand, as 
we said earlier. You've got to understand what's happening, and 
when you do that so you can learn from it and do better, more 
cost-effective systems.
    I think the experience we're having at Caddo now with the 
new facility from Texas A&M and their center for invasive 
species eradication. Their weevil facility is--it's not only 
providing us weevils, it's providing us research on what they 
can do. It's providing us better information on conditions in 
the lake.
    So that's really a critical piece of the puzzle, too.
    Dr. Fleming. OK. Anyone else?
    Mr. Massimi. Yes. Mr. Chairman, I would just like to--as 
long as we're talking about the weevils again and comparing the 
cost to chemical control, another part of that is, you know, if 
they do over winter them and we do see significant population 
numbers, that will sustain itself.
    The weevil program might not need to be run into 
perpetuity. Maybe you reach a point where there's enough 
weevils out there that they're handling it themselves.
    Dr. Fleming. Good point.
    Mr. Massimi. Not only are you--is it cheaper than using 
chemicals now,----
    Dr. Fleming. Right.
    Mr. Massimi.--it's much cheaper in the future if----
    Dr. Fleming. If we can get them to survive through the 
winter, you don't have to repopulate.
    Now, there was a mention that you're able to sort of do 
that down south. Sort of where is the line where they begin to 
survive?
    Dr. Sanders. We did do a survey after the January cold 
spell of 2010 when there was ice formation here.
    We had weevils survival up to a line about to Alexandria, 
and I talked to my counterpart in the Texas, and he said that 
line pretty much extended westward to about Austin.
    Anything north of that line froze out. Everything south of 
that line survived. Different levels--the closer to the coast 
you got, the higher the levels of survival obviously.
    Dr. Fleming. Right.
    Dr. Sanders. But, you know, any survival is way better than 
none because----
    Dr. Fleming. Sure.
    Dr. Sanders.--once you get a population established, you're 
talking about hundreds of thousands of weevils already in 
place.
    Dr. Fleming. Do you have to enhance that population, kind 
of bulk it up periodically, or does it seem to----
    Dr. Sanders. We can speed up the process once you have 
population established on a body of water.
    One of the things we have been able to do is you can 
recognize where they're starting to take hold. You see 
discolored salvinia. It starts to turn brown.
    What we've had individual landowners do is they go in and 
relocate from those sites so they have many nurseries on their 
property.
    These are landowners in south Louisiana that have an 
interest in the process succeeding, so they have--they've taken 
it upon themselves to transplant these weevils.
    The more transplanting you do cuts down on the period of 
time it takes for the weevils to establish over a broad area.
    Dr. Fleming. All right. Well, certainly from the standpoint 
of cost effectiveness, the potential harm to humans, animals, 
and the environment in general, and the overall effectiveness, 
it sounds like that's the most promising area is weevils.
    One more comment? Yes. Go ahead.
    Mr. Ward. I'm sorry. Mr. Chairman, we talked a lot about 
weevils today, and one thing just keeps happening in my mind. 
Are there any negative by-products or any effects of the 
weevils?
    It's sounds like it's a good--but--you know, good 
application for giant salvinia, but are we causing another 
problem? Are we causing an unknown situation that we don't know 
what we're going to encounter? Is it going to be worse than the 
giant salvinia, the by-product and the weevil itself?
    Dr. Fleming. Yes. Good question. Dr. Sanders, you----
    Dr. Sanders. Yeah. I'll respond to that. That question 
comes up every time I have a meeting on weevils. Obviously 
there's a concern that you're going to release the next new 
plague upon the earth.
    All we have right now are two things. One, the USDA APHIS 
has cleared this thing. It went through an intensive testing 
program to make sure it didn't eat anything else.
    Second, it's been used on three other continents without 
any adverse effect, going back about 40 years.
    I wanted to know what happened to the weevils when they do 
eat--consume all the salvinia in a pond. Where do they go? 
Well, we did another one of these myriad of studies that I've 
been asked to do.
    Dr. Fleming. Yeah.
    Dr. Sanders. Well, what happens here, it's kind of amazing. 
They actually swim out of the pond trying to seek another batch 
of salvinia somewhere, and in south Louisiana, they're all 
consumed by fire ants, another invasive species.
    We did about a dozen studies----
    Dr. Fleming. Yeah.
    Dr. Sanders.--and none of the weevils made it more than 
about 20 feet from the pond there.
    Dr. Fleming. Right.
    Dr. Sanders. There was a predator waiting to attack them, 
so----
    Dr. Fleming. Amazing, amazing. You have----
    Mr. Massimi. If I may, Mr. Chairman.
    Dr. Fleming. Yes.
    Mr. Massimi. The long history of biocontrol, there's been 
some horror stories in the past. The King Toad in Australia is 
probably the biggest example, textbook example of that.
    You think something is going to control something, you 
bring it in, and it's worse than the thing you were trying to 
control in the first place.
    I personally think that those days are long gone. APHIS 
does a very good job under quarantine. I mean, they test every 
plant under the sun to make sure that these weevils won't eat 
anything else. Without any salvinia around, they die. They go 
away.
    Dr. Fleming. I see.
    Mr. Massimi. So most invasive species, we're not lucky 
enough to have a biocontrol agent. It just so happens that the 
particular relationships between plants and insects are 
sometimes very, very specific.
    This is one case where we have a perfectly host specific 
biocontrol agent and we're just very lucky to have it. I think 
it's definitely going to be the biggest part of our control 
effort going forward.
    Dr. Fleming. Great. Great information. OK. I yield back to 
Mr. Gohmert.
    Mr. Gohmert. Thank you. And, of course, you know, you've 
heard me ask the question, what about--isn't there a chance the 
weevils might eat something else, and I still have that concern 
in the back of my mind.
    But how big are these weevils that we're talking about, Dr. 
Sanders?
    Dr. Sanders. The adult weevils, the females are slightly 
bigger than the males. They're about an eighth of an inch long. 
They're visible to the naked eye. They're pretty easy to see.
    One of the things that also will--say somebody introduced a 
salvinia-like plant that the weevils could potentially eat.
    The weevils have a very unique reproductive strategy in 
that they lay the eggs in these rye zones of these plants. If 
the rye zones aren't there, then the weevils can't reproduce.
    So even if one of them did take a bite out of something 
that somebody introduced that we aren't--40 years from now that 
we're not aware of now, they still couldn't reproduce in there, 
so it would be a single bite and no problem.
    Mr. Gohmert. Well, from all that I've read and much of it 
coming from people here, I've had a lot of my questions 
answered.
    But just in conclusion, I've got one that has not yet been 
answered. You've talked about 1.3 million weevils costing 
$35,000 and how you mechanically can move them and all. Who 
counts those things?
    Dr. Sanders. Another one of these myriad studies, how many 
weevils are in a pound of salvinia and the first question we 
tried to answer.
    There's actually entomologists came up with a system 
decades ago that they run a series of plant matter through, 
it's called a berlese funnel.
    What it is is a--just like the name sounds, it's a funnel 
with a screen in it.
    You put a heat source over the top, in this case a 
fluorescent light bulb, and the heat and the light forces the 
live insects down through the plant mass, through the neck of 
the funnel, down the funnel into some type of collection 
device. We use little plastic bags.
    But after the plant matter is completely dry, we pull them 
out, we pour them out, we count the numbers of weevils that are 
in there.
    We put a kilo of stuff in, we count however many weevils 
are at the bottom, and that's how we make the determination, 
and we make hundreds and hundreds and hundreds of these 
determinations.
    Mr. Gohmert. Thank you. Thank you. I yield back. Thank you.
    Dr. Fleming. Well, gentleman yields back. Again, 
fascinating discussion today. Thank you for your information. 
It certainly makes being a Member of Congress seem a lot easier 
than what you gentlemen have to do every day, so we 
appreciate----
    Mr. Gohmert. We deal with weevils.
    Dr. Fleming. Yeah, we do. Indeed we do.
    Well, if there are no further questions, I would like to 
let you know that if there are any other questions from Members 
on the hearing today, we have ten days to submit these 
additional questions to witnesses. We would ask that you be 
willing to respond to us in writing.
    I'd like to thank the University for all the assistance, 
wonderful facility here, auditorium. Thank you for allowing us 
to use this.
    I would like to thank the witnesses and staff, particularly 
Harry Burroughs, who is our lead staff, who really was in 
charge of putting this together, and this is not a small 
logistical thing to put together outside of Washington; 
Samantha, my staff member as well for her work, and many of the 
other staff here today.
    We will continue to do our very best to work in a 
cooperative manner to insure that giant salvinia is controlled 
in Caddo Lake, Lake Bistineau, and other bodies of water.
    If there is no further business today, then the 
Subcommittee stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by William R. 
Altimus, Bossier Parish Police Jury District 9, follows:]

       Statement submitted for the record by William R. Altimus, 
        Bossier Parish Administrator, Bossier Parish Police Jury

    On behalf of the Bossier Parish Police Jury, I want to thank the 
Committee for allowing us to make the following comments concerning 
this issue. Bossier Parish is one of the three parishes that border 
Lake Bistineau which has been heavily infested with Giant Salvinia for 
years. This infestation has made the lake unusable for extended periods 
of time for those who wish to use it for recreation, fishing 
activities, and even residing around the lake.
    As we are all aware, this weed is a tremendous nuisance and 
extremely hard to remove and keep out of lakes. Fluctuating water 
levels and extreme temperatures provided by nature have thus far been 
the most effective in removing and/or reducing this weed.
    I am attaching for the Committee's review an excerpt from the 
Louisiana Department of Wildlife and Fisheries Waterbody Management 
Plan Series for Lake Bistineau. This section of the plan details the 
history and effectiveness of the various attempts of this department in 
trying to control the Salvinia on Lake Bistineau. I believe this 
information will be beneficial to your Committee in showing what has 
been done in efforts to remove the Salvinia from Lake Bistineau.
    Also, I would like to bring to the Committee's attention a research 
project currently underway at Louisiana Tech concerning a bioherbicide 
agent that has shown success in managing and killing the Salvinia. I 
believe this project is worthy of this Committee's support, and if 
proven to be successful, this project be moved through the EPA 
registration process as quickly as possible. I was provided a brief 
outline of this project which I now present to you.
    ``La Tech has a collaborative research agreement with SePro 
Corporation to evaluate the naturally occurring fungus Myrothecium 
verrucaria for control of giant salvinia. This project is in the early 
stages of technical feasibility studies to determine the bioherbicidal 
potential of the fungus. Pending satisfactory completion of these 
studies, economic feasibility studies are expected to follow. EPA 
registration would be required before the fungus could be used as a 
biological herbicide. Legal protection for development of the fungus as 
a bioherbicide is provided by La Tech patents.''
    I feel that studies like this will ultimately provide the sliver 
bullet that will be effective and economical in controlling Salvinia.
    Thanking you in advance,

William R. Altimus
Bossier Parish Administrator

[NOTE: The report has been retained in the Committee's official files.]
                                 ______
                                 
    [Cypress Valley Navigation District, Marshall, Texas, 
``Giant Salvinia Response Program'' dated June 1, 2011, 
submitted for the record follows:]

                   CYPRESS VALLEY NAVIGATION DISTRICT

                          MARSHALL TEXAS 75661

                    GIANT SALVINIA RESPONSE PROGRAM

             PRESENTED TO THE RED RIVER VALLEY ASSOCIATION

                      IN TEXARKANA, JUNE 1st, 2011

    The Cypress Valley Navigation District is a political subdivision 
of the state of Texas. Its responsibility is to maintain navigation on 
Big Cypress Bayou and Caddo Lake in Harrison and Marion Counties. The 
Board is appointed by the Commissioners Courts of both counties. . ..5 
from Harrison County and 5 from Marion County. They meet 6 times a year 
alternating between Counties for their meetings.
    Caddo Lake has long had a problem with invasive species. . .namely 
Water Hyacinth. Some say this problem dates back to the Late 1950's 
when Lake o The Pines was impounded. Other invasive species are also 
present in Caddo, some cause little problem and some are or have the 
potential to be major problems.
    The worst offenders include;
        Giant Salvinia
        Hydrilla
        Alligator Weed
    Others that tend to be more localized are:
        Water Millfoil
        FanWort
        Water Primrose
        Elodea
        Parrot Feather
        Pennywort
        Frog's Bit
        Spatterdock
        Duck weed
        Watermeal
        All types of lilies
        Egieria
        Coontail
        American Lotus
    There are three main control regimes for invasive species
        Bio Controls,
        Herbicide Application,
        and Containment/Removal of material
    Containment/Removal of Giant Salvinia has been tried on Caddo in 
recent years. A trial using a barge with a conveyor system was used to 
remove and transport the material to shore was conducted. The trial was 
successful in that it removed the material from the shallow stumpy 
environment without breakdowns, however, the overall process was slow 
and not cost effective for large areas.
    Bio Controls have been and are currently being used on Caddo Lake. 
Bio Controls have been used on Water Hyacinth, Alligator Weed, Hydrilla 
and Giant Salvinia. Texas A & M and TPWD currently have facilities at 
the Caddo Lake National Wildlife Refuge in Karnack Texas to raise Giant 
Salvinia Weevils and release them on Caddo Lake.
    Herbicide Applications are on-going on Caddo Lake on both sides of 
the Lake. LDWF is spraying Giant Salvinia on the La. Side of Caddo 
while TPWD, CVND, USFWS and Texas A & M are all working together on the 
Texas side.
    The Cypress Valley Navigation District focuses their control 
efforts on Giant Salvinia and Water Hyacinth using herbicide 
applications.
    We work closely with Texas Parks and Wildlife and follow their Lake 
Management Plan for Caddo Lake.
    CVND's efforts on Giant Salvinia started in 2007 when Giant 
Salvinia was first reported in the Jeems Bayou area of Caddo Lake. A 
plan was devised to put up a barricade 2 miles long across the middle 
of the lake to intercept the floating salvinia. The fence was erected 
and patrolled daily. It it was effective on stopping large quantities 
of salvinia but could not stop it all. The fence was destroyed by winds 
from Hurricane Ike and was subsequently removed from the lake.
    CVND has been spraying herbicides since late 2007 first using the 
Greater Caddo Lake Associations spray rigs and personnel and in April 
2008 we received a surplus airboat from TPWD which we retrofitted with 
a new engine and spray rig. In March 2009 we purchased a smaller boat 
with a Pro Drive motor and a spray rig on it.
    From 2007 to the end of May 2011 we have sprayed almost 4000 acres 
of Giant Salvinia and over 3000 acres of Water Hyacinth
    In 2007 TPWD's annual vegetation survey found only trace occurances 
of GS on the Texas side of Caddo,
    in 2008 the annual survey showed almost 1100 acres
    In 2009 the annual survey rang up over 3200 acres, the largest 
coverage to date.
    In 2010 the amount was vastly lower @ 605 acres. This was due to a 
colder than normal winter along with some higher water levels in the 
winter of 2009. . .in the winter of 2010 we again had a colder than 
normal winter and we estimate the Giant Salvinia to cover less than 300 
acres currently.
    Water Hyacinth levels mimick the salvinia, building up then falling 
out with high water and cold weather.
    Hydrilla and Alligator weed only seem to be increasing in their 
coverage. Caddo has over 5000 acres of hydrilla as of the most recent 
TPWD survey.
    Alligator weed is spreading as well, covering several hundred 
acres.
    CVND receives funding from several sources. Current funding for 
fiscal year 2011 is:
         Harrison County $17500
         Marion County $7500
        *TPWD $120,000
         USFWS Grant $40,000
    TPWD funds are through legislative directive (thanks Rep Hughes!) 
as follows;
    For the previous biennium(2008-2009) 240,000
    For current biennium (2010-2011) 200,000
    TPWD added $40,000 for this biennium in addition to the 200,000 
from legislature to bring the 2010-2011 total to 240,000
    CVND has received $685,000 from all sources since 2008. This has 
been used to maintain navigation which includes herbicide applications 
for water hyacinth and Giant Salvinia. It also has been used for 
Barricade construction, maintenance and cleaning as well as rebuilding 
donated airboat, purchasing and outfitting new spray boat, boat road 
maintenance and log/tree removal.
    CVND currently has a contractor in place that is spraying salvinia 
using our boats and equipment. Our equipment consists of;
        1- 16' American Airboat capable of spraying in excess of 25 
        acres a day
        1- 18' Go Devil mud boat with Prodrive 27hp surface drive 
        engine capable of spraying in excess of 25 acres a day.
    Both boats have Kappa 55 pump systems that draw water directly from 
the lake.

                                 <all>

</pre></body></html>
